<html>
<title> - WHITE-NOSE SYNDROME: WHAT'S KILLING BATS IN THE NORTHEAST?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
      WHITE-NOSE SYNDROME: WHAT'S KILLING BATS IN THE NORTHEAST? 

=======================================================================

                        JOINT OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON INSULAR AFFAIRS,
                          OCEANS AND WILDLIFE

                             joint with the

                    SUBCOMMITTEE ON NATIONAL PARKS,
                        FORESTS AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                         Thursday, June 4, 2009

                               __________

                           Serial No. 111-21

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov
      
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

50-087 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 
























                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

          SUBCOMMITTEE ON INSULAR AFFAIRS, OCEANS AND WILDLIFE

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Jeff Flake, Arizona
    Samoa                            Doug Lamborn, Colorado
Neil Abercrombie, Hawaii             Robert J. Wittman, Virginia
Frank Pallone, Jr., New Jersey       John Fleming, Louisiana
Gregorio Sablan, Northern Marianas   Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Bill Cassidy, Louisiana
    Islands                          Doc Hastings, Washington, ex 
Diana DeGette, Colorado                  officio
Ron Kind, Wisconsin
Lois Capps, California
Carol Shea-Porter, New Hampshire
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            Don Young, Alaska
Neil Abercrombie, Hawaii             Elton Gallegly, California
Grace F. Napolitano, California      John J. Duncan, Jr., Tennessee
Rush D. Holt, New Jersey             Jeff Flake, Arizona
Madeleine Z. Bordallo, Guam          Henry E. Brown, Jr., South 
Dan Boren, Oklahoma                      Carolina
Martin T. Heinrich, New Mexico       Louie Gohmert, Texas
Peter A. DeFazio, Oregon             Bill Shuster, Pennsylvania
Maurice D. Hinchey, New York         Robert J. Wittman, Virginia
Donna M. Christensen, Virgin         Paul C. Broun, Georgia
    Islands                          Mike Coffman, Colorado
Diana DeGette, Colorado              Cynthia M. Lummis, Wyoming
Ron Kind, Wisconsin                  Tom McClintock, California
Lois Capps, California               Doc Hastings, Washington, ex 
Jay Inslee, Washington                   officio
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, June 4, 2009...........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     2
    Cassidy, Hon. Bill, a Representative in Congress from the 
      State of Louisiana.........................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     4

Statement of Witnesses:
    Darling, Scott R., Wildlife Biologist, Vermont Fish and 
      Wildlife Department........................................    38
        Prepared statement of....................................    39
    Holtrop, Joel, Deputy Chief, National Forest System, Forest 
      Service, U.S. Department of Agriculture....................    13
        Prepared statement of....................................    14
    Kunz<plus-minus>, Thomas H., Ph.D., Director, Center for 
      Ecology and Conservation Biology, Professor of Biology, 
      Boston University..........................................    52
        Prepared statement of....................................    54
        Response to questions submitted for the record...........    59
    Moriarty, Marvin, Northeast Regional Director, Fish and 
      Wildlife Service, U.S. Department of the Interior..........     4
        Prepared statement of....................................     6
        Response to questions submitted for the record...........     9
    Tuttle, Merlin D., Ph.D., Founder and President Emeritus, Bat 
      Conservation International.................................    29
        Prepared statement of....................................    30
        Response to questions submitted for the record...........    37
    Youngbaer, Peter, White Nose Syndrome Liaison, National 
      Speleological Society......................................    45
        Prepared statement of....................................    47
        Response to questions submitted for the record...........    51

Additional materials supplied:
    Fascione, Nina, Vice President for Field Conservation 
      Programs, Defenders of Wildlife, Statement submitted for 
      the record.................................................    73
    Matteson, Mollie, Conservation Advocate, Center for 
      Biological Diversity, Letter submitted for the record......    71


JOINT OVERSIGHT HEARING ON WHITE-NOSE SYNDROME: WHAT'S KILLING BATS IN 
                             THE NORTHEAST?

                              ----------                              


                         Thursday, June 4, 2009

                     U.S. House of Representatives

                Subcommittee on Insular Affairs, Oceans

                      and Wildlife, joint with the

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittees met, pursuant to call, at 10:01 a.m. in 
Room 1324, Longworth House Office Building, The Honorable 
Madeleine Z. Bordallo [Chairwoman of the Subcommittee on 
Insular Affairs] and The Honorable Raul M. Grijalva [Chairman 
of the Subcommittee on National Parks] presiding.
    Present: Representatives Bordallo, Grijalva, Napolitano, 
Shea-Porter, Tsongas, and Cassidy.

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE TO CONGRESS 
                           FROM GUAM

    Ms. Bordallo [presiding]. Good morning, everyone. If there 
are people standing in the back, we always invite you to come 
and take the chairs here in the lower section here, this round 
table here. Thank you.
    The Joint Oversight Hearing by the Subcommittee on National 
Parks, Forests and Public Lands and the Subcommittee on Insular 
Affairs, Oceans and Wildlife will come to order.
    Today, we will hear testimony concerning an unprecedented 
disease affecting bats known as the White-Nose Syndrome. Under 
Committee Rule 4[g], the Chairwoman, Chairman and the Ranking 
Minority Members will make opening statements.
    White-Nose Syndrome is named for the striking fungal growth 
on the muzzles, the ears and the wings of bats. Little is known 
about this disease but it was first documented west of Albany, 
New York, in February of 2006. Over the last three years, 
White-Nose Syndrome has spread to nine states from New 
Hampshire to West Virginia. The mortalities are astonishing, 
reaching up to 100 percent in some caves and mines.
    There is great concern that White-Nose Syndrome may quickly 
spread to southern and midwestern regions, and ravage both 
healthy and endangered species of bats.
    White-Nose Syndrome in bats has profound public health, 
environmental, and economic impacts. Bats are nature's best 
control of insect populations as a single bat can eat its 
entire weight in insects in one night. When not controlled, 
many insects spread disease and others are agricultural pests. 
One study estimated that the value of bats in controlling 
cotton pests in parts of Texas was as great as $1.7 million per 
year. Their decline will likely have far-reaching ramifications 
for both agriculture and public health.
    Bats with White-Nose Syndrome exhibit uncharacteristic 
behaviors and emerge from hibernation during the winter, 
consuming fat reserves which may result in starvation. 
Transmission of the disease is not fully understood but is 
believed to be bat to bat or possibly transferred by humans who 
visit affected caves.
    Given this limited understanding, the Fish and Wildlife 
Service has issued an advisory, asking for a voluntary 
moratorium on caving activities in affected areas and some 
caves on Forest Service, state, and private lands have been 
closed.
    While I commend this action, the severe mortality and the 
sudden spread of White-Nose Syndrome demonstrate the need for a 
rapid response beyond closing caves where bats live. We must 
quickly ascertain the causes of, and the vectors for, the 
spread of White-Nose Syndrome to avoid what could be an 
ecological and economic disaster if it remains unchecked.
    So, this morning I look forward to hearing from our invited 
witnesses who under limited resources have been working 
cooperatively and diligently to understand and manage White-
Nose Syndrome in bats, and I appreciate their recommendations 
on how this challenge can quickly be met.
    [The prepared statement of Ms. Bordallo follows:]

     Statement of The Honorable Madeleine Z. Bordallo, Chairwoman, 
          Subcommittee on Insular Affairs, Oceans and Wildlife

    White-Nose Syndrome is named for the striking fungal growth on the 
muzzles, ears, and wings of bats. Little is known about this disease, 
but it was first documented west of Albany, New York in February of 
2006. Over the last three years, White-Nose Syndrome has spread to nine 
States, from New Hampshire to West Virginia. The mortalities are 
astonishing, reaching up to 100 percent in some caves and mines. There 
is great concern that White-Nose Syndrome may quickly spread to 
southern and mid-western regions and ravage both healthy and endangered 
species of bats.
    White-Nose Syndrome in bats has profound public health, 
environmental, and economic impacts. Bats are nature's best control of 
insect populations, as a single bat can eat its entire weight in 
insects in one night. When not controlled, many insects spread disease 
and others are agricultural pests. One study estimated that the value 
of bats in controlling cotton pests in parts of Texas was as great as 
$1.7 million dollars per year. Their decline will likely have far 
reaching ramifications for both agriculture and public health.
    Bats with White-Nose Syndrome exhibit uncharacteristic behaviors 
and emerge from hibernation during the winter, consuming fat reserves, 
which may result in starvation. Transmission of the disease is not 
fully understood, but is believed to be bat-to-bat or possibly 
transferred by humans who visit affected caves. Given this limited 
understanding, the Fish and Wildlife Service has issued an advisory 
asking for a voluntary moratorium on caving activities in affected 
areas and some caves on Forest Service, State, and private lands have 
been closed.
    While I commend this action, the severe mortality and the sudden 
spread of White-Nose Syndrome demonstrate the need for a rapid response 
beyond closing caves where bats live. We must quickly ascertain the 
causes of and vectors for the spread of White-Nose Syndrome to avoid 
what could be an ecological and economic disaster, if it remains 
unchecked.
    I look forward to hearing from our invited witnesses who, under 
limited resources, have been working cooperatively and diligently to 
understand and manage White-Nose Syndrome in bats, and I appreciate 
their recommendations on how this challenge can quickly be met.
                                 ______
                                 
    Ms. Bordallo. As Chairwoman of this Subcommittee, I now 
recognize Mr. Cassidy, the acting Ranking Republican Member of 
the Subcommittee on Insular Affairs, Oceans and Wildlife, for 
any statement that he may have.

 STATEMENT OF HON. BILL CASSIDY, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Mr. Cassidy. Thank you. Some of which I say will be a 
repeat but it is worth acknowledging again.
    Good morning. Today, we will examine the White-Nose 
Syndrome affecting our bat populations. We know little about 
the cause of this disease, and how we can stop it from 
spreading to caves and mines throughout the United States. What 
we do know is that the White-Nose fungus was first documented 
in a single cave in the Adirondack Mountains in New York in 
February 2006. Since that time, its prevalence has dramatically 
increased across New England and the Mid-Atlantic states.
    It has been responsible for the deaths of a million or more 
bats, and if left unchecked has the potential to wipe out 
several species of bats, including the highly endangered 
Indiana bat and the Virginia big-eared bat.
    While I am pleased that both Federal, state, and local 
agencies have taken proactive steps to combat the White-Nose 
Syndrome by closing caves, mines and sink holes, it is critical 
that the cause be identified and an effective strategy 
developed before the onset of next winter. We must stop this 
disease before it spreads to other states, for example, my own, 
Louisiana, or Texas.
    We need a large, healthy bat population in the United 
States and across the planet. Bats are important to 
agriculture. Bats consume more than 3,000 insects a night. An 
entire colony of bats eats millions of crop-destroying and 
disease-carrying pests. They reduce the need for pesticides 
and, by so doing, save farmers billions of dollars a year.
    In fact, the Smithsonian recently issued a report 
documenting bats consume roughly twice as much plant-eating 
insects as do birds.
    I am also pleased to hear that the U.S. Fish and Wildlife 
Service recently approved a two-year $1.3 million state 
wildlife grant to find the cause of the White-Nose Syndrome, 
how it is transmitted, and how to stop the disease from 
spreading. We hope these efforts are successful.
    In the meantime, Madam Chairwoman, we will hear from a 
distinguished panel of witnesses today. I am hopeful that we 
will gain a better understanding of this disease and we will 
hear about effective ways we can stop it in the very near 
future.
    Again, thank you, Madam Chairwoman.
    Ms. Bordallo. I thank the Ranking Member for his opening 
statement, and now it is my distinct pleasure to recognize Mr. 
Grijalva who is the Chairman of the Subcommittee on National 
Parks, Forests and Public Lands, and I will mention that this 
is a joint hearing. So, Mr. Grijalva's Subcommittee is also 
chairing this particular hearing. And so now I would like to 
recognize the gentleman from Arizona to give his opening 
statement.

    STATEMENT OF HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Madam Chairwoman, and let me 
associate myself with your opening comments and the Ranking 
Member's opening comments.
    The only point that I want to add is that White-Nose 
Syndrome is the issue that we are dealing with right now--the 
cause, how to contain, how to mitigate what is going on. It is 
a potential ecological disaster, as the Chairwoman aptly 
pointed out.
    But I also think that how we respond, how we gather the 
information, how we look at root cause is also essential 
because I think this challenge is not isolated to the White-
Nose Syndrome. Likely with the growing impact of climate 
change, we will need to respond more and more to unknown 
diseases, unprecedented deaths in animal populations. Our 
ability to determine the level of response will be key in 
minimizing any negative effects of these threats.
    I want to thank all the witnesses. I am particularly 
interested in how the Federal agencies are going to coordinate 
and respond in a timely manner, and look forward to the 
witnesses, and thank you very much, Madam Chair.
    Ms. Bordallo. I thank the gentleman who is co-chairing this 
hearing, the gentleman from Arizona.
    I would also like to mention joining us on the dais here is 
the gentlelady from California, The Honorable Grace Napolitano. 
Thank you.
    And now at this time I would like to introduce the 
witnesses. First, we have Mr. Marvin Moriarty, the Northeast 
Regional Director of the U.S. Fish and Wildlife Service, and 
Mr. Joel Holtrop, Deputy Chief, National Forest System.
    As we begin, gentlemen, I would note for the witnesses that 
the red timing light on the table will indicate when five 
minutes have past and your time has concluded. We would 
appreciate your cooperation in complying with these limits, but 
be assured that your full written statement will be submitted 
for the record.
    So, at this point, I would like to recognize Mr. Moriarty. 
Welcome, and please begin.

  STATEMENT OF MARVIN MORIARTY, NORTHEAST REGIONAL DIRECTOR, 
UNITED STATES FISH AND WILDLIFE SERVICE, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Moriarty. Thank you very much. Chairwoman Bordallo and 
Chairman Grijalva, and Members of the Subcommittees, my name is 
Marvin Moriarty, and currently I am the Acting Deputy Director 
of the Fish and Wildlife Service. This just happened on Monday. 
I am here for a month, but I am representing the Department of 
the Interior, and when I do go home in July, I will resume my 
position as the Northeast Regional Director of the Fish and 
Wildlife Service.
    I would really like to thank you for the opportunity to 
testify about White-Nose Syndrome. It is an emerging disease 
which has spread rapidly and is posing a serious threat to U.S. 
bat populations.
    White-Nose Syndrome was first recorded in 2007 in a cave 
near Albany, New York, and is associated with greater than 90 
percent mortality of hibernating bats in more than 65 caves 
through nine Northeast and Mid-Atlantic states. Six bat species 
have been affected thus far, including the Federally endangered 
Indiana bat. The sudden and widespread mortality associated 
with this syndrome has never been observed before in the more 
than 1,100 known bat species.
    The white powdery substance on the faces of affected bats 
is caused by a fungus never before documented. A description of 
the fungus has been published in a scientific journal this 
month by the U.S. Geological Survey and other scientists. It 
apparently grows only in cold temperatures. When hibernating 
bats lower their body temperature significantly and pack 
together, these two factors seem to promote the spread of the 
fungus from bat to bat.
    Most of the bats affected live about five to 15 years and 
have only one offspring per year, and thus populations will be 
slow to recover, if at all, from this disease.
    The verification of White-Nose Syndrome in West Virginia 
and Virginia caves last winter indicates its potential spread 
to Southeastern and Midwestern states. These states support 
larger populations of hibernating bats, including millions of 
individuals of several species. Other bat species may be 
impacted if the disease spreads.
    In response to this crisis, the Department of the Interior 
is leading a coordinated response among the U.S. Fish and 
Wildlife Service, U.S. Geological Survey, the National Park 
Service, U.S. Department of Agriculture, and other Federal 
agencies, affected states, the academic community, private 
nonprofit organizations, and other stakeholders.
    Through funding provided by the Department we have 
assembled a team of experts from more than 50 partner agencies 
and organizations. This community is working together to 
monitor the spread of the White-Nose Syndrome and mortality in 
affected bats, to identify the mechanisms of transmission, to 
research the cause, and to develop management and containment 
options for wildlife managers, which we expect to be in place 
this coming September.
    The Department is also working closely with the 
recreational caving and cave research communities to develop 
decontamination protocols and cave access recommendations to 
prevent potential spread through human activities.
    In March of 2009, the Fish and Wildlife Service issued an 
advisory recommending voluntary suspension of caving activities 
in affected and adjoining states. The National Park Service has 
closed wild caves and mines in several units, although large 
commercial caves and national park units remain open at this 
time. More closures will occur in response to any spread of the 
White-Nose Syndrome.
    In conclusion, White-Nose Syndrome is the greatest 
challenge to bat conservation we have ever faced, and we are 
employing an approach that combines the strengths of each of 
our bureaus and our partners.
    As climate change significantly alters habitats and 
introduces other stressors to native fish and wildlife, we may 
experience other changes to fish and wildlife populations in 
the United States. Moving through this challenge will help us 
further develop a model for successful community-based 
responses to emerging wildlife diseases.
    The Department appreciates the interest of the Committee 
and your respective Subcommittees in White-Nose Syndrome and of 
the efforts our community is taking to address it. We look 
forward to working with you to slow the spread of this disease 
and to mitigate its impact on bat populations.
    Again I thank you for the opportunity to testify before you 
today, and I would be happy to answer any questions that you or 
the Committee members might have.
    [The prepared statement of Mr. Moriarty follows:]

  Statement of Marvin Moriarty, Regional Director, Northeast Region, 
       Fish and Wildlife Service, U.S. Department of the Interior

    Chairwoman Bordallo, Chairman Grijalva, and Members of the 
Subcommittees, I am Marvin Moriarty, Regional Director for the U.S. 
Fish and Wildlife Service's Northeast Region. Thank you for the 
opportunity to testify about an emerging wildlife disease, known as 
white-nose syndrome, which has spread rapidly through the Northeast and 
is posing a serious threat to bats.
Background
    White-nose syndrome (WNS) is a term given to a disease first 
recorded in March of 2007 in bats hibernating in a cave near Albany, 
New York. WNS is associated with greater than 90% mortality of 
hibernating bats in affected caves throughout the Northeast, with close 
to 100% mortality in some locations. Thus far, six bat species have 
been affected, including the federally endangered Indiana bat. Other 
currently affected species are the little brown bat, northern long-
eared bat, tri-colored bat, big brown bat, and small-footed bat. The 
sudden and widespread mortality associated with WNS has never been 
observed before in any of the more than 1,100 species of bats known to 
science.
    Affected bats display a white, powdery substance on their faces 
and, on closer examination, many show tissue damage and scarring in 
their wings. Based on microscopic analysis, the powdery substance and 
tissue damage is a fungus from a group of fungi that is commonly found 
in the environment. However, this particular species of fungus has 
never before been described by scientists. This species grows only in 
cold temperatures, and unlike most fungi, it invades living tissues. 
When hibernating, bats lower their body temperature significantly, and 
they pack tightly together--two factors which seem to promote the 
spread of the fungus from bat to bat. Although the primary vector of 
transmission is believed to be from bat-to-bat, WNS may be 
inadvertently spread from cave to cave by human activity in caves. WNS 
has spread into new areas farther away and faster than expected in 
typical bat migration patterns. Often when WNS affects a new area, it 
appears first in caves with high human visitation. Nearby caves that do 
not receive significant human traffic remain unaffected, at least 
initially. On March 26, 2009, The Service issued an advisory asking for 
a voluntary moratorium on caving in any state with confirmed WNS sites 
and in any adjacent states (available at http://www.fws.gov/northeast/
wnscaveadvisory.html).
    The exact cause of mortality of affected bats is not yet fully 
understood, but the newly identified fungus is considered a likely 
contributor. Dead bats are often found to be emaciated, and bats in 
affected caves have been observed exhibiting more activity than is 
normal during hibernation, including leaving caves on cold winter days. 
Since 2007, WNS has been documented in more than 65 caves with 
hibernating bats in nine Northeastern and Mid-Atlantic states.
    There are gaps in our current scientific understanding of bat 
populations, ecology, biology, and life history. However, we can use 
existing information and our recently gathered knowledge about the 
newly-discovered fungus to piece together an initial assessment of the 
impacts of WNS on affected bats and potential impacts on their 
populations.
    The species of bats thus far affected by WNS are insectivorous, and 
they all rely on hibernation as a strategy for surviving harsh winter 
conditions when their insect food is not available. Prior to 
hibernation, these bats build up fat reserves to sustain them through 
the winter. To survive winter months without food, bats slow their 
metabolism and hibernate, so that most of the time their body 
temperature remains just a few degrees above air temperature in the 
cave. This strategy allows them to survive the winter on their stored 
fat, which can be quickly depleted in only a few hours of activity.
    The fungus has been observed to grow on and invades the skin and 
underlying tissue, particularly the wings of affected bats, where it 
causes swelling and scarring. Wing membranes represent about 85% of a 
bat's total surface area and play a critical role in balancing complex 
physiological processes, such as body temperature regulation, blood 
pressure, water balance, and gas exchange--not to mention allowing bats 
to fly and to capture insect prey. WNS may interfere with these 
critical functions and cause skin irritation, disturbing hibernating 
bats and causing them to expend more energy than their fat reserves can 
sustain.
    For some small mammal species, a mass mortality event like that 
caused by WNS would not significantly affect the long-term 
sustainability of their populations. However, bats differ from most 
other small mammals in that they have long lives and reproduce slowly--
a combination that precludes rapid population growth and recovery. Most 
of the bat species currently affected by WNS live about 5-15 years and 
have only one offspring per year. Thus, biologists are concerned that, 
even if we are able to abate the situation, it will take many human 
generations for populations of WNS affected bat species to recover.
    Among the 25 species of bats in the United States that rely on 
hibernation to survive winter, four species and subspecies are 
federally listed as endangered through the FWS, and several other 
species are identified by other federal and state agencies as in need 
of conservation.. All four endangered species and subspecies of 
hibernating bats in the U.S. rely on caves or mines for successful 
overwintering and are at risk from WNS.
    Although much of the scientific understanding of bat population 
ecology and dynamics necessary to make a precise determination is 
lacking, biologists estimate that between 500,000 and 1 million bats 
have died so far as a result of WNS. The Department is concerned about 
its potential impact on bat populations, especially those species 
currently listed as federally endangered, because of the high mortality 
associated with WNS and its rapid spread.
    White-nose syndrome was found in West Virginia and Virginia caves 
for the first time late last winter, indicating its potential spread 
from Northeastern and Mid-Atlantic states to Southeastern and 
Midwestern states. These states support much larger caves and 
populations of hibernating bats, including millions of individuals of 
several species, including the federally endangered Virginia big-eared 
bat, of which there are only about 20,000. Ultimately, it is possible 
that other federally listed bat species may be impacted if the disease 
spreads further south and west, including the gray bat and the Ozark 
big-eared bat. Also, significant mortality of more common species may 
threaten the stability and health of these populations.
    The role of bats in larger ecosystems is not well understood, but 
bat species comprise about one-fifth of all mammal species in the 
world, making their loss potentially significant to the sustainability 
of other animals and the plants that share their landscapes. One 
million bats can consume up to 8,000 lbs of flying insects per night, 
including some pests like mosquitoes and moths. As predators of these 
insects, bats may play an important role in protecting agriculture crop 
and forest health and in reducing risk of human disease transmitted by 
flying insects.
    In addition to impacts on biological resources, WNS will have 
impacts on some local economies. The closure of caves reduces 
opportunities for recreational caving and impacts many caving 
organizations, clubs, and local grottos that rely on access to these 
resources. Drastically reduced bat populations likely will also impact 
the enjoyment of visitors who come to federal lands to see them. For 
instance, caves and bats are the primary attractions at some of the 
National Park Service (NPS) units. These include Mammoth Cave National 
Park (Kentucky), Carlsbad Caverns National Park (New Mexico), and 
Timpanogos Cave National Monument (Utah). Caves with bats are a 
secondary attraction at numerous other units such as Cumberland Gap 
National Historical Park (Kentucky) and Ozark National Scenic Riverways 
(Missouri). WNS has been detected in one national park unit--Delaware 
Water Gap National Recreation Area (Pennsylvania and New Jersey). As 
caves and bat populations in these national park units and other 
federal lands are affected, outdoor recreation guides, gateway 
communities, and outfitters may experience loss of visitors and income.
Department of the Interior Response
    The Department of the Interior (Department) is leading a 
cooperative and coordinated response among its bureaus, including the 
U.S. Fish and Wildlife Service (FWS), the National Park Service, and 
the U.S. Geological Survey; as well as the U.S. Department of 
Agriculture and other affected agencies; affected states; the academic 
community; private nonprofit organizations; and other stakeholders. 
Through the FWS, the Department has assembled a team of experts from 
these stakeholders to address this disease. Today, more than 50 partner 
agencies and organizations are working together to identify the 
mechanisms by which WNS is transmitted and mortality in affected bats, 
monitor its spread, and develop management and containment options for 
federal and state wildlife managers.
    Currently, the Department is planning on providing resource 
managers with management recommendations, based on the best available 
science, to control the spread and minimize the effects of WNS in 2010. 
To this end, the Department is engaged in a structured decision making 
process, in which bat experts from multiple agencies are weighing the 
various management alternatives against much uncertainty. We expect to 
have management recommendations in place by September of this year.
U.S. Fish and Wildlife Service
    The U.S. Fish and Wildlife Service (FWS) is coordinating the 
Department's response to WNS, and is currently collecting and 
distributing critical information to other federal agencies, states, 
partners, and the public; administering several working groups focused 
on specific elements of the problem; and working with stakeholders to 
identify and carry out collaborative investigations, monitoring, and 
management actions. The FWS serves as the primary resource for up-to-
date information and recommendations for all partners, such as 
important decontamination protocols and a March 2009 cave access 
advisory that requested voluntary moratorium on activities in caves in 
affected states to minimize the potential spread of WNS.
    The Department has and will continue to invest resources to address 
to WNS, including coordination with states and other partners to 
improve our understanding about this disease, to take appropriate 
actions, and to monitor for its spread. As the potential for spread 
increases, the need for and complexity of this coordination increases. 
Through the FWS, the Department will continue to monitor federally 
listed species and, because states have primary jurisdiction over bats 
not federally listed under the Endangered Species Act, to support state 
monitoring and management efforts through State Wildlife Grants and 
other programs.
U.S. Geological Survey
    Investigation into the disease and the implicated fungus species 
has been conducted at the U.S. Geological Survey (USGS)-National 
Wildlife Health Center, in collaboration with multiple partners, 
including the USGS-Fort Collins Science Center, the FWS, Symbiology 
LLC, Cornell University, and conservation agencies from all WNS-
affected states. Much of this work was summarized in a paper published 
in the journal Science. USGS has also lead efforts to publish two 
additional studies that define criteria for diagnosing WNS and that 
describe and name the fungus that causes the skin infection 
characteristic of WNS. These papers will be released in June, 2009.
    To close gaps in scientific understanding of affected bat 
populations, this fungus, and its affect on bats, the Department has 
funded research through USGS into several lines of investigation. Data 
collected during a WNS infection trial are being analyzed to identify 
mechanisms by which WNS is transmitted. Additionally, an environmental 
survey is underway to determine the prevalence of the WNS fungus in the 
eastern U.S. and to evaluate the potential role of the environment in 
maintaining the WNS fungus. The USGS is preparing to conduct 
epidemiological studies to determine the origin of the WNS fungus, 
ecological studies to ascertain whether bats are surviving the disease, 
and modeling studies to determine the potential for further WNS spread.
National Park Service
    The National Park System contains 391 units comprising 
approximately 84 million acres. Nearly one in four national park units 
have caves, and one in three units contain mines that can provide 
habitat for bats. System-wide, all 45 species of bats in North America 
occur in national park units, including seven species that are 
federally listed as threatened or endangered, and numerous others that 
are listed through state laws as threatened or endangered.
    NPS is fortunate to have both wildlife health professionals and 
public health professionals working together to provide ``One Health'' 
recommendations that consider the health of humans, animals, and the 
environment in addressing disease issues. This infrastructure, which is 
being applied to the NPS response to WNS, has been useful and 
successful in addressing a variety of disease threats in national park 
units.
    The NPS has established a working group comprised of managers from 
across the entire national park system under the leadership of one of 
our Washington Office veterinarians. This group facilitates 
coordination within NPS and with the Department and its partners. Such 
national coordination is critical because the impacts of WNS are 
already nationwide as evidenced by cave restrictions and closures from 
Great Smoky Mountains National Park (Tennessee and North Carolina) to 
Sequoia-Kings Canyon National Park (California).
Limiting Potential for Human Transmission
    The Department is working closely with the recreational caving and 
cave research communities to develop decontamination protocols and cave 
access recommendations to prevent potential spread of the fungus 
through human activities. In March 2009, the FWS issued an advisory 
recommending voluntary suspension of caving activities in the states 
with affected bats, as well as in the adjoining states. In addition, 
the FWS has developed guidelines for scientists working in hibernacula 
to take precautions to avoid contributing to the spread. The NPS has 
closed ``wild'' caves and mines in several units of the National Park 
System, although large, commercial caves in national park units remain 
open at this time. More closures will occur in response to any spread 
of WNS. Several states have closed caves on lands under their 
management, including Indiana and Kentucky, although WNS has not yet 
been recorded in these states. The National Wildlife Refuge (NWR) 
System under FWS management includes lands with significant bat 
hibernacula, including those of the federally listed gray bat. Fern 
Cave NWR, Suata Cave NWR, Key Cave NWR, and Logan Cave NWR have been 
closed to public entry to protect wildlife from human disturbance, 
including bats.
Conclusion
    Madame Chairwoman and Chairman Grijalva, the Department is 
dedicated to continuing its coordination of research and response to 
white-nose syndrome and its impact on bat populations. The rapid onset 
and high mortality associated with this disease is unprecedented, 
making WNS the greatest challenge to bat conservation we have ever 
faced. To successfully combat this disease, we are employing an 
approach that combines the unique strengths of each of our bureaus and 
our partners.
    As globalization continues to increase the incidence of disease and 
exotic species invasions, and climate change impacts our landscapes, 
significantly altering habitats and introducing other stressors to 
native fish and wildlife, we may experience similar population changes 
to fish and wildlife populations in the U.S. The ultimate cause of WNS 
has yet to be confirmed, but the wildlife conservation community's 
response to WNS may serve as a model for how we respond to other 
emerging diseases with wide-ranging ecological impacts in the future.
    The Department appreciates the interest of the Committee and your 
respective Subcommittees in WNS and our efforts to address it. We look 
forward to working with you to effectively slow the spread of this 
disease, and to mitigate its impacts on bat populations.
    Thank you for the opportunity to testify before you today. I would 
be happy to answer any questions that you or the committee members 
might have.
                                 ______
                                 

   Response to questions submitted for the record by Marvin Moriarty

 Questions from Ranking Republican Member Henry E. Brown, Jr. (R-SC), 
        Subcommittee on Insular Affairs, Oceans and Wildlife
(1)  What is the origin of this disease? In other words, how did it end 
        up in the cave in the Adirondack Mountains in 2006?
    The origin of White-Nose Syndrome (WNS) is not currently known. 
However, there is circumstantial evidence suggesting that the cause is 
the fungus, Geomyces destructans. This fungus causes the skin infection 
that is hallmark of WNS and has occasionally been observed to infect 
cave-hibernating European bat species since the early 1980s. However, 
the mortality associated with WNS in the U.S. has not been reported in 
Europe, but there are significant differences between North American 
and European bats. First, the ranges of bat species present in Europe 
and North America do not overlap (it is possible that European and 
North American bat species exhibit different susceptibilities to fungus 
and WNS). Second, while U.S. cave-bat species hibernate in large 
aggregations (>100,000 individuals for some species), European cave-bat 
species tend to form much smaller hibernation groups. The large 
aggregations of cave-hibernating bats in the U.S. may serve both to 
promote the spread of WNS and to facilitate the detection of the 
resulting large numbers of sick and dead bats. If WNS occurs in Europe, 
detection may be more difficult as a result of the smaller numbers of 
animals present in hibernation caves. The cave where G. destructans was 
first observed in North America is visited by more than 200,000 
tourists each year. Because no species of bats move between Europe and 
North America, it is plausible that humans inadvertently brought G. 
destructans into North American caves from another continent.
(2)(a)  What is the test to determine whether a bat has the white-nose 
        syndrome?
    The U.S. Geological Survey (USGS) National Wildlife Health Center 
currently has three tests to determine whether a bat has WNS. Tissues 
from dead bats are placed in culture media that grow fungi, which are 
then identified as G. destructans by various methods, including its 
distinctive physical appearance. Also, a molecular biology technique, 
polymerase chain reaction (PCR), is used to determine whether DNA from 
the fungus G. destructans is present on or in animal tissues. This 
technique is useful as fungi can be difficult to grow in the 
laboratory--PCR can identify G. destructans without having to grow it. 
Last, tissues are examined under a microscope to detect the presence of 
fungi and associated skin damage. This process, however, is less 
specific at present and research is planned to improve specific fungal 
identification using additional specialized techniques.
  (b)  If the Service finds a sick or dying bat, what steps are being 
        taken to care for this animal?
    The U.S. Fish and Wildlife Service (Service) is not taking steps to 
care for sick bats. A few private wildlife rehabilitators have 
experimentally treated WNS-affected bats and have reported the healing 
of damaged wing tissue. However, most states do not permit the release 
of these animals for fear of further spreading of the disease; there is 
currently no method for determining whether a bat that has apparently 
recovered from the WNS is actually free of the fungus.
  (c)  What has been the rate of recovery?
    The rate of recovery is not known. In the more than 60 caves in 
which bats have been found to be affected, over 90% were dead by the 
end of the winter. In some caves, mortality has been 100%.
(3)(a)  What are the current estimates on how many bats have died as a 
        result of the white-nose syndrome?
    Current estimates indicate that over 1,000,000 bats of six 
different species have died as a result of WNS over the past three 
years. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ http://www.batcon.org/pdfs/whitenose/consensusstatement2009.pdf
---------------------------------------------------------------------------
  (b)  Are they dying of this disease or is this a symptom of a 
        different problem?
    Bat mortality of the magnitude associated with WNS has never 
previously been documented among any of the 1,100+ species of bats in 
the world. All field and laboratory analyses completed to date indicate 
that bats in the northeastern U.S. are dying as a result of WNS. 
Although research is ongoing, there is a growing body of evidence 
supporting a direct link between WNS mortality and infection by a 
newly-discovered species of fungus, Geomyces destructans. As determined 
by microscopy, culture, and PCR analyses, bats from all sites where 
WNS-mortality has been observed have tested positive for G. 
destructans. Furthermore, laboratory infection trials have demonstrated 
that G. destructans is transmissible bat-to-bat, and laboratory and 
field studies indicate that this fungus causes a severe skin lesion 
resulting in significant damage to bat wing tissue. It is hypothesized 
that irritation from the fungal skin infection may lead to aberrant 
behaviors during hibernation and subsequent premature fat depletion and 
death in some animals. Other animals die more acutely without depletion 
of fat reserves.
(4)(a)  Which bat species have been most adversely affected by this 
        fungus?
    The little brown bat (Myotis lucifugus) is the most common cave-
hibernating species in the Northeast region and presents the largest 
gross number of observed dead bats. The closely related endangered 
Indiana bat (Myotis sodalis) has also been severely affected.
  (b)  Is there a real likelihood that species like Indiana bats and 
        Virginia big-eared bats may become extinct because of this 
        disease?
    If WNS spreads to the largest Indiana bat hibernating colonies in 
the nation, located in the Midwest, and mortality is consistent with 
that observed in the Northeast, extinction of the species will become a 
real possibility. To date, Virginia big-eared bats (Corynorhinus 
townsendii virginianus) have not been diagnosed with WNS, although it 
has been detected in other species at sites they occupy.
(5)  Now that winter is over, what is the current state of the white-
        nose syndrome?
    The post-winter state of WNS is unclear. Bats observed in the 
summer with scarred wings indicate the possibility that bats infected 
with the fungus can survive at least one year of infection. Scientists 
are uncertain about the fate of these bats during a second winter, but 
it is clear that the ability to fly or catch prey is limited for at 
least some of these scarred individuals. The condition of these bats, 
therefore, may be less than optimal as they approach the winter, making 
them more vulnerable to death during the cold months. This scenario may 
explain the steady year-by-year decline in the hibernating bat 
populations of affected caves. The multi-year prognosis for bats 
observed with WNS, based on the rate of mortality of bats in affected 
caves, is very poor. Scientists are also uncertain about whether 
apparently healthy bats can transmit the fungus during the summer 
months. If this is possible, the condition may spread to new caves as 
bats from different hibernacula live closely together in summer 
maternity colonies.
(6)  What is the period of time from the start of the disease to when 
        bats are dying because of it?
    The interval from initial infection with WNS to death is not 
currently known, however bats may die from the infection during their 
first hibernation season, a period of six months. Most WNS mortality 
occurs during the last half of hibernation. This seems related to the 
more rapid depletion of body fat reserves in WNS-affected bats than 
those without infection. Bats with a milder initial infection could 
survive the hibernation period.
(7)  Have you closed caves on land managed by the Service including 
        your national wildlife refuge units? Do you have any refuges 
        where recreational caving is permitted?
    The Service prohibits the recreational use of any cave on National 
Wildlife Refuges until the Secretary determines that a general public 
use is compatible with the conservation and protection of fish and 
wildlife, including bats. There are currently no caves supporting bats 
on Refuges that are open for use by the general public.
(8)  What is the basis of your statement that: ``There is currently no 
        evidence to support a link between climate change and WNS''?
    Since no research has been conducted to date to determine whether 
there is a link between WNS and climate change, there is no scientific 
evidence of such a link. Federal research efforts to date have been 
focused on determining the nature of the syndrome, its cause, and 
methods of control. No research conducted to date has revealed that 
climate change is a factor in WNS.
(9)(a)  Are there any similarities between the white-nose syndrome and 
        the colony collapse disorder in bees? (b) Have we ever 
        discovered the cause of CCD?
    There is no scientifically demonstrated link between WNS and CCD. A 
definitive cause for CCD has not been determined, and there are many 
differences between the two diseases. Infection of bat skin by the 
fungus G. destructans is a clinical hallmark of WNS. G. destructans has 
not been found to be associated with CCD. Also, WNS affects multiple 
species of wild bats native to North America. In contrast, CCD is a 
malady of honey bees which were introduced to North America and which 
are maintained in artificial hives by bee keepers. A better comparison 
can be made between WNS and chytridiomycosis. Chytridiomycosis is a 
fungal skin infection of numerous wild amphibian species (frogs, toads, 
and salamanders) that causes high mortality and that has been 
identified as a cause of global amphibian population declines. 
Chytridiomycosis is caused by a fungus, Batrachochytrium dendrobatidis, 
that is believed to have been inadvertently spread from Africa to other 
continents through trade in African clawed frogs.
(10)  What are the goals of the $1.3 million dollar two-year state 
        wildlife grant proposal that has recently been approved by 
        Service?
    The goal statement for the proposal is as follows: ``This project 
will support a region-wide coordinated response to White Nose Syndrome 
(WNS), a rapidly-emerging threat to bats. Funding is urgently needed to 
1) investigate the causative agent(s), transmission, and control; 2) 
detect new occurrences; 3) detect and manage the threat to adjoining 
regions, and; 4) implement response and control strategies.''
(11)(a)  Prior to the first reported case of WNS in the winter of 2006, 
        did the Fish and Wildlife Service routinely conduct winter 
        surveys of caves? (b) Are the surveys you are now performing 
        limited to those caves located on federal land and are they 
        targeted to listed bat species?
    Historically, the Service has not routinely monitored caves on 
Federal or other lands, other than those caves harboring endangered 
species. Currently, in its Northeast Region the Service is monitoring 
caves on federal lands, as well as some caves on other lands, and these 
surveys are not limited to listed bat species. Most monitoring of caves 
on non-federal lands and for species not listed as threatened or 
endangered is conducted by state fish and wildlife agencies.
(12)  The state of Indiana, which has no reported cases of the white-
        nose syndrome, has closed all of its caves on state property to 
        stop the spread of this disease. Would you recommend that every 
        state adopt this proactive step of closing their caves and 
        mines?
    Based on evidence that indicates human activity in caves and mines 
may be a factor in the spread of WNS, the Service issued an advisory on 
March 26, 2009, recommending a voluntary moratorium on all caving 
activity in states known to have hibernacula affected by WNS, and all 
adjoining states, unless conducted as part of an agency-sanctioned 
research or monitoring project. The State of Indiana does not yet fall 
under this advisory, but because of its significant hibernating bat 
populations, the state chose to close caves and mines on state-owned 
properties as a precaution. In its advisory, the Service has also 
recommended that cavers not use equipment or clothing that has ever 
been used in WNS-affected areas, which applies to all states not 
currently affected by WNS. The Service has made its recommendation 
regarding the level of precaution that is prudent for states to help 
limit the spread of WNS in its March 2009 advisory, and it is not 
prepared to make further recommendations at this time. More details 
about the management of WNS should be available in September of 2009.
(13)  The U.S. Fish and Wildlife Service has several national wildlife 
        refuge units including Logan Cave NWR, Ozark Cavefish NWR, 
        Ozark Plateau NWR and Pilot Knob NWR that provide critical 
        habitat for endangered bat species and they are closed to the 
        public. Is there any indication that the white-nose syndrome 
        has affected any of these bats?
    WNS has not yet been observed in any of the caves mentioned in the 
question, nor have they been designated as critical habitat under 
Section 4 of the Endangered Species Act. Of listed species supported in 
these caves, the fungus has not been observed in either the ESA-listed 
gray bat (Myotis grisescens) or the Ozark big-eared bat (Corynorhinus 
townsendii ingens). However, the pattern of spread for WNS suggests 
that it will move into areas occupied by the gray bat and the Ozark 
big-eared bat in the relatively near future. In the northeast, three 
species of bats in the genus Myotis, including the ESA-listed Indiana 
bat, have been severely affected by WNS. While both the gray bat and 
the Ozark big-eared bat are probably vulnerable to WNS, the gray bat is 
also in the genus Myotis, and therefore may be especially vulnerable.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Moriarty, for you 
testimony.
    And before we recognize our second guest on the first 
panel, I would like introduce the gentlelady from 
Massachusetts, Ms. Tsongas, and also the gentlelady from New 
Hampshire, Carol Shea-Porter.
    We will now hear from Mr. Holtrop. It is a pleasure to 
welcome you, sir, before the Subcommittee, and you are now 
recognized to testify for five minutes.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
             SYSTEM, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Thank you very much, Chairwoman Bordallo, 
Chairman Grijalva and Members of the Subcommittees. It is my 
honor and pleasure to be able to talk with you today about the 
White-Nose Syndrome.
    You have my full written testimony for the record and so I 
want to spend these just few moments just pointing out to you 
why this is an important issue for the Department of 
Agriculture, for the U.S. Forest Service, and for me personally 
in my role of responsibility for the National Forest System 
throughout this country.
    A diminished population of bats diminishes the integrity of 
forest and grassland ecosystems, and that is an important 
statement to make right there. Bats are an important integral 
part of healthy ecosystems and they are ecologically 
significant, and it is very important for us to be addressing 
this issue, and I very much appreciate the Subcommittees' 
recognition of that by holding this hearing and your commitment 
to continuing to work with us.
    I think Mr. Moriarty did a great job of explaining the 
significance of this as well as your opening statements did as 
well.
    Bats are important for us because they are predators of 
some of the insects that cause forest health problems. They are 
important for us ecologically also because they are predators 
on insects that are an annoyance and irritants to human 
populations. They are important to us because they are an 
important predator on agricultural pests as well. Also, some of 
the bats that have been affected are threatened or endangered 
species that are listed under the Endangered Species Act. As a 
Federal land manager, we have the responsibility not only of 
conserving those bat species, but working toward their 
restoration and recovery. So, this is an extremely important 
issue to us.
    I want to say that I am proud of the response of the Forest 
Service, that the Administration has made to date on this, and 
recognize that there is a great deal more work to do. This is a 
fast-moving issue. We have been talking about this being 
discovered three years ago. We found out how widespread this 
has become just in the past several months, and already we have 
closed all of the caves on the National Forest System in the 
eastern United States, over 2,000 caves and abandoned mines 
that are bat habitat. So, we have acted quickly in the face of 
a significant threat.
    I am also proud of the fact that we have done so in 
cooperation with the other Federal agencies, our state 
partners, and nonprofit organizations such as Bat Conservation 
International, the National Speleological Society and other 
organizations that have worked capably with us and I very much 
appreciate that effort as well.
    And I am proud of the fact that we have a research and 
development part of our organization that has been doing 
scientific work on what are the habitat needs of bats so that 
we are managing our forests in a way that is going to be 
providing for healthy bat populations when they are not 
hibernating, when they are out in the forest, and in their 
maternity mode and in their foraging mode. And so those are all 
important aspects of forest management for us and I am proud of 
the approach we have taken on that.
    We stand ready to continue to work with the Subcommittees, 
with our Federal partners, state partners and non-governmental 
organizations to continue to find out more information about 
this pathology: to find out what are the steps that we need to 
take to continue to slow the spread of the disease; to find out 
what actions we can take to actually start addressing the 
disease directly; and how we can manage our habitats in an 
effective manner so that we are providing for the healthiest 
bat populations possible so that they are able, perhaps, to be 
more effective in withstanding the disease.
    I look forward to answering any questions you might have.
    [The prepared statement of Mr. Holtrop follows:]

   Statement of Joel Holtrop, Deputy Chief, National Forest System, 
             Forest Service, U.S. Department of Agriculture

    Madame Chairman and Mr. Chairman, Ranking Members Bishop and Brown 
and members of the Subcommittees, thank you for the opportunity to 
testify before you today on bat white-nose syndrome. The subject of 
white-nose syndrome is important to forest managers, wildlife managers, 
agricultural producers and the public-at-large. This hearing is timely 
because white-nose syndrome is an emerging disease of cave dwelling 
species of bats that is both perplexing and potentially devastating. 
The interest of Congress and in particular the joint Subcommittees on 
National Parks, Forests and Public Lands and the Insular Affairs, 
Oceans and Wildlife is welcomed and commendable.
    The Forest Service is very concerned about white-nose syndrome and 
the future of bats in the United States and North America. White-nose 
syndrome (WNS) is a name given to a fungal agent recently identified in 
the genus Geomyces associated with mass mortality of several bat 
species at hibernation sites in the New England, Mid-Atlantic and 
northern Appalachian States. Once introduced into a cave or abandoned 
and/or inactive mine, WNS has the potential to kill more than 90 
percent (Blehert, et al 2009 Science Vol. 323 pg. 227) of the 
hibernating bats. WNS has killed an estimated 500,000 to 1 million bats 
during the last three years. Since 2007, when WNS was first documented 
in New York, at least six bat species, including the Endangered Indiana 
bat have been affected. The Forest Service can contribute towards the 
larger effort to better understand WNS, and can play a role in 
attempting to slow the spread of WNS to hibernation sites in caves and 
abandoned and /or inactive mines. The mission of the Forest Service is 
``to sustain the health, diversity and productivity of the Nation's 
forests and grasslands to meet the needs of present and future 
generations''. This mission includes sustaining the health, diversity 
and productivity of the many species that use the Nation's forests and 
grasslands as habitat, including bats.
    Declining bat populations diminish the integrity of our forest and 
grassland ecosystems. The continued loss of bats in forested ecosystems 
could have significant ecological and economic impacts. Because bats 
are primary predators of night-flying insects, a significant decline in 
bat populations could contribute to larger insect pest populations, a 
possible decrease of agricultural crop production, and a potential 
decline in forested ecosystem resiliency, including forest health. 
Increases in insect pest populations could lead to an increase in the 
perception of the need for pesticides, which would have both 
environmental and economic consequences.
    Coordination and cooperation among all parties involved in 
addressing WNS is critical. The Forest Service is committed to full 
partnership and cooperation with the Department of Interior (U.S. Fish 
and Wildlife Service, National Park Service, U.S. Geological Survey), 
State and Tribal wildlife management agencies, universities, industrial 
and non-industrial private forestland owners and non-governmental 
organizations such as Bat Conservation International to identify the 
species of the genus Geomyces afflicting bats and arrest its spread 
throughout bat species. We will continue to assist in the cooperative 
effort for the monitoring, epidemiology and isolation procedures 
required to prevent the spread of WNS to unaffected areas and regions 
of the United States.
THE ROLE OF THE NATIONAL FOREST SYSTEM
    The Eastern and Southern Regions of the National Forest System have 
adopted a very aggressive response to the threat posed to bats by WNS. 
This includes specific budget direction to address bat species 
conservation relative to WNS in the Forest Service fiscal year (FY) 09 
budget advice. There are approximately 24 million acres of National 
Forest System lands in the Eastern and Southern Regions of the Forest 
Service with approximately 2000 caves and abandoned and/or inactive 
mines that serve as bat hibernation sites. It is in these hibernacula 
where WNS mortality is most evident among hibernating bats. White-nose 
syndrome has not yet been documented in populations of migratory bat 
species that hibernate in trees or forest leaf litter. There are 
approximately 2,000 caves and abandoned and/or inactive mines in 
Eastern and Southern Region national forests. Several species of bats 
listed as Endangered by the U.S. Fish and Wildlife Service under the 
Endangered Species Act use these sites including the Indiana bat, gray 
bat, Virginia big-eared bat, and Ozark big-eared bat. Other bat species 
classified as Sensitive, a designation established by the Forest 
Service, include Rafinesque's big-eared bat, southeastern bat, eastern 
small-footed bat, and tri-colored bat, formerly known as the eastern 
pipistrelle.
    For the Eastern Region of the Forest Service, WNS is confirmed in 
one abandoned and/or inactive mine within the Green Mountain National 
Forest (Vermont) and confirmed in a cave in West Virginia's Monongahela 
National Forest. At present, there are no caves or abandoned and/or 
inactive mines in the Southern Region National Forests confirmed as 
infected with WNS. In Virginia, two caves on private lands adjacent to 
the George Washington and Jefferson National Forests are infected. Of 
significant concern, is the short six-mile proximity between the 
contaminated cave on the Monongahela National Forest and the privately 
owned Hellhole Cave, which is designated critical habitat for both the 
Indiana bat and the Virginia big-eared bat--both Endangered Species. 
Hellhole Cave is habitat for approximately 45% of the known population 
of Virginia big-eared bats and more than 100,000 little brown bats, the 
species hit hardest by WNS. Species of bats killed by WNS include 
little brown, big brown, northern long-eared, eastern small-footed and 
tri-colored bats, as well as the Endangered Indiana bat. In New York 
State, approximately 25,000 Indiana bats or about 50% (Blehert, et al 
2009 Science Vol. 323 pg. 227) of the known New York population has 
died since 2006. The Finger Lakes National Forest (NY) does not have 
any caves or abandoned and/or inactive mines within its land base.
Forest Service Cave and Mine Closures
    It is critical we stop or slow the spread of WNS before it reaches 
the larger bat hibernacula of the Midwest and Southeast. In an attempt 
to slow the spread of White-nose syndrome, the Regional Foresters for 
the Eastern and Southern Regions closed all caves to the public and 
abandoned and/or inactive mines, unless posted as open with official 
Forest Service signs. Exceptions to the closure order are for research 
and monitoring, law enforcement and search and rescue operations. The 
closure does not include El Yunque National Forest in Puerto Rico 
because it is unlikely the fungus thought to cause white-nose syndrome 
would survive in the tropics. The fungus grows in cold conditions 
(Blehert, et al 2009 Science Vol. 323 pg. 227).
    There is evidence to suggest humans can spread WNS, from cave to 
cave on their gear and equipment (Blehert, et al 2009 Science Vol. 323 
pg. 229). This includes cavers as well as resource managers. 
Researchers and managers working on WNS are permitted to enter caves or 
abandoned and/or inactive mines if decontamination protocols are 
implemented. The protocols include the use of specific clothing and 
equipment for each individual cave and abandoned and/or inactive mine. 
Thus limiting a vector suspected of transmitting WNS. The closure 
orders are crafted to reduce concerns that they would deny access for 
Tribal rights and ceremonies by allowing requests for Tribal ceremonies 
to be authorized by permit on a case-by-case basis. Our Tribal partners 
are supportive of our efforts to slow the spread of WNS.
    Although the U.S. Fish and Wildlife Service requested a limited 
moratorium on caving in WNS confirmed states and adjacent states 
(available at http://www.fws.gov/northeast/wnscaveadvisory.html), the 
Eastern and Southern Regions of the Forest Service expanded their 
closure orders region-wide. The Forest Service acted because we 
observed WNS jump from New York to southwest Virginia in one winter, a 
far greater distance than bats or small mammals could travel in such a 
short timeframe. There are critical bat hibernacula in the Midwest and 
Southeast that we intend to protect from contamination. For the 
Southern Region, the closure order may help slow the spread to 
significant gray bat, Indiana bat and Ozark big-eared bat caves in 
Alabama, Arkansas, Georgia Kentucky, Oklahoma and Tennessee. 
Approximately 1,900 Ozark big-eared bats remain in the world and they 
all occur in Oklahoma and Arkansas. In the Eastern Region, Michigan and 
Wisconsin have large populations of bats residing in abandoned and/or 
inactive mines, while large populations of Indiana bats occur in 
Illinois and Indiana, all of which are currently free of WNS. If we 
fail to keep WNS contained, there could be a rapid and precipitous 
population decline for many bat species. Therefore, it is critical that 
we keep their hibernacula isolated from the Geomyces that is linked to 
WNS. There is no known cure for WNS, so we must rely upon the basic 
principles of epidemiology, which includes trying to limit disease 
spread between geographic regions and using decontamination procedures 
when visiting hibernacula.
Management of National Forests
    Bats need healthy forests and healthy forests need bats. Other than 
implementing the cave and abandoned and/or inactive mine closure order, 
the best thing we can do to conserve bats is manage for healthy and 
resilient forests. While the national forests are approximately six 
percent (6%) of the forested lands in the Eastern and Southern U.S., 
they play a critical role in conservation of all endemic species. We 
are using research findings to develop management strategies to benefit 
bats. Our primary management tools include thinning forested stands, 
creating canopy gaps, managing mid-story and under-story vegetation, 
conserving potential roost structures such as snags, and providing 
upland water sources. The objective is to create suitable roosting and 
foraging habitat across large landscapes. The Eastern and Southern 
Region national forests are ideally suited to contribute to large 
forested landscape ecosystems. There is a significant but discontinuous 
corridor of national forests from northern Georgia to New Hampshire. If 
we can retain healthy bat populations on national forests, the corridor 
could serve as a conduit to repopulate bat populations in areas 
decimated by WNS. This assumes our ability to arrest the spread of WNS; 
that the bats develop some resistance to it; or a method is found to 
address the fungus that causes the hallmark WNS skin infection.
    There may be potential to increase our management efforts to 
develop suitable habitat at an accelerated rate. Forest Service 
biologists are cooperating with State and Federal partners to inventory 
and monitor bat populations on National Forest System lands to 
establish baseline data. This will allow us to assess the impact of WNS 
on bat populations. These efforts are in conjunction with other 
Federal, State, and private partners in bat conservation.
FOREST SERVICE RESEARCH & DEVELOPMENT (R&D) ROLE IN BAT HABITAT 
        RESEARCH
    Because bats are difficult to study and their role in forested 
ecosystems was not clearly, understood, little research was conducted 
by Forest Service scientists on bats prior to the late 1990's. However, 
with advances in technology such as miniature radio-transmitters and 
field-hardy, easy-to-use bat detectors, biologists soon realized that 
forested ecosystems are critical for bat survival and forest management 
activities could have consequences for the habitat and bat populations. 
Coupled with growing concerns over the viability of bat populations and 
advancing knowledge of the role of bats in maintaining healthy 
ecosystems, the Forest Service Research Stations developed bat research 
programs throughout the United States.
    Five Forest Service Research scientists are currently conducting 
research on the role of bats in forested ecosystems in the U.S. Two 
scientists are in the Northern Research Station (Massachusetts and 
Missouri), two are in the Southern Research Station (South Carolina and 
Arkansas), and one is in the Pacific Southwest Research Station 
(California). At the Forest Products Lab in Madison, Wisconsin, two 
research mycologists have recently offered their expertise to support 
the effort to understand the Geomyces fungus and its relationship to 
WNS.
    Research on bats by Forest Service scientists falls into three main 
areas:
    <bullet>  basic habitat requirements of bats,
    <bullet>  the effects of forest management on bats, and
    <bullet>  development and testing of inventory and monitoring 
methods.
    Although many bats roost in caves and abandoned and/or inactive 
mines during winter hibernation, most bats roost in trees during the 
summer months. Summer is a critical period for bats because this is 
when the young are born and nurtured. Thus, much of the research 
conducted by Forest Service scientists has focused on determining 
optimal roosting requirements of bats during the maternity season. In 
general, our research has found that bats prefer large trees or snags, 
often in relatively open areas. However, there is still considerable 
unexplained variation within and among species that needs further 
study.
    Since 1990, Forest Service research scientists and their 
cooperators have produced over 85 papers on bats that have been 
published in refereed journals, books, or Forest Service Research 
Papers, General Technical Reports or Research Notes. Scientists are 
also engaged in a variety of other lines of research such as bat 
population genetics, the use of stable isotopes to study migration 
patterns, and the consequences of wind turbine development and siting 
on bat populations. Information from all lines of research is valuable 
for managing the possible recovery of bats from WNS.
    Maintenance of optimal foraging habitat and insect prey is also 
critical for the survival and viability of bat populations. Much Forest 
Service research has focused on the impacts of forest management; 
particularly the consequences of harvest methods and fuels reduction 
treatments such as thinning and prescribed fire on bat foraging habitat 
and use. The results of these studies have found that many forest 
management practices, particularly thinning, prescribed fire, and 
creation of small canopy gaps or openings, do not reduce habitat 
attributes for bats and may be very beneficial.
    National forests and grasslands are required to inventory and 
monitor all Threatened, Endangered, and Sensitive species on their 
lands, including bats. Bats are an extremely difficult group of animals 
to survey and monitor, however, several Forest Service scientists have 
been working to develop robust methods to obtain reliable estimates of 
changes in bat species composition and relative abundance over time.
    Information gained from Forest Service R&D studies on habitat 
requirements, bat response to forest management, and the consequences 
of human development on bat habitat and populations will be critical to 
understanding the direct, indirect and cumulative effects of WNS and 
other stressors on bat populations. The science surrounding bats would 
contribute to the management strategies for the National Forest System 
and other public and private lands in the future. These studies will 
provide managers and the public with the information needed to provide 
optimal habitat to sustain current populations and foster the recovery 
of bat species populations rebounding from WNS. Further, Forest Service 
studies of migration patterns and population genetics of Indiana bats 
and other species are critical for predicting the spread of WNS and its 
consequences at the population level. The robust inventory and 
monitoring methods developed by Forest Service scientists will be 
critical for documenting the spread of WNS and its effects on bat 
populations on National Forest System lands and other lands at a 
regional or multi-regional scale.
THE ROLE OF STATE AND PRIVATE FORESTRY AND CONSERVATION EDUCATION
    Another approach for the management of healthy and resilient 
forests is to implement efforts with State Foresters through State and 
Private Forestry. The Forest Stewardship Program provides financial and 
technical assistance to State Forestry organizations for private 
forestland management advice, consultation, and plans. Targeting 
private forest management efforts to implement prescriptions that would 
enhance or develop attributes for bat foraging, roosting or maternity 
habitat in privately owned forests in and near areas affected by WNS 
could help to ensure populations of bats capable of withstanding WNS 
infection.
Conservation Education
    We know the public is a critical partner in the effort to help save 
the bats. The Forest Service is actively involved in educating people 
regarding WNS, bat species conservation and ensuring the public 
understands the ecological and economic importance of bats. Children 
find bats fascinating and are a key part of our education programs. We 
are informing people why Eastern and Southern National Forest System 
caves and abandoned and/or inactive mines are closed to the public 
until more is learned about the pathology of WNS.
CONCLUSION
    The Forest Service is in the process of responding to the serious 
threat to bat populations posed by WNS. The Forest Service Deputy Areas 
for National Forest Systems, Research and Development and State and 
Private Forestry are contributing to this vital cause. This agency-wide 
effort includes targeted closures of cave and abandoned and/or inactive 
mine features on approximately 24 million acres of National Forest 
System lands, scientific knowledge and applied research; and broad, 
private land forest stewardship to ensure populations of bats for 
present and future generations. To further the conservation management 
of the vast and diverse habitat and fauna, the Forest Service is 
committed to cooperation and partnerships with Federal, State, Tribal 
and nongovernmental organizations interested in the conservation and 
preservation of bats. Madame Chairman and Mr. Chairman, this concludes 
my testimony. I am pleased to answer any questions that you or the 
Members of the Subcommittees may have.
                                 ______
                                 
    Ms. Bordallo. Thank you, Mr. Holtrop, for your insights on 
the management of the White-Nose Syndrome, and we will now 
begin questioning the first panel. I will begin with myself. I 
have a few questions for Mr. Moriarty.
    Number one, do changes need to be made to the state 
wildlife grants program to allow a more rapid response to 
wildlife emergencies such as this syndrome?
    Mr. Moriarty. Madam Chairwoman, thank you for the question. 
It is a question I have been discussing with the Association of 
Fish and Wildlife Agencies, Mr. Gary Taylor is here. It is a 
complex issue. I think the simple answer is I would like to 
have the association take a look at the process whereby they do 
allocate the monies from the state wildlife grant program, and 
work with the Fish and Wildlife Service over potential changes 
that might be necessary in that process.
    I do know that the process is a very formal process. It 
requires matches and things like that which may be troublesome 
to some states, and so I think it is a good question to raise 
to the association, and have them deal with that, and work with 
the Service so that we could look at different options.
    Ms. Bordallo. In addition to that, do you receive any money 
at all for this particular problem?
    Mr. Moriarty. We mostly have just redirected what we have 
in order to get into this thing, but we did have some funds 
like prevention of extinction funds which we were able to tap 
into for this, and also several state wildlife grants went to 
helping work with the bat syndrome.
    Ms. Bordallo. I see.
    Mr. Moriarty. So, we did have some funds that were 
available to go right into this, but mostly what we had to do 
is redirect our activities.
    Ms. Bordallo. What other authorities and resources does the 
Fish and Wildlife Service need to rescue the bat species now 
teetering on the edge of extinction?
    Mr. Moriarty. Right now we have the Endangered Species Act 
which we think is sufficient to allow our biologists to go out 
and work on this issue. The states also have a tremendous 
amount of responsibility since most of the caves exist on state 
and private property, and we think at this time where the 
authority is given to the Fish and Wildlife Service and the 
states through our various acts that we have the ability to do 
the job. I think if it does arrive or does happen that we need 
some additional authorities, we would certainly be willing to 
come forward and speak with you about that.
    Ms. Bordallo. Thank you. And have there been any 
assessments on the cumulative impacts of wind energy projects 
and the White-Nose Syndrome on bats?
    Mr. Moriarty. Madam Chairwoman, there have not been any 
assessments done together in that regard. We are aware that--
you know, we do have many projects out there which may impact 
Indiana bats, which is an endangered Federal bat, Federally 
endangered bat, and that decisions have been made on that bat 
prior to the White-Nose Syndrome action coming along. At this 
point in time we are more directed at finding out the causes of 
the problem, and getting management actions in place to deal 
with that, and we will be looking as projects come along at the 
potential impacts to these projects to Federally listed species 
as we do that.
    Ms. Bordallo. Thank you. I have more questions later, but I 
would like to give the opportunity now to the Ranking Member, 
the gentleman from Louisiana, Mr. Cassidy.
    Mr. Cassidy. Thank you.
    This grows in cooler temperatures. I read in the testimony 
that, for example, therefore it is not felt to be a risk in 
Puerto Rico because it is a warm place. So, is there a southern 
limit to where you could project this to spread?
    Mr. Moriarty. Sir, we do not know what that southern limit 
is. We are hoping there is a southern limit.
    Mr. Cassidy. Presumably you know the temperatures of caves, 
so how far--if it is 67 degrees Fahrenheit below, how far 
south, if you will, will you still achieve the optimal 
temperature for growth?
    Mr. Moriarty. OK, I see what you are asking.
    I would like to ask, if I could, Dr. David Blehert, who is 
with our Wildlife Health Disease Lab in Madison, Wisconsin, who 
does have experience with that, and if he could come forward, I 
would have him answer that question.
    Ms. Bordallo. I have no objection.
    Dr. Blehert. Thank you. So, what we have seen with the 
growth range of the fungus would actually be consistent--that 
it could propagate in caves as far south as northern Florida, 
and into the State of Georgia.
    Mr. Cassidy. Now you say that but in the testimony, it may 
not be one of your, I forget, I have been skimming, that 
optimally it would be what, 54 degrees Fahrenheit, so do those 
caves get that cool?
    Dr. Blehert. You know, the range I am used to thinking is 
in Centigrade which goes up to--the fungus will grow up to 
about 15-16 degrees Centigrade.
    Mr. Cassidy. So, 32 plus 32, 64. Now it will grow up to but 
that is not optimal, correct?
    Dr. Blehert. Well, it is, unfortunately, more complicated 
than that. What we have seen is that it can actually grow 
faster at some of those temperatures, so we are in the process 
of developing experimentation to predict what those effects 
might be on bats at these warmer temperatures.
    Mr. Cassidy. Got you. Can I then ask you another question 
because I have limited time? Now, I presume that you have gone 
to caves where the bats are not infected to see if this is part 
of the normal flora. I mean, frankly, this strikes me as an 
immunologic disease and not something which is being spread. It 
seems like this is an opportunistic infection, if you will. 
So----
    Dr. Blehert. Yes, but--I am sorry for cutting you off. What 
we have seen to date is that the fungus is new to science, 
which is suggestive that it perhaps has been introduced into 
our environment. As we have moved through our research, 
established contacts worldwide, we have found evidence that 
this fungus may have existed in Europe. There are references to 
a similar fungus in Europe dating back to the early 1980s, 
suggesting that there could have been an introduction into the 
U.S.
    We do have a study underway right now where we are looking 
for the fungus in the environment.
    Mr. Cassidy. Does it kill bats in Europe or is it just 
present in Europe.
    Dr. Blehert. The bat mortality that we have seen in the 
U.S. have not been observed in Europe, but there are some 
significant differences in the dynamics of their population.
    Mr. Cassidy. So, I guess my question is, is this a 
commensal organism which has just been manifested because of 
some underlying defect or is it the primary cause? Do you 
follow what I am saying?
    Dr. Blehert. Yes. I suspect that it is not just a secondary 
manifestation, and we do have research underway looking for 
this fungus in cave environments from the Mississippi River 
eastward, and that research should be completed by the end of 
the summer.
    Mr. Cassidy. So, to put a point on that, as of right now, 
you don't know the prevalence in the unaffected caves?
    Dr. Blehert. That is correct.
    Mr. Cassidy. It may be there, but we don't know that.
    Dr. Blehert. Right, and we should have that answer in the 
next couple of months.
    Mr. Cassidy. OK, great. Then again this may be for someone 
later, but I assume you have done autopsies on these bats.
    Dr. Blehert. Yes.
    Mr. Cassidy. And?
    Dr. Blehert. So, in the course of our disease 
investigation, we have seen no pathological lesions suggestive 
of anything going on other than infection by this fungus.
    Mr. Cassidy. What about the immunologic system?
    Dr. Blehert. So, that is an interesting point. Bats are 
very different than typical mammals. Typical mammals, as you 
are pointing out, often are only affected by fungi when they 
are otherwise immunocompromised. Bats, when they hibernate, are 
naturally immunocompromised, and they are also, in effect, in a 
cold-blooded state, and so if you look--fungi are rarely 
primary infectious agents of warm-blooded animals, but they are 
very commonly primary infectious agents of cold-blooded 
animals, be it insects, trees, amphibians where there is a 
similar fungal disease currently impacting amphibian 
populations
    Mr. Cassidy. So, I guess my question is--well, let me back 
up. Something else that intrigues me. In humans, antibiotics 
will predispose to fungal infection, and so is there any 
evidence that there are antibiotics in the blood stream of 
these bats?
    Dr. Blehert. Contaminants analyses have been done and we 
have seen no evidence that there is any cause for concern in 
that respect.
    Mr. Cassidy. And then last, T-cell analysis? I mean, I 
presume there has been a T-cell analysis?
    Dr. Blehert. There are currently immunological studies 
ongoing, and I believe that there will be people on the second 
panel that can more directly address that.
    Mr. Cassidy. OK. Thank you very much.
    Ms. Bordallo. I thank the Ranking Member, and before I 
recognize the Co-Chair of this hearing, I would like to say 
that I represent the Territory of Guam in the Pacific. We have 
a lot of bats in the Pacific area, and we have fruit bats which 
are, I guess, a different species, but then again I guess we 
don't have to worry about this fungus growth since it is only 
in cold weather and we have warm weather, so maybe we ought to 
heat the caves.
    [Laughter.]
    Ms. Bordallo. Just a suggestion.
    And now I would like to recognize my Co-Chairman here, Mr. 
Grijalva, the gentleman from Arizona.
    Mr. Grijalva. Thank you, Madam Chair.
    Mr. Moriarty, with regard to human diseases, we have alert 
systems that indicate to the public and to response agencies 
what the seriousness of that outbreak is. Has Fish and Wildlife 
considered such a system to help coordinate the responses from 
both local, state, and Federal agencies? And do you, in your 
estimation, see any benefit to a national system like this, 
responding to these outbreaks?
    Mr. Moriarty. Yes, Mr. Chairman. In the past we have had 
other wildlife disease outbreaks. I think you may remember the 
chronic-wasting disease outbreak several years ago, and it was 
that outbreak that actually got the community involved. The 
states and Federal agencies, and the Center for Disease Control 
and others, got together at that point in time and developed a 
plan to move forward--a framework as it were--to bring in all 
of the interested parties and stakeholders to get the 
information out, get in place the kinds of surveillances that 
were necessary--at a place where everybody could go to see 
them, and grab them right away.
    Mr. Grijalva. Is that a formalized system or did that 
system come into place as a consequence of an outbreak?
    Mr. Moriarty. That hasn't been formalized as that, but what 
I see happening with this outbreak we are going to be using 
that same kind of framework to attach all the surveillances and 
the types of information that the states and our partners, 
stakeholders and others, need to be able to deal with the issue 
because it is a very well developed framework. I would see 
that--after we use this framework--as I said in my comments, I 
think we will be looking at that to become kind of a standard 
way that we respond to wildlife disease outbreaks because I 
think we can expect to see more come in the future, and so this 
is a second good learning effort for us, and I do believe that 
we have----
    Mr. Grijalva. Moving toward a more formalized system.
    Mr. Moriarty. More formalized type of a response, that we 
have a good framework for.
    Mr. Grijalva. OK, thank you.
    Mr. Holtrop, welcome again. How effective have the cave 
closures been? What has been the public response in terms of 
the closure?
    Mr. Holtrop. As you might expect, there has been a mixed 
response, but largely, and I think a lot of this is to the 
credit of organizations like the National Speleological 
Society, the response has been one of understanding that this 
is a significant threat that requires some aggressive action to 
be taken. So, there have been certainly some indications of 
some people in local areas that are wondering if it is maybe 
too much of an action to close all the caves over the breadth 
of the area that we have, but by and large it has been fairly 
widely supported.
    Mr. Grijalva. Let me follow up on that because one of the 
public concerns is the inconsistency of a response to the 
outbreak, and the example being that--and appropriately so, I 
believe the Forest Service did the closure of the caves, but 
adjacent to that is state land which has not proceeded to close 
their caves. So, in terms of consistency what should the public 
expect when you have that situation?
    Mr. Holtrop. I think the public has the right to expect 
that their government agencies are coordinating as much as 
feasible and as much as possible, and I would certainly expect 
that there is additional coordination and cooperation that 
could continue to improve that collaboration between how 
different agencies are dealing with this issue.
    I think one of the things to recognize again, it was in 
March of this year that we realized how widely spread this 
disease was and what we have chosen to do is in our two eastern 
regions to close all of the caves and abandoned mines that are 
bat habitat unless posted ``open''. And so we maintain the 
opportunity to look on a case-by-case basis if there are 
extenuating circumstances.
    Mr. Grijalva. OK.
    Mr. Holtrop [continuing]. To post a cave open. But I think 
the public has a right to expect that we continue to work with 
our partner agencies to look for ways to be as consistent as 
possible. There are going to be differences in mission, there 
are going to be differences in perspectives, we won't always be 
identical on that, of course, but we should continue to work 
and collaborate.
    Mr. Grijalva. Let me, if I may, ask the question I asked 
previously, do you feel that a national alert response system 
for the outbreaks of disease would help the Forest Service 
coordinate the response that you just talked about between 
local, state, and Federal agencies? How do you feel about that?
    Mr. Holtrop. And I think you are referring to the statement 
that you made in your opening comments that this is maybe a 
pathology that we are going to be dealing with other issues 
such as this with climate change and some of those aspects that 
are associated with that.
    Mr. Grijalva. More specifically, a formalized response 
system as I asked the gentleman. How do you see that helping 
with the coordination issue that I just asked about in the 
previous question?
    Mr. Holtrop. Information is always valuable to help with 
coordination, and if everybody is receiving the same best 
information, that certainly is going to facilitate good 
coordination.
    Mr. Grijalva. OK. Thank you, Madam Chair.
    Ms. Bordallo. I thank the gentleman from Arizona, and now I 
would like to recognize the gentlelady from California, Mrs. 
Napolitano.
    Mrs. Napolitano. Thank you, Madam Chair.
    The testimony is of great interest to me, and dove-tailing 
into Congressman Grijalva's statement about the formation of a 
strategy or a national strategy, I would also like to ensure 
that we include in that, Mr. Grijalva, the farming cooperatives 
because I think they have a vested interest in ensuring that 
the bats continue to thrive for their own benefit. They need to 
be part of the solution.
    With that, I go back to the funding that was mentioned. How 
much is the amount that you have to do the R&D and the research 
on that? You didn't quite make a statement. You said you have 
adequate. What is adequate? I find sometimes the agencies are 
timorous in asking and telling us because this has such great 
implications for the national economy. We need to think big and 
be able to ensure that whatever we do, that we put enough money 
and support for every single agency to work cooperatively to 
get this done.
    Mr. Moriarty. Thank you, Madam Congresswoman. I really 
appreciate your comments there.
    It was a big learning process for us in 2006, and we said, 
oh-oh, we have this. What do we about it?
    Mrs. Napolitano. That was three years ago.
    Mr. Moriarty. That was three years ago, and we very 
quickly, without reservation, redirected funds into this. I 
think that was--
    Mrs. Napolitano. How much funds?
    Mr. Moriarty. At that point--
    Mrs. Napolitano. Roughly.
    Mr. Moriarty. I have some numbers here I can give you. 
Since 2006 until now, the Department of the Interior has put 
about $5 million into the effort, dealing with the research, 
developing the causes and management options.
    Mrs. Napolitano. To address an issue that could have 
national implications--
    Mr. Moriarty. Exactly.
    Mrs. Napolitano [continuing]. I think that is a drop in the 
bucket.
    Mr. Moriarty. It is. We did put together a coordinating 
mechanism right away.
    Mrs. Napolitano. OK.
    Mr. Moriarty. Which was really the states and us. The 
partners came together very quickly; got that coordinating 
mechanism going. As the states and the Federal government 
started putting their redirects into this, we did find some 
funds that were available to us.
    Mrs. Napolitano. I know, but that means it takes time to be 
able to--
    Mr. Moriarty. Takes time.
    Mrs. Napolitano [continuing]. Search out those funds, and I 
think it is incumbent on the Subcommittee to realize that you 
need to have enough funding to be able to address it head on, 
and put a priority on it because of the economy.
    And because of climate change, there are many implications, 
at least for us in the West, whether or not that is going to 
spread out to our area. Because of the nature of our economy in 
California specifically, and some of the western states for 
that matter, how is that being found, what is being done to 
alert those areas, check the caves out for the temperature to 
ensure that it is not harboring the ability of spread of this 
disease? Those are questions that have great implications for 
our economy in the west.
    Mr. Moriarty. Yes, I understand that. Right now many of the 
questions that we have relative to transmission and the like 
are still being answered. We have the pathology being dealt 
with. The lab in Wisconsin is working on all of those questions 
for us right now. When we have those questions, we will know 
what triggers the spread, and if we can then portray that out 
to other parts, like in the Midwest or Southwest where there 
might be situations where that would occur, we would certainly 
work--
    Mrs. Napolitano. OK, I understand that, and I am pressed 
for time. But as you know some of these, are you sending them 
out to the states so that they can begin looking and doing 
their own R&D?
    Mr. Moriarty. Yes, we do that. The hallmark of this 
community is the states are in it, so right now it is the 
Northeastern states, and several of the Southeastern states, 
and some of the Midwestern states.
    Mrs. Napolitano. Are you looking at growing some of these 
endangered species in nurseries so there is no extinction?
    Mr. Moriarty. We are currently looking at the possibility 
of doing that for one of the bat species, the Indiana bat, and 
it may be necessary in other bat species.
    Mrs. Napolitano. I suggest that that be part of your budget 
request, to be able to have something to address that 
particular segment of what is going to be needed. And as a 
matter of curiosity, the caves are closed, if the mines are 
closed, where do the bats go?
    Mr. Moriarty. Actually, the bats are free to go in and out 
of the caves. The caves are closed usually by bars.
    Mrs. Napolitano. OK.
    Mr. Moriarty. They are heavily barred.
    Mrs. Napolitano. So, they still can get in?
    Mr. Moriarty. Yes, the bats can still get in.
    Mrs. Napolitano. Is there a way of spraying them to be able 
to ensure that there is no longer spread of healthy bats that 
might come in, that migrate?
    Mr. Moriarty. The concern around the--we thought about 
that, but there is a concern that the caves are highly complex 
ecosystems in and of themselves with lots of critters in them 
already that could be very badly damaged by that kind of an 
activity, so we would have to balance that with a threat to the 
population.
    Mrs. Napolitano. Some kind of spraying as they go in or out 
that will trigger anything in some--
    Mr. Moriarty. I don't think we have considered that, but 
that certainly is a good idea for us to put on the table.
    Mrs. Napolitano. That would only affect the bats flying in 
and out.
    Mr. Moriarty. Flying in and out, yes. Sort of a misting 
kind of--
    Mrs. Napolitano. Correct. Yes, something new. And then the 
last question and then I will quit, Madam Chair, is, is there 
any danger of that disease being passed on to another mammal, 
to another animal outside?
    Mr. Moriarty. Right now what we know that it does fit the 
model for the bat because the bats own internal temperature 
drops down into the area where the disease can take hold, so it 
is a requirement that if you are a mammal, you have to have 
temperature down at that level, and you have to live in a cave, 
and be at that temperature for you to get it. So, our estimate 
is right now it is not likely, but we are watching that. We are 
looking at that as well because we haven't done all the studies 
to really assure ourselves of that.
    Mrs. Napolitano. May I also ask if there is any way of 
being able to find out what impact this has on the plague of 
the bark beetle that is affecting our pine forests? Because I 
know the bats would eat some of the pine beetle, and if there 
are no bats to eat it, and then we have a climate change, 
then--I mean, this is all part and parcel of protecting our 
forests.
    Thank you, Madam Chair.
    Ms. Bordallo. I thank the gentlelady from California. Now I 
would like to recognize the gentlelady from Massachusetts, Mrs. 
Tsongas.
    Ms. Tsongas. Good morning and thank you both.
    I have a couple of questions. One was that in the testimony 
you suggested that this White-Nose Syndrome was introduced from 
Europe. Do we have any thoughts about how that might have taken 
place?
    Mr. Moriarty. We do. We have discussed this. Right now 
there is not a whole lot known other than it has been found 
there. We don't see the mortalities associated with the 
mortalities over here, but we don't see the densities of bats 
that we see over here. So, we don't know quite what that means. 
It could mean that there used to be many more bats, this 
happened, and now they have adjusted to much smaller numbers. 
That could be the case. We just don't know.
    So, it would be very difficult to go much beyond that--
other than we need the research to address that issue.
    Ms. Tsongas. Can bats cross the ocean?
    Mr. Moriarty. Birds can. I don't know if there has ever 
been documentation of a bat crossing the ocean on the air 
currents. I get the answer ``occasionally''.
    Ms. Tsongas. Has Canada encountered this?
    Mr. Moriarty. Dr. Jerry McColman who is my White-Nose 
Syndrome coordinator informed me last night that they think 
they have suspicious sites; two in Ontario and two in--where 
else? In Quebec. So, we are investigating them right now.
    Ms. Tsongas. So, that leads me to the question of how much 
coordination is taking place with the international community.
    Mr. Moriarty. There will be a lot very soon. I don't know. 
I do know that we do coordinate across borders very well, and I 
am sure that the bat syndrome has been high on their mind 
because they are watching it spread.
    I have been informed that there is an international bat 
meeting that we participated in last winter and we discussed it 
at that meeting.
    Ms. Tsongas. It really leads me to the thought, as we have 
talked about, of a more coordinated approach generally. If you 
attribute this to the inevitable impact of global warming, if 
we don't really need a CDC for fish and wildlife, then as these 
kinds of new illnesses come forward, there is in place an 
entity that can move as quickly as we have seen, for example, 
around swine flu--simply to contain the impact and better 
understand its implications for our fish and wildlife and for 
our broader economy.
    Mr. Moriarty. And that suggestion has been loud and clear. 
I would add that we have been working with the CDC as well on 
this issue. They have been a very, very helpful partner on it.
    Ms. Tsongas. Thank you, and I yield back.
    Mr. Moriarty. Thank you.
    Ms. Bordallo. I thank the gentlelady, and now I would like 
to recognize the gentlelady from New Hampshire, Mrs. Shea-
Porter.
    Ms. Shea-Porter. Thank you, Chairwoman, and Chairman 
Grijalva, for having this hearing, and I had requested that we 
look into this because I was so concerned about the impact in 
the Northeast, in New Hampshire where I live, and where I might 
not always have appreciated the bats that got into our house 
when I was growing up--as a matter of fact, I was terrified of 
them, I am sorry to say--I recognize how important their role 
is in our environment and what a tragedy this is unfolding, and 
thank you for your work to highlight this and to try to figure 
out what is going on.
    In order to give these bats the best fighting chance, I 
know that some types of chemicals and other things in our 
environment are impacting them as well, is there something we 
can do while we try to save them from this syndrome to also be 
working just as vigorously to protect them from certain 
chemicals and certain other challenges that they have?
    Mr. Moriarty. That is an excellent question. We simply 
don't know to what extent the existence of those chemicals in 
the environment is precluding the bats to possibly be affected 
by this particular fungus. That will be part of the research 
that we are doing to ensure that. Outside of that I just simply 
don't know of any mechanism to provide that protection that is 
necessary, so I think the knowledge about the transmission, how 
it takes hold and what the triggers might be will be very, very 
important to answering that question.
    Ms. Shea-Porter. Are we stepping up the research for say 
affects of pesticides?
    Mr. Moriarty. That is on the table for us to be 
investigating. I would like to add that since the chronic-
wasting disease has come through, there have been different 
decision tools that have been put in place that have been very 
helpful to us, and we use one now called structured 
decisionmaking, which allows us to better get our scientists 
together, pose all of these various questions to them in very 
specific questions, and have them work through them in a way 
that informs our management priorities and our research 
priorities. So, there have been upgrades, I would say, since 
our chronic-wasting disease effort, and it is helping greatly 
in this effort as well.
    Ms. Shea-Porter. Is there a public education role here? And 
also on top of that, I know that we are talking about hundreds 
of thousands, but would individual bat houses in any way 
diminish the impact of all of them? Would they offer a bat 
house?
    Mr. Moriarty. Well, actually, the bat houses are very 
helpful because they use them in the summertime. The problem 
that we are having is when they leave the bat houses and go to 
what we call hibernacula. In the winter, they group together 
and they gain warmth from their numbers. They are not in the 
bat houses at that time, but bat houses are very useful for us.
    Ms. Shea-Porter. Just to help them to continue to survive. 
The other question I had was, is there any role that we have to 
fill right now for what they are not able to do because they 
are dying in such large numbers?
    For example, we know that they eat insects, thousands, 
right, for an hour and they are very effective predators. Is 
there something that we need to be doing as a society knowing 
that they are not doing that work right now in order to control 
any possible problem down the road involving some kinds of 
insects that are dangerous for mankind?
    Mr. Moriarty. The only control we know of right now in the 
absence of the bats will be an increased use of pesticides and 
herbicides.
    Ms. Shea-Porter. OK, so we are kind of caught in that 
dilemma knowing it could have an impact on them. We appreciate 
the research and again I heard my colleagues talk about the 
funding, and I think this is something that requires as much 
funding as you think it needs right now and the research has to 
be focused across several disciplines because this really is 
incredibly serious. And I thank you again for holding the 
hearing. I yield back.
    Ms. Bordallo. I thank the gentlelady for her questions, and 
just to wrap up the first panel here, I think I have just a 
couple of closing questions to Mr. Moriarty. How will the 
Department of the Interior address concerns that the 
composition of the Wind Turbine Advisory Committee is 
unbalanced to ensure that the impacts of wind projects are 
minimized on bat populations already ravaged by White-Nose 
Syndrome?
    Mr. Moriarty. That is a very interesting question, Madam 
Chairwoman. Did I hear you say that the FACA committee that has 
been put together is unbalanced?
    Ms. Bordallo. Yes.
    Mr. Moriarty. OK, I am unable to address that. I don't 
really know myself about that, but I do know that 
recommendations coming from the committee soon will be used to 
help us evaluate the projects for siting, for environmental 
impacts and the like. Hopefully those guidelines will enable us 
to do a much better job than we are currently able to do 
because we don't have those guidelines in place. All we are 
using is some guidelines that we developed in the Northeast 
many years ago.
    Ms. Bordallo. Right.
    Mr. Moriarty. We will have to include other stressors in 
all of those guidelines. Those stressors will include climate 
change, they will include White-Nose Syndrome, they will 
include other types of wildlife diseases if they in fact are 
impacted by the turbines. So, that will all be included in the 
normal evaluation process that the Service does.
    Ms. Bordallo. How soon do you think the committee----
    Mr. Moriarty. That I am not aware of, Madam Chairwoman, 
right now how soon that will be.
    Ms. Bordallo. No idea at all?
    Mr. Moriarty. Well, I do know it is fairly soon. They have 
been working----
    Ms. Bordallo. Fairly soon. All right.
    Mr. Moriarty. Yes.
    Ms. Bordallo. I would request that the Committee receives a 
copy of that.
    And in February of last year the Center for Biological 
Diversity submitted a petition to the Fish and Wildlife Service 
to immediately stop implementation of any Federal projects that 
could affect bats, re-initiate formal consultations under 
Section 7 of the Endangered Species Act and close bat 
hibernation sites to the public. Now, the petition also calls 
upon Fish and Wildlife to allocate additional funding for 
research and remedial action.
    What is the status of that petition?
    Mr. Moriarty. Madam Chairwoman, I am going to have to ask 
Wendy Weber, my Deputy Regional Director, and who is now the 
Acting Regional Director in the Northeast Region, to address 
that, but I would just start out by saying that the petition 
actually does concern us greatly because if we have to go do 
what the petition asks for right now, it would divert all of 
our resources into those actions which we think those resources 
are much better directed at developing the science and the 
management expectations that, or the management recommendations 
that are needed.
    But as far as the status of that petition I would have to 
defer to my Deputy Regional Director. Wendy.
    Ms. Weber. Yes, thank you.
    Ms. Bordallo. Would you identify your name for the record, 
please?
    Ms. Weber. Oh, I am sorry. Wendy Weber, Fish and Wildlife 
Service, Northeast Region.
    Ms. Bordallo. Thank you.
    Ms. Weber. We are currently evaluating the population 
status now so we can make the appropriate decision on how it 
relates to the Endangered Species Act consultation decisions 
that we have made, so we are currently looking at population 
status now and the effect of this.
    But complementing what Mr. Moriarty said is that we are at 
the same time making sure our highest priority--you asked about 
funding--is being focused at research and mitigation and 
control and management decisions that need to be made at the 
same time.
    Ms. Bordallo. Do you have any idea when we will have some 
answers on that?
    Ms. Weber. We are working on it diligently now with our 
partners at USGS on population modeling. We hope by the end of 
the summer we will have some more definitive answers.
    Ms. Bordallo. Good. The end of the summer should be a 
banner time. Thank you very much.
    Ms. Weber. Thank you.
    Ms. Bordallo. And I thank the first panel, and I would like 
now to recognize the second panel of this hearing.
    Our witnesses on the second panel are: Dr. Merlin D. 
Tuttle, President and founder, Bat Conservation International; 
Mr. Scott Darling, Wildlife Biologist, Vermont Fish and 
Wildlife Department; Mr. Peter Youngbaer, White Nose Syndrome 
Liaison, National Speleological Society; and Dr. Thomas Kunz, 
Director of the Center for Ecology and Conservation Biology and 
Professor of Biology, Boston University.
    Good morning, gentlemen, and welcome to the hearing. I 
would like to welcome first Dr. Tuttle and thank him for 
appearing before the Subcommittee.
    As I mentioned for the previous panel, and I am sure you 
were here and heard it but I will repeat it, the red timing 
light on the table will indicate when your time is concluded, 
but be assured that your full written statement will be entered 
into the record.
    And now, Dr. Tuttle, please proceed.

 STATEMENT OF MERLIN D. TUTTLE, Ph.D., PRESIDENT AND FOUNDER, 
                 BAT CONSERVATION INTERNATIONAL

    Mr. Tuttle. Chairwoman Bordallo, Chairman Grijalva, and 
Ranking Members Bishop and Cassidy, thank you very much for 
holding this hearing and for inviting me to testify.
    My name, again, is Merlin Tuttle. I am the founder and 
President Emeritus of Bat Conservation International. I studied 
bats for 50 years and have headed Bat Conservation 
International's worldwide conservation efforts for 27 years. 
Never in my wildest imagination had I dreamed of anything that 
could pose this serious a threat to America's bats.
    As Messrs. Holtrop and Moriarty have already pointed out, 
and as our Chairwoman has emphasized, this is a very serious 
issue. We don't need to go into all the details again. It 
probably is the most serious threat to American wildlife of the 
past century.
    If I could have a slide. I need a slide. OK, if we look 
here, from the epicenter in New York this spread in just two 
winters to almost all the Northeastern United States, and then 
last winter it spread all the way down to southern Virginia, 
and north into Canada.
    Over here--I hope everybody can see this--a little bit 
farther to the west in Tennessee, Kentucky and Alabama, we have 
the largest bat hibernating caves known probably in the world, 
certainly in the United States, and these contain two of our 
most endangered species; 95 percent the endangered Indiana bats 
up in this area; probably 100 percent of endangered grey bats 
down in here. It is very reasonable to expect that within the 
next three years or less these key populations will be directly 
threatened by White-Nose Syndrome. I suspect that it will cover 
the whole eastern U.S. within four years and spread to the West 
Coast within five or six years.
    This is the most alarming event in the lifetime of a person 
who has devoted his life to recovering these populations. We 
have successfully recovered literally millions of endangered 
bats only now to face losing them.
    Last week we hosted--Bat Conservation International hosted 
in Austin, Texas, a group of preeminent, the most relevant 
scientists in America to this issue, and these scientists 
reached consensus on the following three points:
    If not slowed or stopped, more than a quarter of the United 
States 46 species may have to be listed as endangered by the 
Federal government. As has already been stated, some of our 
most widespread and abundant species may literally become 
extinct.
    Two, unstopped, as we have already heard, this is serious, 
potentially irreversible in terms of its harm to the 
environment and economy.
    Number three, we urgently need a comprehensive national 
research program to identify underlying causes and develop 
sound management solutions.
    To date, Federal and state agencies and private NGO's have 
done a really good job in terms of what they have had to work 
with. They have striven diligently, but they are being 
overwhelmed by the scope and the rapid spread of something 
totally unexpected. They are also hampered by a woeful lack of 
funding for the necessary research. We need supplemental 
emergency funding, perhaps through the stimulus bill, it is 
needed immediately. We cannot afford red tape delays.
    Minus solid research, any attempted management could prove 
futile and even counterproductive. This is a case in which an 
ounce of prevention is probably worth tons of cure.
    I appreciate your concern, your interest in helping, and I 
look forward to your questions. Thank you.
    [The prepared statement of Mr. Tuttle follows:]

 Statement of Merlin D. Tuttle, Ph.D., Founder and President Emeritus, 
                     Bat Conservation International

 This testimony is presented by Dr. Merlin D. Tuttle, Founder and 
        President Emeritus of Bat Conservation International (BCI), the 
        international leader in bat conservation. He has studied bats 
        for 50 years, including extensive research on seasonal 
        migration and behavior of bats in the southeastern United 
        States. The full testimony is submitted for the record. Dr. 
        Tuttle will summarize his statement for the Committee on the 
        emergent and disturbing threat to bats known as ``White-Nose 
        Syndrome'' or ``WNS,'' This written testimony contains a 
        summary of the current scientific understanding of WNS, a 
        discussion of the current Federal, State, local and private 
        responses to its spread, and recommendations for Federal 
        actions needed to further comprehend and contain this crisis.
The Problem:
    WNS has spread across the Northeastern states and beyond in the 
past three years, killing an estimated 1 million bats. Mortality rates 
of 95 to100 percent are reported among infected bat populations. The 
disease reached Virginia last winter and bats throughout North America 
are at risk, with devastating ecological and economic consequences. 
Some of the best wildlife scientists and conservationists in America 
are desperately seeking solutions, but questions still are far more 
plentiful than answers. Research efforts to date have been largely 
uncoordinated and underfunded. Urgent Congressional action is needed to 
establish a clear leadership role at the federal level, to require 
development of a national strategy to understand and combat WNS, and to 
fund targeted research and mitigation efforts nationally.
Introduction
    Chairman Grijalva, Chairwoman Bordallo and Members of the 
Subcommittees, my name is Merlin Tuttle, Founder and President Emeritus 
of Bat Conservation International (BCI). I've studied bats for 50 
years, especially in the areas most currently threatened by the spread 
of White-Nose Syndrome (WNS), and for the past 27 years I've led Bat 
Conservation International's worldwide conservation efforts. With 
members in 60 countries, we are a nonpartisan, science-based 
organization and have become the world leader in the conservation of 
bats and the ecosystems they serve. We have led efforts to educate the 
public to a better understanding of bats as essential to healthy 
ecosystems and economies and have protected and restored many of 
America's most important remaining bat populations, including those of 
endangered gray and Indiana bats.
    I am here today at your request, and I appreciate the opportunity 
to discuss the ecological crisis caused by WNS and look forward to 
responding to any questions from the Subcommittee. In my invitation, I 
was asked to address three topics and, after providing background 
information, I will focus most of my comments on these specific areas.
Background
    More than 1,100 species of bats worldwide account for nearly 20% of 
all mammals, yet they are poorly studied and often neglected in 
conservation planning. Forty-six species occur in the United States, 
and many of these have declined alarmingly <SUP>1</SUP>. Nine species 
or subspecies of bats in the U.S. and territories are listed as 
endangered under the U.S. Endangered Species Act and 24 are designated 
as species of concern (formerly Category 2 candidates for listing under 
the ESA).
---------------------------------------------------------------------------
    \1\ O'Shea, T. J., and M. A. Bogan, editors. 2003 Monitoring trends 
in bat populations of the United States and territories: problems and 
prospects. U.S. Geological Survey, Biological Resources Discipline, 
Information and Technology Report, USGS/BRD/ITR-2003-0003.
---------------------------------------------------------------------------
    Little is known about historical or current populations of most 
species. The most accurate population assessments are for those that 
form large colonies in caves and mines, but even these are often 
inadequately monitored with the exception of endangered species. Most 
experts base inferences on population trends on changes in capture 
rates over time, winter counts at hibernation roosts and trends in 
habitat loss or protection1. Bats are long-lived and have exceptionally 
low reproductive rates, population growth is relatively slow, and their 
ability to recover from population decline is limited, thereby 
increasing the risk of extinctions <SUP>2</SUP>.
---------------------------------------------------------------------------
    \2\ Barclay, R. M. R., and L. M. Harder. 2003. Life histories of 
bats: life in the slow lane. Pages 209-253 in T. H. Kunz and M. B. 
Fenton, editors. Bat ecology. University of Chicago Press, Chicago, 
Illinois, USA.
---------------------------------------------------------------------------
    Bats play essential roles in keeping nature in balance. Like birds 
by day, they are primary predators of the vast numbers of insects that 
fly at night, including pests that cost American farmers and foresters 
billions of dollars annually. Additionally, the droppings of bats that 
live in caves provide primary energy for whole ecosystems of unique 
life, no less than plants do for surface-dwelling animals. Bat-
dependent cave microorganisms provide potentially invaluable resources 
for detoxifying industrial wastes as well as for producing safe 
pesticides, gasohol and antibiotics. Loss of bats could have serious, 
even irreversible consequences, both ecologically and economically.
Topics Requested by the Subcommittee
1)  What is the current scientific understanding of WNS?
Key Points:
    <bullet>  The affliction has been given the name ``White-Nose 
Syndrome'' (WNS) because of the telltale white fungus growing on the 
noses and sometimes wings, ears, and tail of most infected bats.
    <bullet>  The direct cause of mortality associated with WNS is 
still unknown. We do not know if the fungus is the sole cause of death 
or an opportunistic pathogen that takes advantage of weakened immune 
systems.
    <bullet>  2008 bat-population surveys suggested a two-year 
population decline in excess of 75% <SUP>3</SUP> at affected sites, and 
mortality continues. By 2009, losses approach 100% at some locations, 
as an estimated one million bats have died. <SUP>4</SUP>
---------------------------------------------------------------------------
    \3\ Blehert, David S., Alan C. Hicks, Melissa Behr, Carol U. 
Meteyer, Brenda M. Berlowski-Zier, Elizabeth L. Buckles, Jeremy T.H. 
Coleman, Scott R. Darling, Andrea Garga, Robyn Niver, Joseph C. 
Okoniewski, Robert J. Rudd, and Ward B. Stone. 2008. Bat White-Nose 
Syndrome: An Emerging Fungal Pathogen? Science vol. 323. Published 
online 30 October 2008. 10.1126/science.1163874. www.sciencemag.org.
    \4\ Proceedings from the Second WNS Emergency Science Strategy 
Meeting, May 27-28, 2009 in Austin, TX. In Prep.
---------------------------------------------------------------------------
    <bullet>  At the current rate of spread, the most critical 
hibernation sites for federally endangered Indiana bats (Myotis 
sodalis), gray bats (Myotis grisescens), Virginia big-eared bats 
(Corynorhinus townsendii virginianus) and Ozark big-eared bats 
(Corynorhinus townsendii ingens) will face WNS within two years or 
less, and several additional bat species may warrant consideration for 
Endangered Species listing.
Description
    White-Nose Syndrome (WNS) is a mysterious ailment killing 
hibernating bats throughout the northeastern states and rapidly 
spreading south and west. Current field observations have shown that 
bats affected by WNS are characterized by some or all of the following: 
1) a white fungus that grows on the nose, ears, and wing membranes; 2) 
depleted white and brown fat reserves by mid-winter; 3) a reduced 
capacity to arouse from deep torpor; 4) an compromised immune response 
during hibernation; 5) ulcerated, necrotic and scarred wing membranes; 
and 6) atypical behavior causing bats to emerge prematurely from 
hibernacula in mid-winter.
    Laboratory studies have isolated a previously undescribed 
psychrophilic (cold-loving) fungus in the genus Geomyces from bats 
affected with WNS5. This fungus grows on the skin (nose, ears, and wing 
membranes) of hibernating bats, and laboratory studies have revealed 
that it grows optimally at low temperatures characteristic of bat 
hibernation caves. There is histological evidence that the fungus 
sometimes penetrates the dermis, especially in areas associated with 
sebaceous glands and hair follicles. Genetically identical isolates of 
this fungus have been collected directly from bats located in widely 
dispersed hibernacula in the northeastern United States. In laboratory 
environments, the fungus was initially cultured at 3+C (37.4+F), grew 
optimally between 5+C and 10+C (41-50+F), but grew marginally above 
15+C (59+F). The upper growth limit was about 20+C (68+F) 3. Affected 
bat hibernation sites seasonally range between 2+C (35.6+F) and 14+C 
(57.2+F), permitting year-round growth and potential reservoir 
maintenance of the fungus5.
    Analysis of preliminary data indicate that concentrations of 
chlorinated hydrocarbon contaminants, pyrethroids and heavy metals are 
not markedly elevated in bats examined, nor have known bacterial or 
viral pathogens been identified. Narrowing the field of potential 
causative agents requires research to understand whether the causative 
agent is pathogenic and if the fungus associated with WNS is, in fact, 
itself a pathogen. Both field and laboratory investigations will be 
required to assess several intrinsic and extrinsic factors that may 
contribute to this condition.
Bat Mortality
    2008 bat-population surveys suggested a two-year decline in excess 
of 75%. <SUP>5</SUP> However, mortality rates approaching 100% have now 
been documented in hibernation roosts (caves and mines) found to have 
WNS <SUP>6</SUP>. In caves where fewer than 100% of the bats died the 
first year, populations continued to decline in successive years. 
Damage to wings and bodies persists in bats that survive a winter in 
WNS-affected populations, thus likely reducing their ability survive 
and reproduce. Six species of bats (all those that hibernate in caves 
or mines) in northeastern states have been affected by WNS; Indiana 
bats (Myotis sodalis), little brown bats (Myotis lucifugus), eastern 
small-footed bats (Myotis liebii), northern long-eared bats (Myotis 
septentrionalis), tri-colored bats (Perimyotis subflavus), and big 
brown bats (Eptesicus fuscus).
---------------------------------------------------------------------------
    \5\ Blehert, David S., Alan C. Hicks, Melissa Behr, Carol U. 
Meteyer, Brenda M. Berlowski-Zier, Elizabeth L. Buckles, Jeremy T.H. 
Coleman, Scott R. Darling, Andrea Garga, Robyn Niver, Joseph C. 
Okoniewski, Robert J. Rudd, and Ward B. Stone. 2008. Bat White-Nose 
Syndrome: An Emerging Fungal Pathogen? Science vol. 323. Published 
online 30 October 2008. 10.1126/science.1163874. www.sciencemag.org.
    \6\ Proceedings from the Second WNS Emergency Science Strategy 
Meeting, May 27-28, 2009 in Austin, TX. In Prep.
---------------------------------------------------------------------------
    If mortality events of this magnitude continue to occur, the number 
of U.S. hibernating bat species requiring federal endangered listings 
could more than quadruple the current number listed (4) and threaten 
some previously common species with extinction. For example, the little 
brown bat, now one of America's most widespread and abundant species, 
is experiencing 95 to 100% population losses at some infected 
hibernation sites6. To date, all cave-dwelling species exposed to WNS 
have been susceptible, and approximately half of America's 46 species 
enter caves during some part of their annual cycle. We have estimated 
that more than a million bats have died in three years from WNS, and 
the largest hibernating colonies of endangered bats are expected to be 
at risk in the next two years.
Transmission and Spread
    In just three years since its discovery near Albany, New York, WNS 
has spread beyond the northeastern United States and now infects at 
least nine states: New York, Vermont, Massachusetts, Connecticut, New 
Jersey, Pennsylvania, New Hampshire, West Virginia and Virginia 
(Appendix I).
    While the rapid rate of spread is readily apparent by the 
distribution of newly affected sites, the mechanism for transmission is 
still unconfirmed. Research is underway at the USGS National Wildlife 
Health Center to determine the likelihood of transmission among bats by 
physical contact as well as through environmental exposure. Data are 
still being analyzed, but preliminary results indicate that 
transmission between bats can occur. Humans may also inadvertently 
transport WNS from infected sites to clean sites, though bat-to-bat 
transmission is believed to be the primary route. Research is underway 
to investigate the feasibility of transmission to bats by humans at the 
University of Northern Kentucky and at the National Wildlife Health 
Center.
    At the current rate of spread, the most critical hibernation sites 
for endangered Indiana bats (Myotis sodalis) and gray bats (Myotis 
grisescens) will face WNS within two years or less (Appendix I). One of 
America's most important hibernation caves, which shelters eight 
species, including over 250,000 endangered gray bats, is currently just 
120 miles from the nearest infected cave in southern Virginia. If 
nothing is done to slow its spread, WNS likely will infect caves/mines 
critical to 95% or more of remaining populations of endangered gray and 
Indiana bats within the next two to three years and could move 
continent-wide, unless a solution to stop or slow its movement is found 
(Appendix I). More than 30 years of conservation progress costing 
millions of dollars could be lost very quickly. The gray bat has 
recovered to the point where down-listing from endangered status could 
now be considered in the absence of threats from WNS. The most rapidly 
growing populations of Indiana bats may also suffer heavy losses.
2)  What are the current Federal, State, local and private responses to 
        its spread?
Key Points:
    <bullet>  A loose regional coalition of government agencies and 
NGOs, developed through voluntary participation and led by the U.S. 
Fish and Wildlife Service, is sharing information to better understand 
and combat the spread of WNS.
    <bullet>  Several organizations have held collaborative meetings to 
prioritize and focus WNS efforts.
    <bullet>  Regional and local cave closures have been implemented in 
an attempt to slow the spread of WNS by reducing the likelihood of 
human transmission.
    <bullet>  It is vital that funds for critical research be made 
available immediately. Without credible research to document a cause or 
causes and explore potential remedies, other activities may prove 
ineffective or even counterproductive.
    The current response to WNS has emerged from multiple sources. The 
USFWS has provided regional leadership (region 5), state agencies have 
invested resources in monitoring and research, universities and 
research laboratories are investigating critical questions, regional 
bat working groups and non-profits have been mobilized to assist with 
funding, and private industry has expressed willingness to collaborate. 
Unfortunately, WNS is moving so quickly across the region that agencies 
and other groups have exhausted their staff and funds trying to address 
the crisis. This loose coalition of entities is a committed group that 
is looking for national leadership and guidance in order to capture and 
direct their efforts.
Current Voluntary Regional Coalition
    Over the last three years, the U.S. Fish and Wildlife Service has 
hosted and participated in numerous conference calls devoted to 
monitoring and updating a wide variety of federal and state agencies, 
research labs and universities, land managers, non-governmental 
organizations, and private industry on WNS issues. These groups have 
come together with very little funding or legislative authority to form 
a loose regional coalition to understand and combat the spread of WNS. 
They are making the most of available resources, but a severe lack of 
funding to support priority research is greatly hampering progress, as 
is a lack of clearly defined, overall leadership.
Strategic Planning Meetings
    Several organizations have also held a series of collaborative 
meetings to prioritize and focus WNS efforts. In June 2008, the first 
Science Strategy Meeting on WNS was held in Albany, New York, organized 
by Bat Conservation International, Boston University's Center for 
Ecology and Conservation Biology, Cornell University College of 
Veterinary Medicine, the New York Department of Environmental 
Conservation, the U.S. Geological Survey, and the U.S. Fish and 
Wildlife Service. More than 100 participants from two Canadian 
provinces and 20 U.S. state and federal agencies, eight universities 
and four non-government organizations attended, discussing existing 
knowledge and pending questions about the syndrome, and identifying 
critical research priorities. Proceedings are available at 
www.batcon.org/wns, and a manuscript will soon be submitted for journal 
publication.
    In February 2009, the U.S. Fish and Wildlife Service hosted a 
national information update webinar to review 2008 mortality, 
monitoring efforts, and preliminary research results.
    On May 27-28, 2009, a second Science Strategy Meeting on WNS was 
held in Austin, Texas. It was organized by Bat Conservation 
International and Boston University. Thirteen leadership scientists 
from the most relevant fields and 11 representatives from the most 
involved government agencies and NGOs participated, by invitation, in 
the meeting. Financial sponsors included the Disney Rapid Response 
Fund, the Department of Defense, the National Caves Association, the 
National Parks Service and the National Speleological Society. Key 
research projects were reviewed and revised research priorities were 
identified. A resulting press release and consensus statement are 
available at www.batcon.org/wns.
Critical Research and Monitoring
    Because of the seasonal effects (mortality is during winter months 
among hibernating bats) and the rapid spread of WNS, it is critical to 
conduct priority research quickly. Delays of even a few months in 
launching research projects can mean the passage of another winter of 
mass mortality and the spread into still more states before results are 
in. Non-governmental organizations have mobilized to help fund initial 
experiments while universities and agency labs wait for federal 
funding. This quick infusion of NGO funds bridged the immediate 
financial gap, but NGOs lack the resources to address the mammoth 
challenges of WNS.
    Over the past year, Bat Conservation International has provided 
$125,000 in support of scientific consensus building and emergency 
research, and the National Speleological Society also has funded 
$28,833 for emergency research. BCI, for example, donated more than 
$4,500 for an environmental chamber the USGS National Wildlife Health 
Center needed to promptly begin a study on the infectivity of the WNS 
fungus, while awaiting federal funds. Most current research is woefully 
underfunded. Government funds thus far have been used primarily for 
monitoring.
    Some federal funds have been awarded. In April 2009, a State 
Wildlife Grant (SWG) was awarded to a consortium of 11 states affected 
by WNS. This grant provides $940,000 over two years for a variety of 
agencies to pay for staff time, buy equipment, carry out field work, 
and coordinate monitoring activities. The SWG does not fund any of the 
federal agencies or labs conducting research on WNS, nor provide funds 
for priority research that is largely conducted by academic researchers 
and their labs. It is urgently important that funds for critical 
research be made available immediately. Without credible research to 
document a cause or causes and explore potential remedies, other 
activities may prove ineffective or even counterproductive.
Cave Closures
    Although research to confirm a cause and modes of transmission are 
not yet complete, a series of cave closures and caving moratoriums have 
been released. While we cannot stop WNS transmission by bats, several 
organizations have recognized that it is prudent to reduce the 
likelihood of added human transmission of WNS, potentially across long 
distances, to unaffected sites in the rest of the country. The 
following is a partial list of cave closures and moratoriums resulting 
from WNS;
    1.  The Forest Service issued a 1-year emergency closure order for 
all caves and mines on National Forest System lands in Forest Service 
Region 9.
    2.  U.S. Fish and Wildlife Service recommended a 17-state caving 
moratorium to help limit the spread of WNS.
    3.  Great Smoky Mountains National Park has closed all of its caves 
to public entry until further notice.
    4.  Virginia Department of Game and Inland Fisheries and the 
Virginia Department of Conservation and Recreation Natural Heritage 
Program have closed 62 critical bat caves to help slow the spread of 
WNS.
    5.  The National Speleological Society (NSS) closed preserves in 
the USFWS advisory area.
    6.  Both the Northeastern and Southeastern Cave Conservancies 
closed caves due to WNS.
3)  What are the needed Federal actions to further comprehend and 
        contain this unparalleled crisis?
Key Points:
    <bullet>  The most urgent need is to establish a national strategy 
with clear leadership at a national level.
    <bullet>  Implementation will require funding support at three 
broad levels: 1) funds to develop and implement a national strategy to 
address WNS; 2) research funding to identify the root cause of WNS 
mortality and find solutions to manage its transmission and spread; and 
3) agency support for monitoring, risk assessment, and risk management.
    <bullet>  Reallocation of funds within existing agency budgets is 
unlikely to prove sufficient to meet escalating needs without harm to 
other programs. Supplemental 2009 funds are urgently needed.
Immediate Establishment of a National Strategy
    Legislative action is needed immediately to establish a national 
strategy with clear leadership. Many local and regional strategies are 
underway to address WNS, but the speed of transmission and the scale of 
losses have moved well beyond our current capacity to answer this 
threat. The response to WNS has been fueled by passionate individuals 
who care deeply about the resources they manage, but they can no longer 
keep pace with the rate of spread. In the rush to address WNS, many 
independent efforts are underway, but they lack a coordinated approach 
directed by a national strategy with clear leadership.
Allocate Federal Funding
    We recognize the difficult choices this committee must make to 
allocate limited resources in this period of economic uncertainty. 
However, implementation of a coordinated national strategy will require 
funding support at three broad levels: 1) funds to develop and 
implement a national strategy to address WNS; 2) research funding to 
identify the root cause of WNS mortality and find solutions to manage 
its transmission and spread; and 3) agency support for monitoring, risk 
assessment and risk management. Reallocation of funds within existing 
agency budgets is unlikely to prove sufficient to meet escalating needs 
without harm to other programs. Supplemental 2009 funds are urgently 
needed, and new funds must be budgeted in future fiscal years to 
effectively address this disease.
Provide Funding to Develop and Implement a National Strategy
    For the past 3 years, the U.S. Fish and Wildlife Service has 
provided leadership for addressing WNS through its northeast regional 
office (Region 5), but the rate of spread and threat to federally 
endangered species demands a national approach and adequate funding for 
its implementation. A WNS national strategy will enable stakeholders to 
coordinate activities and prioritize research efforts and funding 
allocations. Other wildlife epidemics, including Chronic Wasting 
Disease and Avian Influenza, have benefitted from such a strategy. We 
respectfully request that these subcommittees support the immediate 
funding for development of a national strategy to accelerate the 
efforts to slow WNS and prevent future endangered species listings or 
extinctions.
Provide Funding to Promote Science Based Decision-Making
    Without immediate research funding to identify causes and 
solutions, extinctions are likely, even among species that are now 
widespread and abundant. We desperately need the scientific data 
required to make the appropriate, science-based decisions necessary to 
slow the spread of WNS. Federal funding, in my opinion, has been 
minimal and sporadic at best. Additional appropriations to support 
research initiatives will be critical in the immediate future. This 
should include appropriations to all federal agencies involved with WNS 
research, potentially including the National Science Foundation, the 
National Institutes of Health, the National Fish and Wildlife 
Foundation, and other appropriate venues for supporting much needed 
research.
    Another approach could involve establishing a federal fund for 
priority research on WNS and its impacts. This funding could be 
appropriated to and administered by, for example, the United States 
Geological Survey. A scientific advisory committee embedded within the 
framework of a developed national strategy would determine: (a) what 
research needs to be done; (b) how research should be done (e.g., the 
study design should be peer-reviewed); and (c) peer-review processes 
required for credibility of work performed. All research findings would 
be available to the public. This would lead to a body of well-designed 
and accessible research results that decision-makers can rely on to 
help mitigate WNS.
    The threat of WNS is enormous and imminent. We urge you and your 
colleagues to support significant funding for priority research into 
this potentially devastating and costly disease before the damage 
becomes irreversible.
Provide Funding to Support Federal and State Agencies
    In this difficult economic climate, state and federal agencies are 
having difficulty addressing WNS with existing resources. Current 
budget shortfalls and hiring freezes have made mounting an effective 
response and accommodating federal grant-matching requirements 
impossible. We respectfully request that these subcommittees support 
the appropriation of new funds to enable the U.S. Fish and Wildlife 
Service, the U.S. Geological Survey, and other agencies to fund 
critical research and develop mitigation strategies for slowing or 
halting WNS. As the bats return to their hibernation caves this fall, 
it is vital that agencies have the resources in place to conduct 
required research and monitoring. We ask for your help in providing 
immediate, emergency funding for the U.S. Fish and Wildlife Service, 
the U.S. Geological Survey, and state fish and wildlife agencies for 
research, management, coordination, and outreach in order to provide an 
appropriate, coordinated response to this deadly, newly emergent 
disease.
Conclusion
    Our position is best summarized through a consensus statement 
developed by the group of prominent scientists and wildlife managers 
who met on May 27-28, 2009 at the second WNS Science Strategy meeting 
in Austin, Texas.
        ``White-Nose Syndrome (WNS) is a devastating disease of 
        hibernating bats that has caused the most precipitous decline 
        of North American wildlife in recorded history. Since it was 
        first discovered in 2006, WNS has infected six species of 
        insect-eating bats in the northeastern and southern U.S., 
        causing declines approaching 100% in some populations; 
        estimated losses have exceeded one million bats over the past 
        three years. If the spread of WNS is not slowed or halted, 
        further losses could lead to the extinction of entire species 
        and could more than quadruple those that are federally listed 
        as endangered in the U.S. Such losses alone are expected to 
        have unprecedented consequences on ecosystem health throughout 
        North America, with unknown economic consequences. Most bat 
        species in North America feed on night-flying insects, of which 
        many are pests of forests, agriculture, and garden crops or 
        pose risks to human health. The number of insects consumed 
        annually by one million bats is staggering--equivalent to 
        694,456 tons--emphasizing the extraordinary value of these bats 
        to the normal function of both terrestrial and aquatic 
        ecosystems. Establishment of a national comprehensive research 
        program is urgently needed to identify underlying mechanisms 
        causing WNS and to develop sound management solutions.''
    American bats have never faced so dire a threat. The threat of WNS 
is enormous and imminent. We urge you and your colleagues to support 
the development of a national strategy and significant funding for 
well-targeted research into this potentially devastating disease before 
the damage becomes irreversible. Effective conservation action now may 
be critical to avoid the potentially crippling costs of federal 
protection for additional endangered species. Please help us address 
this threat that may have far reaching ecological, economic and social 
effects throughout North America.
    Chairman Grijalva, Chairwoman Bordallo and Members of the 
Subcommittees, on behalf of Bat Conservation International I want to 
thank you for inviting me to share this information and assist you on 
this important issue. I would be happy to answer any questions you may 
have

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

 Response to questions submitted for the record by Dr. Merlin D. Tuttle

Questions from Ranking Republican Member Henry E. Brown, Jr. (R-SC)
(1)  Mr. Tuttle, you have been studying bats for 50 years. Have bats 
        ever faced a crisis like the White-nose syndrome?
    No. This is exceeding anything I ever could have dreamed of.
(2)  If we are unable to stop the spread of this disease, what 
        catastrophic impacts are we likely to experience?
    Like birds by day, bats consume the vast numbers of insects that 
fly at night, including pests that cost farmers and foresters billions 
of dollars in annual losses, but few studies have measured exact 
impacts. Tom Kunz, based on his published research, estimated that just 
one bat species, in the Texas Winter Garden area alone, saves cotton 
growers approximately three-quarters of a million dollars annually, 
some years up to 1.7 million dollars in avoided pesticide spraying. 
That doesn't even include the region's other crops that also benefit. 
He also documented that the approximately one million bats already lost 
in the Northeast, would have consumed 1.39 million pounds of insects 
annually. In a study published in the April 4, 2008 issue of Science, 
Dr. Kim Williams et al., reported that bats significantly limited 
insects in the agroforestry system they studied and emphasized the need 
for further research on bat impacts. They concluded that ``Declining 
bat populations may compromise critical ecosystem services, making an 
understanding of their conservation status vital.'' There is much we 
still do not know about bat impacts, but what we do know suggests that 
the massive losses we anticipate, if WNS is not stopped, could 
seriously threaten ecosystem balance as well as human economies, 
potentially irreversibly.
(3)  What do you think is the cause of this disease and why do you 
        believe it has become more deadly over time?
    Available evidence points to a newly introduced fungus, but that 
has yet to be scientifically confirmed. Attempts to manage this 
affliction without first documenting its cause and mode of transmission 
through sound research, could prove useless or even counterproductive. 
If not funded very soon, even the best research could be too late to 
make a difference.
(4)  Mr. Tittle, you mentioned the seasonal effects of the disease. 
        What happens to WNS in the summer months?
    Currently available evidence indicates that this fungus becomes 
inactive at higher summer temperatures, resuming growth only when bats 
reenter hibernation in winter. Infected bats have been shown to arouse 
too frequently, burning excessive amounts of fat, making it impossible 
to survive till food again becomes available in spring.
(5)  You mentioned that Bat Conservation International has spent 
        $125,000 for emergency research into the causes of the White-
        nose syndrome. What have you learned from these efforts?
    Part of those funds were spend organizing strategic planning 
sessions where scientists developed consensus on needed research. The 
remainder were spread across several projects. Early results from these 
have documented the consistent presence of a unique fungal species on 
infected bats, that bats are arriving at hibernation caves with fat 
reserves sufficient to survive winter, and that too frequent arousals 
are depleting fat prematurely, leading to starvation before spring. We 
are partnering with other organizations to accomplish this. Without our 
help, several key projects leading to the above cited knowledge 
breakthroughs, likely would not have been possible last winter. Some of 
our funds also are being used to develop automated counting devices to 
more actively monitor population trends in infected caves/mines without 
causing stressful disturbance. What we have provided, though 
significant, is just a tiny fraction of what is needed if we are to 
find solutions before this rapidly spreading affliction does 
potentially irreparable harm.
(6)  Is it your belief that even if bats survive their initial exposure 
        to the White-nose syndrome that it destroys their immune system 
        to the point that their long term survival is in serious 
        jeopardy?
    In areas where bats have been infected for multiple winters, very 
few remain, and we cannot confirm that even those are yet immune. The 
fact that, so far, mortality has worsened with each passing winter at 
infected locations is not encouraging.
(7)  Do you agree with the testimony of Mr. Youngbaer that ``There is 
        no proof to date, or studies to establish proof'' of human 
        transmission of the White-nose syndrome?
    I do agree with Mr. Youngbaer. It is certainly possible that human 
transmission can occur and may be important in enabling long distance 
jumps in distribution, but I am unaware of supporting evidence. Until 
we learn more about modes of transmission, prudence is justified, but I 
won't be surprised to see evidence emerging that supports at least the 
lifting of some local restrictions. Available evidence suggests that 
bat-to-bat transmission is by far the greatest source of spread. It is 
prudent to be careful, but if all humans became extinct tomorrow, WNS 
likely would continue its rapid spread. There is need for national 
coordination so that whatever restrictions are imposed are appropriate 
to available knowledge and are uniformly enforced to maximize 
effectiveness.
(8)  Since in most cases the image that most Americans have about bats 
        is based on misinformation, why should the American people care 
        about the plight of various bat species in this country?
    Because, like bats or not, they provide irreplaceable ecological 
and economic services that we very much need. Fewer bats mean more 
pesticide costs, to farmers and foresters as well as heightened threats 
to human health.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Tuttle, for your 
comments and for your organization's commitment to bat 
conservation.
    And I would now like to recognize Dr. Darling to offer his 
testimony. Thank you for joining us.

 STATEMENT OF SCOTT DARLING, WILDLIFE BIOLOGIST, VERMONT FISH 
                    AND WILDLIFE DEPARTMENT

    Mr. Darling. Thank you, Mr. Chairman and Madam Chairwoman 
and the Subcommittee members for this opportunity to come 
before you to testify on this critical environmental issue of 
national import.
    My name is Scott Darling. I am a wildlife biologist for the 
Vermont Fish and Wildlife Department, and my testimony is also 
supported by the Association of Fish and Wildlife Agencies.
    Vermont's experience with White-Nose Syndrome began in 
January 2008 when a recreational caver photographed a bat 
exhibiting a white fungus in a cave in southwestern Vermont. 
The next four months can only be described as a triage response 
of cave surveillance, specimen collection, multi-agency 
coordination, and outreach to the public and media.
    As the winter progressed, bats afflicted with White-Nose 
were being observed flying out of caves and landing on peoples' 
residences, driveways and snow-covered lawns. Residents living 
within miles of caves arrived home from work to find dozens of 
dead or dying bats on or inside their homes.
    May I please have the slide show?
    One site, Aeolus Cave in Dorset, Vermont, now serves as the 
poster child of the effects of White-Nose on a bat population. 
In the winters of 2008 and 2009, Aeolus Cave quickly became a 
morgue. Our observations, as shown in this slide, documented 
bats freezing to death in clusters just outside the cave 
entrance. Most other bats flew out of the cave, onto the 
landscape to certain death. Those that could not take flight or 
dare risk Vermont's freezing winter temperature dropped to the 
cave floor.
    Next slide, please. In 2008, the mortality was such that 
the mere stench of the carcasses precluded further surveillance 
inside the cave. This slide shows the extent of the bat 
carcasses littering the cave floor in 2009.
    Next slide. I estimate that between 10 and 20 thousand dead 
bats in this one cave chamber. Total mortality at Aeolus Cave 
must be in the hundreds of thousands.
    Next slide, please. Our final act at Aeolus Cave was to 
salvage 500 specimens off of the cave floor to be archived at 
the American Museum of Natural History in New York. Thank you.
    Small sites where complete counts of hibernating bats can 
be conducted provide sobering data showing declines of 95 
percent of the cave's bat population. All of the major 
hibernates in Vermont are infected now, including the two 
largest in New England. I estimated that Vermont has lost as 
many as 400,000 bats in the last two years.
    State fish and wildlife agencies play a crucial role in 
front-line activities to combat WNS. However, bat conservation 
programs are typically conducted by less than one full-time 
staff position. State agency budgets, hiring constraints and 
matching requirements of Federal funds preclude adequate state 
involvement at this time.
    State fish and wildlife agencies concur that the Fish and 
Wildlife Service should play a leadership role in coordinating 
a national response to WNS. WNS is no longer just a regional 
issue. The FWS and the USGS are the appropriate arms of the 
Department of the Interior to oversee this task. One or both of 
the agencies should assign a national coordinator to oversee 
the development and implementation of the national plan.
    The need for Federal action can be organized into three 
separate components:
    First, the Fish and Wildlife Service and USGS must be 
provided the funding and staffing to coordinate the national 
plan. They cannot continue to patch together a framework from 
existing personnel.
    Second, an infusion of additional Federal dollars to WNS 
research, surveillance and management is critical. A 
supplemental budget appropriation and increases in DOI's 2010 
budget and beyond are needed.
    Third, the Fish and Wildlife Service needs the authority to 
implement or encourage necessary surveillance and containment 
measures at privately owned caves, outbreak surveillance, 
collection of infected bats, decontamination or cave 
quarantines are critical potential management tools not 
available to state or Federal agencies at this time.
    In closing, in my 27 years in this profession I never could 
have imagined such a dramatic and swift decimation of a suite 
of species of wildlife. Much of the country, however, is at a 
tipping point watching to see if we can muster together the 
energy, the resources and the public will to address this 
environmental crisis.
    Thank you.
    [The prepared statement of Mr. Darling follows:]

            Statement of Scott R. Darling, on behalf of the 
                  Vermont Fish and Wildlife Department

    Thank you, Chairman Grijalva and Chairwoman Bordallo, and 
Subcommittee Members for the opportunity to come before the 
subcommittees to testify on this critical environmental issue of 
increasing national import. My name is Scott Darling, certified 
wildlife biologist for the Vermont Fish and Wildlife Department. I have 
served in several capacities towards the Department's mission of 
wildlife conservation and management during my 27-year career with the 
organization, including big game species management, wildlife habitat 
management, wildlife division director, and management of endangered 
species such as the Indiana bat. I come before you today representing 
the Vermont Fish and Wildlife Department, my experience serving as its 
sole bat expert, and my personal response to witnessing first-hand the 
devastation of a critical suite of species for which so many of us have 
worked so hard to conserve. My testimony has also been reviewed and is 
supported by the Association of Fish and Wildlife Agencies (AFWA). I 
will share with you the current threats and challenges that the Vermont 
Fish and Wildlife Department is confronted with because of White-Nose 
Syndrome (WNS), and I will also offer the shared perspective of the 
challenges before other state fish and wildlife agencies as this crisis 
unfolds across the country.
    Understanding the role of state fish and wildlife agencies in 
addressing WNS is essential to working toward a comprehensive, 
collaborative resolution to the crisis. Unless otherwise federally 
listed, the conservation of all bat species is the authority and 
responsibility of state fish and wildlife agencies. For example, of 
Vermont's nine species of bats, only the federally endangered Indiana 
bat is eligible for federal protection and oversight. The remaining 
eight species are the sole authority of the Vermont Fish and Wildlife 
Department. The separation of state and federal authorities is 
appropriate under most conservation efforts; however, such distinctions 
add complexity for species such as bats that migrate across state 
boundaries, if not regions, and for highly infectious wildlife diseases 
such as WNS that can sweep across the country in a matter of a few 
years. While this scenario is relatively new in the wildlife 
conservation field, recent threats such as Chronic Wasting Disease 
(CWD), Avian Influenza Virus, and the chytrid fungus affecting 
amphibians both nationally and globally suggest that WNS is yet another 
chapter, albeit more dramatic, in the increasing complexity of today's 
wildlife conservation issues.
Vermont's Experience with White-Nose Syndrome
    In the winter of 2007, Allan Hicks, a veteran New York Department 
of Environmental Conservation (DEC) biologist distributed what is now 
the most widely published picture of a cluster of eight hibernating 
little brown bats, each exhibiting a white substance surrounding their 
muzzles. His inquiry asking bat experts if they had ever observed such 
a phenomenon yielded no results. Ensuing observations of extensive bat 
mortality at caves in the Albany, New York region heightened concerns 
over this discovery of unknown significance.
    On Sunday night, January 21, 2008, this New York DEC biologist 
called me at home, saying, ``This is a phone call you will wish you 
never got.'' He advised me that a recreational caver (i.e., spelunker) 
had just photographed the very same white substance on the nose of a 
bat in a cave in Mt. Tabor, Vermont. This is the date that a successful 
bat conservation program in Vermont turned into an environmental crisis 
for the state.
    Little did I know that WNS had already spread to several caves in 
southern Vermont. The next four months can only be described as a 
triage response of surveillance of caves and mines across the state, 
specimen collection for cooperating labs such as the USGS National 
Wildlife Health Center, multi-state and federal coordination as WNS 
quickly expanded into Massachusetts and Connecticut, and outreach to 
Vermont's recreational caving community, the general public, and the 
media. The desperate need for surveillance was weighed against concerns 
of potential, unknown human health risks and the prospects that we, 
ourselves could be contributing to the spread of the disease by moving 
from site to site or by making the bats more vulnerable to the deadly 
disease by disturbing their hibernation patterns.
    Unexpectedly, hibernating bats afflicted with WNS were being 
observed flying out of caves and mines in the middle of the winter and 
landing on people's residences, driveways, and lawns. The animal's 
evolutionary adaptation that has allowed it to survive Vermont's harsh 
winter weather, with its deep snows and sub-freezing temperatures, no 
longer applied. Residents living near caves and mines arrived home from 
work with a few to dozens of dead or dying bats on or inside their 
homes. The Vermont Fish and Wildlife Department and the Vermont Health 
Department viewed these events as significant potential rabies 
exposures requiring immediate public outreach and response. We 
established a hot-line with the Animal and Plant Health Inspection 
Service's (APHIS) Wildlife Services Program in Vermont to take phone 
calls to screen rabies exposures, track dying bats, and notify the 
Department of opportunities to collect specimens for lab analyses. 
Additional citizen calls to my direct line ranged from 10 to 30 per 
day. By the end of June, 2008, citizen reports had been submitted from 
across two-thirds of Vermont. In 2009, the Department was able to 
relieve itself of a majority of the citizen response work by 
establishing an on-line reporting form and database to handle the more 
than 600 submissions to date.
    We had anticipated that bats surviving the winter hibernation 
season (November through mid-April in Vermont) would have ready access 
to insects for food and would regain their body weight and healthy 
condition. However, bats captured in May and June exhibited significant 
necrosis of their wing tissue. Consequently, many of these bats 
continued to die on the landscape well into the summer.
    In all, after four months of tireless work, assistance from the 
over-extended U.S. Fish and Wildlife Service (USFWS) New England Field 
Office endangered species biologist, and handcuffing shared and 
temporary Department staff to assist in the surveillance, the Vermont 
Fish and Wildlife Department had expended every remaining dollar in its 
$50,000 State Wildlife Grant for bat conservation. Additional 
surveillance work would have required 100% state funding and the money 
simply was not there. White-Nose Syndrome surveillance halted in 
Vermont until a cooperative agreement using the USFWS Extinction 
Prevention grant funds was made available.
WNS Impacts to Vermont's Bat Populations
    Initial estimates of bat mortality from four WNS-affected caves in 
New York ranged from 81% to 97% mortality over a two-year period. Such 
estimates highlighted the significance of this threat, but many 
scientists, myself included, could not fathom the ability for any 
pathogen to sweep so rapidly and thoroughly through a wildlife 
population in its natural habitat.
    Vermont's surveillance work during the winter of 2008 indicated 
that WNS had afflicted four large bat hibernacula in the state. Citizen 
reports of bat observations across the landscape along with Department 
surveillance of observed mortality at these sites indicated that a 
large number of bats would die from that year's affliction.
    One site, Aeolus Cave in Dorset, Vermont now serves as the poster-
child for the effects of WNS on a bat population. Although only a 
fraction of this cave is accessible to researchers, the large chamber 
at its entrance has been studied since the 1930's and research in the 
1960's documented the significance of this cave to the region's bat 
population. Band returns from this work indicated that thousands of 
bats hibernating at Aeolus Cave every winter migrate out to their 
summer maternity colonies in New York, New Hampshire, Massachusetts, 
Connecticut, and Rhode Island. Simply put, Aeolus Cave has served as 
winter refuge for many of the bats in the entire New England region for 
the past 10,000 years.
    In the winters of 2008 and 2009, Aeolus Cave quickly became a 
morgue. Surveillance reports, photographs (see Attachment), and video 
footage documented bats freezing to death in clusters just outside the 
cave entrance, streaming out of the cave all winter long and, if they 
did not cling to the trees outside the cave or flop onto the snow-
covered ground, flying out onto the landscape, perhaps in response to 
their instincts to return to summer colony sites. Those that could not 
take flight or dare risk Vermont's freezing winter temperatures dropped 
to the cave floor. In 2008, the mortality was such that the mere stench 
of the carcasses precluded surveillance inside the cave entrance. In 
2009, I estimate the number of carcasses littering the cave floor to 
between 10 and 20 thousand. Total mortality at Aeolus Cave must be in 
the hundreds of thousands. I fear that the final measure of the 
biological significance of Aeolus Cave now lies in the 500 little brown 
bat specimens that we picked off the cave floor and shipped to be 
archived at the American Museum of Natural History in New York.
    Despite the grave situation at Aeolus Cave, the true impacts of WNS 
might best be quantified from surveillance efforts at some of the 
smaller, better accessible caves and mines where complete bat counts 
can be conducted. One research site in Vermont, Greeley Mine on the 
Green Mountain National Forest, is a gated abandoned talc mine that has 
been surveyed for bats for the past 20 years. Consistently this site 
overwinters over 1000 hibernating bats. This site, now infected with 
WNS, declined to 615 bats in November 2008 and to just 33 bats in March 
2009--a decline of 95% of the population. Of the remaining 33 bats, all 
exhibited the fungus and a few of which were euthanized merely to put 
an end to their suffering. This very same scenario played out at other 
sites in New York and Massachusetts.
    At this time, Vermont has observed only four of its 30 known bat 
hibernacula that appear not to be affected with WNS. All of the major 
bat hibernacula in Vermont are now infected. We also now know that six 
of Vermont's nine species of bats are susceptible to the effects of 
WNS. I estimate that Vermont has lost as many as 400,000 bats the past 
two winters. While Vermonters continue to report observations of live 
bats, far more numerous are reports of declines in the number of bats 
in a barn, bat house, or flying around the deck at night. Night-time 
bat capture surveys using mist-nets now being conducted in Vermont are 
capturing one to two bats per night at sites that typically would have 
caught an average of five to ten. This past weekend, biologists 
returned to an earlier survey site and captured only one bat--the same 
bat captured and banded a few nights before. More research is being 
conducted to quantify the changes in bat populations, but the initial 
evidence is bleak.
    Perhaps more troubling is the reality that the very low 
reproductive rate of bats (i.e., a single pup born to a female each 
year) precludes their ability to rebound from a drastic event like WNS. 
Bats cannot produce the numbers of young like birds, rodents, or 
amphibians. Because of this, I fear that the next generation of 
Vermonters will never see bats, as we have, in their lifetime.
    Vermont, like an increasing number of states, is experiencing this 
environmental crisis first-hand. We are the beginning of this 
ecological experiment on the importance of parts of an ecosystem to the 
whole.
State Fish and Wildlife Agency Response to WNS
    My testimony is greatly informed by the experiences of the Vermont 
Fish and Wildlife Department in its effort to address WNS in our state. 
However; my direct working relationships with other state fish and 
wildlife agency biologists working on WNS provide a broader perspective 
on state fish and wildlife agency responses, responsibilities, and 
capabilities.
    It is the state fish and wildlife agencies that provide on-the-
ground local knowledge of bat populations, historic survey results, 
locations of caves and mines where bats hibernate, and information on 
key summer colony habitat. State fish and wildlife agencies are often 
the most credible, familiar voice in providing public outreach and 
education. In addition, state wildlife biologists play a role in 
implementing or assisting in much of the research activities associated 
with WNS. Therefore, any strategies to contain WNS or slow its 
progression across the country will require an increased level of 
effort from state fish and wildlife agencies.
    I am hopeful that Vermont's brief history with WNS provides an 
example of the activities and demands needed to respond to the crisis 
once it enters a state. From New York to Virginia to Wisconsin, state 
fish and wildlife biologists are deeply entrenched in the battle to 
confront WNS. Like Vermont, most state bat conservation programs are 
conducted by a total of less than one full-time equivalent staff 
position. These biologists have numerous other duties and species that 
they oversee. Their ability to adequately respond to immediate, 
unanticipated crises such as WNS is severely limited by staffing, 
funding, and at times, simply the hours in a day. In addition, many 
state fish and wildlife agencies do not staff their own wildlife 
veterinarian or have access to a state or university disease 
laboratory.
    Currently, state fish and wildlife agency WNS-related activities 
extend across the full range of responsibilities, including:
    <bullet>  monitoring caves and mines for WNS symptoms
    <bullet>  monitoring the progression of the disease where confirmed
    <bullet>  collecting specimens for lab analyses
    <bullet>  participating in priority research at WNS-affected states 
and control sites such as studying arousal patterns of hibernating 
bats, body fat composition, immune systems
    <bullet>  conducting pre and post-WNS monitoring of bat populations
    <bullet>  outreach and coordination with the caving community
    <bullet>  outreach and educating of citizens about WNS
    <bullet>  outreach to media
    As WNS now threatens bat populations in the southeastern and 
central United States, the role of state fish and wildlife agencies 
will be expanded to include participation in activities designed to 
contain WNS or, more likely, slow its spread from region to region. 
This will require a much greater ability to respond swiftly and 
decisively to try and contain the disease to new sites and to preclude 
the potential for human transmission to additional sites. The staffing 
and funding necessary to respond in this manner is not currently 
available.
    Lastly, after WNS marches through states such as Vermont, it is 
highly likely that state fish and wildlife agencies will be working in 
concert with federal agencies such as the USFWS to work toward the 
slow, but essential recovery of bat populations. Many of the bat 
species once common may very well become state or federally listed as 
threatened or endangered. Let us not repeat this process across the 
nation.
Coordinating a National Response to WNS
    May I first commend the USFWS for stepping up to the plate and 
taking on WNS coordination responsibilities when that niche was clearly 
needed. In particular, their regional staff in the New England and New 
York field offices were instrumental in such critical components as 
multi-state coordination, the development of WNS protocols, and 
assistance in conducting WNS surveillance. USGS staff at the National 
Wildlife Health Center in Madison, Wisconsin also availed their 
expertise, their lab, and themselves in the race to determine what was 
killing the bats.
    Given the rapidity at which WNS has spread from New York to 
Virginia in the past three winters, the responsiveness of state, 
federal, academic, and non-profit agencies/organizations has been 
nothing short of superb. Unfortunately, it is not enough.
    We need to improve our coordination efforts to be more decisive and 
responsive. To date, over 50 organizations are involved in determining 
the cause, monitoring the disease's progression, and attempting to 
contain the effects of WNS. This level of coordination is extremely 
complex and cannot be successfully conducted using existing federal 
staff maintaining additional non-related duties.
    State fish and wildlife agencies involved in WNS concur that the 
USFWS should play a leadership role in coordinating a national response 
to WNS. WNS is no longer just a regional issue. The USFWS, in concert 
with its sister agency, the USGS, are the appropriate management and 
research arms of the Department of Interior to oversee this task. 
Furthermore, the level of coordination, commitment, access to 
expertise, and responsiveness warranted for WNS is very likely similar 
to what has been or will be needed to address future highly infectious 
wildlife diseases in this country.
    One or both of the agencies should assign a national coordinator to 
oversee the rapid development and orderly implementation of a national 
plan to address WNS. The national coordinator position(s) must be 
beholden to the priorities of the national plan, and not to any 
particular department, program, or region. A national plan must provide 
for the opportunity for significant participation, review, and comment 
by state fish and wildlife agencies, academic institutions, and disease 
experts and laboratories. The 2006 Plan for Assisting States, Federal 
Agencies, and Tribes in Managing Chronic Wasting Disease in Wild and 
Captive Cervids can serve as a model for organizing the effort using a 
task force of state, federal, academic, and non-profit representatives 
to approve a plan, portions of which can be developed by working 
groups. This CWD plan allows the federal agencies to provide the tools 
and financial assistance to states to implement consensus-based 
strategies. Given the state of our knowledge about WNS; however, the 
plan must be flexible enough to readily accommodate new information and 
hypotheses. This planning exercise must be expedited in order to be 
ready for 2010.
    Like all federal agencies, the USFWS is procedurally constrained by 
Federal Advisory Committee Act (FACA) requirements that impede its 
ability to accept recommendations from outside entities such as states, 
academic institutions, and non-profit organizations. While a structure 
or process that is compatible with FACA requirements is necessary, in 
my opinion, developing a centrally coordinated effort led by the USFWS 
that provides for adequate input from state fish and wildlife agencies, 
participation by individuals or agencies representing a full array of 
expertise, and the promotion of consensus opinions on priority research 
and activities is imperative to a well-coordinated effort. A more 
formalized structure needs to be put in place that allows for a 
centralized decision-making entity representing those partnerships. We 
can no longer continue to coordinate efforts through conference calls 
of 25 to 50 participants. In the case of WNS, the importance of 
decisiveness and responsiveness in implementing a national plan cannot 
be understated.
Federal Actions to Address WNS
    The need for federal action can be organized into three separate 
components. First, the USFWS and the USGS must be provided the funding 
and the staffing to coordinate the development and implementation of a 
national plan to address WNS. Inherent in this task is the need to 
establish a structure that provides for state fish and wildlife agency 
and other expert opinions and recommendations into the product. The 
implications of WNS are far too serious, rapid, and complex to continue 
to patch together a coordinated framework of existing personnel. 
Requiring the National Wildlife Health Center's existing limited 
personnel to serve as the lead federal agency directing WNS lab 
testing, analyses, and reporting has never been adequate. Funds and 
hiring authority are essential to both the USFWS and the USGS if we are 
to take WNS head-on. Hiring practices that consume nearly a year to 
complete are futile.
    Second, an infusion of federal dollars to WNS research, 
surveillance, and management is critical. Bats could not have picked a 
worse time to fall victim to an infectious disease. Not unlike this 
nation's deep recession, we do not get to choose when a crisis requires 
our attention and commitment. To date, the USFWS has been very 
responsive to redirecting existing appropriations and awarding grants 
such as Extinction Prevention funds and Regional Competitive State 
Wildlife Grants to WNS research and management. However, taking from 
other existing programs is no long-term solution. A supplemental budget 
appropriation and increases in the Department of Interior's FY2010 
budget is needed. More long-term, stable funding is a must.
    State fish and wildlife agency budgets and hiring constraints are a 
major limitation to conducting the necessary planning and 
implementation for WNS. Currently available USFWS federal aid funds 
such as State Wildlife Grants include 50% match requirements that now 
preclude most states from seeking new grants to conduct this work or 
enhancing existing ones. State fiscal constraints are so severe at this 
time that their respective bat experts cannot receive state-funded 
approval to travel to meetings to formulate priority strategies, 
coordinate work, or exchange information on WNS. The current framework 
of cobbling together portions of federal and state fish and wildlife 
employees' time to address WNS is unacceptable and doomed to fail.
    Because addressing WNS is, in part, a race against time, funding is 
essential to our ability to respond swiftly to conduct research, test 
priority hypotheses, conduct surveillance, and implement containment 
measures. Specifically, funding is needed for:
    <bullet>  National coordination within USFWS and USGS in order to 
develop the national plan and to organize and coordinate research 
priorities, response protocols, information exchange, and funding of 
priority WNS-related activities
    <bullet>  Staffing for the USGS National Wildlife Health Center in 
order to expedite lab analyses and conduct appropriate tests
    <bullet>  High priority research that ranges from testing the 
infectious nature of the Geomyces fungus to additional investigations 
into the broad array of alternative potential causes
    <bullet>  Development of potential captive-propagation programs for 
vulnerable federally endangered species
    <bullet>  Staffing and implementation of management activities such 
as surveillance and potential containment work by state and federal 
agencies
    <bullet>  The implementation of species recovery strategies in 
those regions where bat populations have been impacted
    This crisis requires developing creative means to get people on the 
ground now. Federal funds directed at establishing inter-agency 
agreements to hire staff to serve within state fish and wildlife 
agencies may a suitable alternative in the near term. Such employees 
would serve as a vital link between state and federal agencies and be 
able to assist both agencies in their duties. Such employees can also 
potentially comprise a USFWS response team, albeit much smaller and 
less formal than what exists within APHIS. This response team could 
assist state fish and wildlife agencies in containment and surveillance 
activities as WNS expands its range into the jurisdictions of states 
having limited resources and experience in responding to WNS.
    Third, federal action may be necessary to grant the USFWS the 
authority to implement necessary surveillance and containment measures 
on private lands, particularly on privately-owned caves with bats. 
Actions such as outbreak surveillance, collection and testing of WNS-
suspect bats, management of WNS-positive bats, decontamination 
requirements, or temporary cave quarantines are critical potential 
management tools that are not necessarily available to state or federal 
agencies at this time, but have proven to be essential in addressing 
CWD. Creative and sufficient financial incentives for landowners for 
such purposes may also be a tool worth developing and funding. The 
movement of bats across state lines demonstrates the importance of 
being able to respond to WNS threats decisively and immediately, 
without which the ramifications extend well beyond individual state 
borders.
Closing Remarks
    It has been stated by some that bats are not particularly popular 
and are in need of a good marketing agent. I beg to differ. In rural 
America, people do have a connection to the land and the parts that 
function as a whole. Vermonters know bats are important, they know they 
are in trouble, and they know something is terribly wrong. At the end 
of one of my recent speaking engagements in Manchester, Vermont, an 
elderly woman raised her hand and said, ``Bats have been going to 
Aeolus Cave for ten thousand years, and now they are all dead. That's 
not right.'' The outpouring of support from Vermonters wishing us 
success, offering their own theories for the disease, or wanting to 
donate to the cause are verification that WNS is not just about bats. 
It is about our responsibility as stewards of the environment.
    The time for my professional, tempered response to the significance 
of the implications of WNS is over. In a matter of two years, I have 
witnessed the devastation of a bat population my Department had worked 
so hard to conserve. In my 27 years in this profession, I could never 
have imagined such a swift and dramatic decimation of an entire suite 
of species. I dare say, the Green Mountains of Vermont have never 
witnessed such an event as well.
    May I reiterate that the battle against WNS is a race against time. 
Vermont's role in WNS has quickly shifted to serving as a study site 
for the role of bats in our ecosystem and the strategies needed to 
recover the species. Much of the country; however, is at a tipping 
point, watching to see if we can muster the energy, resources, and 
public will to address this national environmental crisis.
[NOTE: Attachments have been retained in the Committee's official 
        files.]
                                 ______
                                 
    Ms. Bordallo. Thank you, Dr. Darling, for your testimony 
and your tireless work in Vermont.
    Mr. Youngbaer, I invite you to present your testimony.

  STATEMENT OF PETER YOUNGBAER, WHITE NOSE SYNDROME LIAISON, 
                 NATIONAL SPELEOLOGICAL SOCIETY

    Mr. Youngbaer. Thank you, Chairwoman Bordallo and Chairman 
Grijalva, Members of the Subcommittee.
    My name is Peter Youngbaer and I am testifying on behalf of 
the National Speleological Society (NSS) as liaison of White-
Nose Syndrome.
    Founded in 1941, with nearly 12,000 members in all 50 
states and territories, the NSS does more than any other 
organization to study, explore, and conserve cave and karst 
resources; protect access to caves; encourage responsible 
management of caves and their unique environments; and promote 
responsible caving.
    Our members run the gambit from the casual recreational 
caver to world class explorers, to full-time scientists who 
work in the areas of geology, hydrology, biology, paleontology, 
cartography, microbiology, and more. I mention these sciences 
to make a point: That while White-Nose Syndrome has our focus 
clearly on bats, we must keep the entire cave resource and cave 
ecosystem in mind as we plan our science and management 
responses.
    White-Nose Syndrome has hit the NSS and the caving 
community hard. We own and manage numerous cave preserves 
across the country, many of them managed as bat hibernacula. Of 
the first four New York caves where White-Nose was discovered, 
two are ours.
    As White-Nose has spread, the NSS, Cave Conservancy, state 
and Federal agencies, private landowners have closed caves or 
issued advisories curtailing cave access, covering more than 30 
states and 10 of thousands of caves. The decontamination 
protocol advisory issued by the U.S. Fish and Wildlife Service 
is nationwide. Regional, national and international caving 
events both within and well outside the currently affected 
region have been canceled or drastically cut back.
    While the confirmed bat mortalities associated with White-
Nose have only spread to the Virginias, the effects of 
management decisions are already nationwide.
    The NSS has been actively involved in the White-Nose 
investigation since the beginning. We have assisted in field 
work, identifying White-Nose sites, collecting samples, 
surveying bats, assisting with media and public relations, 
running an active website, working on task forces, attending 
conferences, and participating in conference calls with the 
scientists and wildlife managers.
    A year ago when the need for immediate research funding was 
apparent we created a White-Nose Rapid Response Fund. Our 
members have contributed over $55,000 and funded now five 
critical research projects, some alone, and others jointly, to 
help answer priority concerns identified by the science and 
management communities.
    While we have learned some things over the past year and a 
half, urgent research need immediate response if we are to 
contain and beat White-Nose. While strongly implicated, we 
don't know if the fungus is the causal agent or merely taking 
advantage of bats weakened by something else. We need to know 
more about how White-Nose is transmitted; more about how the 
fungus affects bats; whether our decontamination protocols are 
effective; what can either kill the fungus or help the bats 
defend it off.
    One thing we do know is the caves are delicate ecosystems. 
They are not just about bats. Many other things live in caves, 
including other endangered species, some as rare as in only one 
cave. Water that flows through caves provides not only energy 
and nutrients to cave dwellers, but is also a source of private 
and public water supply.
    If we move to high risk management strategies, containment 
strategies such as biological or chemical controls or ceiling 
sites, what other parts of the caves' ecosystems will we 
affect? Research to test mitigation strategies must come before 
widespread application. Science must inform our responses.
    In terms of government responses in our view the 
individuals I have met working with White-Nose have 
demonstrated extraordinary passion, frequently working outside 
the constraints of their jobs and funding sources. That said, 
to most experienced cavers government policy responses have 
been inconsistent, contradictory, confusing and sometimes 
counterproductive. Despite that we have complied and helped 
spread the word. We recognize that closure, including our own, 
have essentially been prophylactic in nature to buy time for 
the science to catch up. Now is that time.
    We are asking you to recognize White-Nose as a national 
problem, to support and fund a comprehensive national research 
effort to address it. Current funding is inadequate and funding 
mechanisms cumbersome.
    Our written testimony contains more details on all of these 
points. It also includes our policy statement on White-Nose, 
and a downloadable brochure from our website which we have 
created to reach out to the general public who comprise the 
majority of cave visitation, contrary to thinking about 
organized cavers being the prominent cave visitors. They come 
to us for advice about safe caving practices. You should also 
have a copy of our news conservation issue with an extensive 
article on the chronology of White-Nose and the conservation 
challenge it presents.
    White-Nose is proceeding faster than we are at the moment. 
We need to change that. Bats have a critical place in our 
ecosystem. We need bats. Now they need us. Thank you.
    [The prepared statement of Mr. Youngbaer follows:]

       Statement of Peter Youngbaer, White Nose Syndrome Liaison 
                 for the National Speleological Society

    Chairman Grijalva, Chairwoman Bordallo, Members of the 
Subcommittees. Thank you for the opportunity to speak with you today 
about the national crisis known as White Nose Syndrome or WNS, and to 
ask for your help in addressing this emergency. It is in honor and a 
pleasure.
    My name is Peter Youngbaer, and I'm here testifying on behalf of 
the National Speleological Society as its White Nose Syndrome Liaison.
    I want to start by telling you a little about the NSS itself and 
cave conservation generally, the effects to date on our membership, and 
specifically our deep involvement in addressing the ravages of WNS. I 
will then address the three specific questions posed in our invitation.
NSS--the organization and our WNS activities
    With nearly 12,000 members in all 50 states and 200 local chapters, 
or grottos, the National Speleological Society does more than any other 
organization to study, explore, and conserve cave and karst resources; 
protect access to caves; encourage responsible management of caves and 
their unique environments; and promote responsible caving.
    While WNS has our focus clearly on bats, we must keep the entire 
cave resource in mind as we plan our science and management responses.
    Founded in 1941, we are affiliated with the American Association 
for the Advancement of Science, and the International Union of 
Speleology. Conservation is a primary function of the NSS. We have 
assisted in the protection of numerous bat hibernacula and habitat for 
other endangered cave species. Our members worked hard to help pass the 
Federal Cave Resources Protection Act and similar state legislation.
    Our members run the gamut from the casual recreational caver to the 
full time scientist. Our scientists work in the areas of geology, 
hydrology, biology, paleontology, cartography, microbiology, and more. 
Members of our Communications and Electronics and Cave Diving Sections 
have developed many technologies used by industry and the military, 
including underground communications and other electronic equipment, 
hydrological, meteorological, and biological instruments, mapping aids, 
electric lights and battery systems, and underwater gear, including the 
rebreather. Our photographers have brought the wonders of the 
underground to the general public. Our explorers have discovered the 
breadth and depths of some of our National Parks caves, including 
Carlsbad Caverns and its neighbor Lechuguilla--now over 100 miles--and 
Mammoth Cave, the world's largest now at over 350 miles.
    WNS has hit the NSS, its cave resources, and its membership hard. 
Cavers noticed the first bat deaths in the winter of 2006-2007, in two 
caves that we own and manage on our New York Nature Preserves. We were 
the first to close our caves in response to WNS. This year, bats in our 
West Virginia John Guilday Nature Preserve caves were found to have 
WNS, and those caves are now closed. A full chronology and description 
of the conservation challenges facing the NSS and its members is 
included in an article I authored in the NSS News publication provided 
to you with my testimony today. I will not repeat that here.
    As the devastation has grown and spread, the NSS, Cave 
Conservancies, State and Federal agencies, and some private cave owners 
have closed caves or issued advisories curtailing cave access and 
recommending decontamination procedures. Caving events well outside the 
affected region have been cancelled or curtailed. This has caused 
economic fallout in neighboring communities that support these events 
with lodging, food, supplies and tourist opportunities.
    The effect is both national and international. The USFWS 
decontamination protocol advisory is nationwide. Cavers in the west are 
puzzled as to why this affects them. National Cave Rescue Commission 
organizers are struggling to find a location for their annual intensive 
weeklong rescue trainings. Professors of cave sciences at our 
institutions of higher learning are concerned about the interruption of 
their cave field studies, and their undergraduate and graduate students 
involved in areas other than the study of bats.
    This summer, the NSS is honored to host the 15th International 
Congress on Speleology in Kerrville, Texas. Nearly 1,400 people from 
almost 50 countries and virtually every state are registered for the 
world's premier speleological event, which takes place every four 
years. The U.S. is the only country to now host two of the Congresses. 
Pre and post-Congress field camps provide international visitors the 
opportunity to see some of North America's finest caves and caving 
regions. Due to WNS, many of these trips have been cancelled or 
curtailed, and strict management of gear and decontamination protocols 
have been implemented for the entire event.
    While the confirmed bat mortalities associated with WNS have 
``only'' spread to the Virginias, the effects of management decisions 
on cavers, scientific researchers, other cave and mine visitors, and 
related economic fallout is already nationwide. All of these speak to 
the urgency of you acting quickly and comprehensively to address the 
situation.
    The NSS has been actively involved in the WNS investigation since 
the beginning. Working closely with the NY Department of Environmental 
Conservation, and later Vermont Fish and Wildlife, we closed our caves 
and worked to develop a cohesive and collaborative public message. Our 
members have been particularly active in the northeast in fieldwork 
helping to determine the geographic extent of WNS, helping with bat 
counts, and other field work.
    In March of 2008, the NSS Board of Governors created the WNS 
Liaison and appointed me as its WNS Liaison to act as a single point of 
contact with the emerging science and management effort. As Liaison, I 
have participated in the major conferences of scientists and wildlife 
managers, webinars, numerous conference calls, and task forces over the 
past fifteen months, and communicate information and developments from 
these venues.
    We created an extremely active website at http://www.caves.org/WNS/
index.htm. It tracks WNS developments, policies, research, and media 
coverage, and provides education and outreach tools to our members, the 
public, and agencies about WNS and how to prevent its spread.
    In June of 2008, we helped underwrite the first Science Strategy 
conference in Albany, NY, and participate in the proceedings. The need 
for immediate research funding was paramount, and we created a WNS 
Rapid Response Fund to help. To date we have raised over $55,000 and 
funded five critical projects.
    In April of this year, the NSS Board of Governors adopted a 
comprehensive WNS Policy Statement, which is attached for your 
information. In it, we ask our members and grottos to take the lead in 
reaching out to non-organized and unaffiliated cavers, as they are 
``out of the loop'' in terms of ready mechanisms for communication 
about WNS. To that end, we created an information brochure that can be 
downloaded from our website, copied and distributed. It is being used 
widely, and we were just complimented to receive a request from the 
National Park Service to use its copy and design for their brochure on 
WNS. It is also attached for your information.
    Indeed, an NSS study in the 1980's estimated that only about 5% of 
cave visitation is by organized cavers. Camp, scout, church, and other 
youth groups and outing clubs, plus a host of locals and the general 
public make up the majority of cave visitors. Many of these individuals 
seek out local cavers through our grottos to learn about safe caving 
techniques, basic cave science, and to gain access. These relationships 
are critical to effective dissemination of WNS information and to the 
protection not only of bats, but all other cave resources.
Our Views Regarding the Current Scientific Understanding of WNS
    Although a new species of fungus is implicated in the massive bat 
die-offs, we still haven't answered the basic question of whether it is 
the primary pathogen or an opportunistic one. As outlined in the 
science strategy priorities last year in Albany, we know the bats are 
dying of starvation, emerging early from hibernation emaciated and 
marked by noted physical damage and marked behavioral changes.
    In the absence of significant government funding, several of the 
NSS-funded projects are designed to help get at the answer of why the 
bats are starving: are they entering hibernation without sufficient 
quantity or quality of stored fats? Are they consuming more stored 
energy upon arousal than normal? Are bats affected with WNS 
immunocompromised? These studies are jointly funded with others, 
including Bat Conservation International and university funds. While 
fall and winter sampling is done, laboratory analysis is not complete, 
and results are not expected until the fall.
    The NSS was the sole funder of a massive sediment sampling project, 
collecting nearly 1000 samples in nearly 30 eastern states, looking to 
see if the suspect fungus is ubiquitous to the background cave and mine 
environment. Sampling was coordinated with state and federal biologists 
already doing the biennial endangered Indiana bat surveys this winter, 
but dozens of cavers trained in sterile collection protocols, provided 
additional samples from much more geographically diverse sites.
    Analysis of these samples will help determine one of the 
fundamental questions: is the fungus the cause or a symptom? If the 
fungus is already present, then something else is happening to allow it 
to take hold. If it's already present, then efforts to contain it via 
decontamination and limiting human access to sites may be moot.
    The samples are waiting to be analyzed by the USGS National 
Wildlife Health Center laboratory in Madison, Wisconsin. We have 
learned that the analysis has been funded by the USFWS, which is good. 
However, Congress should understand that it took private funding to 
initiate and carry out the fieldwork in a timely fashion. Without it, 
we would need to wait another year to even begin the work.
    Further, the committees should be aware that the government 
structure for receiving funds wouldn't work, and that we used a fiscal 
agent to pass the funds through to accomplish the work.
    Other key questions remain about how the fungus is transmitted. 
While there is general agreement that it is passed bat to bat as the 
primary method of transmission, we do not know if the caves or mines 
themselves are infected and can transmit the fungus. Further, while 
most media stories covering the cave and mine closures include a line 
about suspected human transmission, there is no proof to date, or 
studies to establish proof. The lone circumstantial evidence comes from 
a cave visitation date base that documents some caver movement from WNS 
affected sites in NY to two newly affected sites in PA and WVA. The 
same and other cavers have visited numerous other sites in many 
states--notably WVA, VA, TN, KY, GA, and IN, yet no WNS has been 
observed in those sites. We do not know if there is an incubation 
period for the fungus, or if there are other possible transmission 
mechanisms.
    We also don't know if the current decontamination protocols are 
effective. They take a universal precaution approach. Certainly, they 
are onerous and inconvenient for caver and field researcher alike. In 
the case of ropes, webbing, harnesses, and other load-bearing textiles, 
what may kill or contain the fungus also weakens or destroys the 
material, rendering it unsafe for use. To that end, the NSS has also 
funded current research through Northern Kentucky University testing a 
variety of decontamination techniques on these materials, which will 
then be stress tested by the manufacturers. This will lead to having 
both effective and safe protocols that will permit access for bat 
researchers and cavers alike to multi-level vertical mines and caves.
    Much research is also needed into how the fungus itself and how it 
affects the bats. We don't know how to effectively contain it, kill it, 
or limit its spread. Can we create a vaccine? Can we identify the 
characteristics of survivors? Will geographic or other natural barriers 
become evident as WNS spreads? We simply don't know, but need to know 
soon.
    One of the things we, as cavers, cave scientists, and cave 
conservationists do know, however, is that caves are delicate 
ecosystems. While we focus on bats, we must remember that caves are not 
just about bats. Many other significant and endangered species live in 
caves, some as rare as in only one cave.
    With no light to provide energy to the ecosystem, energy must be 
brought it through other mechanisms. Bats are a primary, if not the 
primary mechanism in many caves. Bat guano provides a source of 
nutrients for many other species of cave life. Other fauna also bring 
in energy, primarily to the cave ``twilight zone.''
    Water is another primary source of energy and nutrients, but also a 
source of private and public water, and a critical point to understand 
in terms of potential WNS mitigation activities under consideration. If 
we move to high-risk containment strategies, such as fungicides, 
biological controls, or sealing sites, what other parts of the 
ecosystem might we affect?
    We must do the research to test mitigation strategies thoroughly 
before widespread application. Science must inform our responses, and 
this science needs to happen as soon as possible.
Our Views on Current Federal, State, local and private responses to its 
        spread.
    Most importantly, let me first state that the people I have met--
whether federal, state, private, or higher education-related--have been 
doing yeoman's work on a primarily ad-hoc basis. Many work outside the 
constraints of their jobs and funding sources, demonstrating their 
passion to do what they can to figure out just what WNS is, how it can 
be stopped, and what we can do to save our bats and their critical 
place in our ecosystem. They deserve your utmost gratitude, and now 
your concentrated support.
    As mentioned above and in our attachments, initial responses were 
by private and state entities. Responses grew on an ad hoc basis. While 
some federal personnel were involved, no real federal organization was 
evident until October of 2008. Funding streams and bureaucratic 
structure were clearly not set up and able to respond in a timely 
fashion. The State Wildlife Grant (SWG) mechanism is regionally 
competitive by design. Indeed, the fact that the title of today's 
hearing reflects a regional problem, rather than the national problem 
that it is, is telling.
    To most experienced cavers, government responses have been 
inconsistent, contradictory, and at times counter-productive. Current 
government responses have favored closing caves on public lands to 
visitation, presumably to retard spreading the fungus by the human 
vector. While an apparently obvious reaction, the impact on the spread 
of WNS will likely not be conclusive, because of the numerous other 
visitations by uninformed or unaffiliated persons as described 
previously. Decontamination protocols and guidelines for determining 
what equipment may be contaminated seem arbitrary, overly broad, and 
sometimes dangerous.
    In the private sector, the NSS has responded by closing some of its 
caves. So, too have numerous related cave conservancies--the 
Northeastern Cave Conservancy, the Middle Atlantic Karst Conservancy, 
the West Virginia Cave Conservancy, and the Southeast Cave 
Conservancy--and The Nature Conservancy on some of its properties.
    At the state level and federal level, current government responses 
vary widely and are confusing to the caving community, and probably 
other cave and mine visitors, including gemologists, rock hounds, 
geocachers, and scientists and students study other aspects of caves 
than bats. For example, the USFWS advisory call for a voluntary 
moratorium on cave-related activity in a 13-state region. It also calls 
for nationwide implementation of decontamination protocols. The USFS 
has closed all its caves and mines in 30 states. Several National Parks 
have closed some of their caves and either have already adopted or are 
considering closures well outside the affected region. National River 
areas within and without the USFWS advisory region have adopted 
closures. States have taken even a wider variety of steps, all of which 
is confusing and reads as a lack of coordination.
    Cavers knowledgeable of cave morphology and bat usage wonder about 
many caves covered by the advisories and closures, such as non-bat 
caves and caves that completely flood. Further, as cave 
conservationists attempting to protect the entire cave resource, taking 
the most experienced cavers out of the loop of interfacing with the 
unorganized public seems counterproductive. Some people will continue 
to visit caves, increasing the risk of vandalism, destruction of 
wildlife, and even additional unnecessary rescues.
    The decisions to close everything except commercial caves strikes 
many as political, and not biologically based. Many local NSS Grottos 
have strong relationships with their local show caves, helping with 
conservation efforts, public education, exploration and management, 
promotion, and even cleaning. While we recognize the economic 
considerations of government and privately owned show caves, good 
science should drive closure decisions.
    We recognize that closure decisions--including our own--have been 
essentially prophylactic in nature. However, where we go from here 
needs to be guided by science. Our call to you today is to support a 
comprehensive national research program to thoroughly research the 
underlying WNS mechanisms and develop sound management solutions.
Our Views on Needed Federal Actions to Further Comprehend and Contain 
        this Unparalleled Crisis.
    We think the first thing that needs to be done is to recognize this 
is a national, not regional problem. Its impacts are already being felt 
across the country, and beyond.
    We believe a national plan for addressing WNS, with a supporting 
bureaucratic mechanism in place to coordinate funding and management, 
is necessary.
    Immediate, significant new funding is needed. Others will testify 
to the appropriate amounts and specific needs, but they are 
substantial.
    We also need to recognize the seasonal nature of bat research--that 
the hibernation and summer cycles only permit certain types of research 
during limited windows of time. WNS will continue to be spread quickly 
by the bats. We need to have a mechanism for quick delivery of 
significant funding.
    While some limited federal funding has been put toward WNS, it has 
been woefully inadequate. The recently awarded State Wildlife Grant 
($940,000 over two years), will be spread among 11-13 states over two 
years, and do little more than support current staff time for 
monitoring and surveillance. This is important, but doesn't address the 
critical research needs described above, and will take a while to 
actually get into the field.
    The letter sent by various Members of Congress to Interior 
Secretary Salazar requested release of emergency funding. To the extent 
that is possible in the remaining federal fiscal year, it would be 
helpful and timely. However, our understanding is that this will take 
away from other potential uses. New money is needed, perhaps through 
emergency supplemental legislation.
    We strongly believe that funding needs to be directly available to 
the various entities working on WNS. Currently, the approach has been 
virtually all through the USFWS. Direct appropriations to the USGS, 
USFS, and the National Science Foundation--made more readily available 
to university researchers would be a significant improvement. From our 
view, it would also ensure a balanced and multi-disciplinary approach, 
and have more people working more quickly to solve this problem--a key 
factor.
    We need to have the research questions about the fungus, its 
transmission, and potential treatments answered. How quickly will it or 
can it spread to the major bat colonies of middle America, and Texas, 
New Mexico, and beyond. How do we ensure that our management approaches 
are guided by sound science? How do we ensure that we consider the 
entirety of cave ecosystems, and the larger environment, with our 
mitigation strategies?
    We also need to recognize the critical public education necessary. 
One thing we have learned at the NSS is what you think about WNS 
depends greatly on your vantage point. Those of us who live in the 
northeast have seen the ravages for several years. The Virginias and 
Pennsylvania are in the early stages. Those beyond--in Ohio, Indiana, 
Kentucky, Tennessee, don't know what to expect yet. Those much farther 
west can do much to prepare--to obtain baseline data on bats and 
hibernacula that we found lacking when WNS hit in the east.
    Time is our enemy. We've enacted preventive closures to allow time 
for science to catch up. We need significant federal resources now, and 
they can make a difference. We are along the path to answers in some 
areas, and the sooner we get them, the more bats and areas of the 
country we can protect. The sooner we understand successful mitigation 
strategies, the sooner we can prevent further spread.
    None of us wants to see the bat populations decimated and the 
subsequent dramatic increase in insect populations, which would lead to 
an increased use of pesticides. The economic and environmental costs 
would be tremendous.
    It's not necessary. If scientists can quickly determine that, 
indeed, the fungus is the culprit, energies can quickly focus on the 
remedies.
Conclusion
    The National Speleological Society has been proactive in 
researching the disease and attempting to halt its spread, and we will 
continue to offer our knowledge and resources as cave explorers, 
scientists, managers, and conservationists to fighting WNS.
    The situation is urgent. We ask for your help in providing 
immediate and significant funding for WNS research, surveillance, and 
mitigation. We ask for your help in creating a national plan--a 
comprehensive national research program--to address WNS. We ask for 
your help in educating and persuading your colleagues, particularly 
those who appropriate money, as to the urgency of the need.
    We love caves, and we love bats. Others have spoken to the role of 
bats as voracious insectivores. Bats have also contributed to our 
knowledge of other sciences and medicine. Bat research has enabled 
advancements in sonar, vaccine development, blood coagulation, and 
artificial insemination, just to name a few. We need bats. Now, they 
need us.
[NOTE: Attachments have been retained in the Committee's official 
        files.]
                                 ______
                                 

   Response to questions submitted for the record by Peter Youngbaer

Questions from Ranking Republican Member Henry E. Brown, Jr. (R-SC)
(1)  Mr. Youngbaer, if you were able to create a vaccine for WNS, how 
        would you effectively administer it to potentially affected bat 
        populations?
    Dear Congressman Brown,
    First of all, thank you for the opportunity to present to your 
committee on this important issue.
    In terms of how to effectively administer a vaccine, let me couch 
my response with the caveat that I am, first and foremost, a caver. I 
am not a scientist, and others are more expertly prepared to respond 
perhaps more technically to your question.
    That said, I have participated in a number of scientific and 
wildlife management meetings as the White Nose Syndrome Liaison of the 
National Speleological Society. I am also directly involved in the 
ownership and management of a number of caves, including those with 
WNS-affected bat populations.
    Based on what I know about caves--some of them quite immense 
systems--I would think the most efficient vaccine delivery system would 
be through the food supply. My understanding from some of the 
scientific discussions that have occurred is that there is a precedent 
for an oral rabies vaccine for bats that was administered by treating 
their food. I'm not sure exactly what the food was, but mealworms are a 
common item used to rehabilitate bats.
    There is also the possibility of an aerial spray at a cave or mine 
entrance, but that may affect other species, such as birds, who also 
frequent the entrances of some caves.
    In addition to the delivery system, choosing the proper sites must 
come into consideration. My view is that it is neither practical nor 
affordable to attempt to vaccinate every bat. Rather, targeting 
colonies that are endangered or threatened species would be one 
priority. That is, species protection.
    It may also be an effective strategy for WNS containment. By 
properly identifying the front line of WNS advancement, and 
understanding the flight and migration limitations of the affected 
species, bats in a buffer zone could be vaccinated with the aim of 
halting the spread at that point.
    Simultaneous with any vaccination strategy, we must also target 
research into learning whether any surviving bats in high mortality 
colonies have any unique genetic or other resistant characteristics, 
features, or behaviors that are permitting them to survive. We have not 
had the resources to focus on investigating survivors at this point, 
but that research is traditional and critical to understanding any 
resistant members of species and then being able to focus on 
encouraging those bat populations to grow and rebuild the lost 
populations.
    While vaccination may stop WNS from affecting certain bats, and 
could also be an effective containment strategy, understanding why and 
how some bats do survive is perhaps more important long-range.
(2)  Mr. Youngbaer, you correctly remind us that many other species, 
        other than bats, live in caves and mines. Have they been 
        impacted by the White-nose syndrome?
    To my knowledge, there are no other species that have shown any 
susceptibility to White Nose Syndrome. After several years now of WNS 
in caves and mines, and the large number of people--researchers and 
cavers--who have been in these sites, one would expect any other 
affected species to have been noted by now. WNS appears to be bat-
specific.
    Whatever mitigation strategies we end up applying, we do need to 
keep the health and survivability of the other species that share the 
cave environment in mind, including, as I mentioned in my testimony, 
some other rare and endangered species.
    Again, thank you very much for the opportunity to testify.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Youngbaer, for 
highlighting the national scope of this disease.
    And finally, Dr. Kunz, welcome to the Subcommittee and you 
can begin your testimony.

 STATEMENT OF THOMAS KUNZ, Ph.D., DIRECTOR, CENTER FOR ECOLOGY 
    AND CONSERVATION BIOLOGY, PROFESSOR OF BIOLOGY, BOSTON 
                           UNIVERSITY

    Mr. Kunz. Thank you. Good morning, Chairwoman Bordallo, 
Chairman Grijalva, Ranking Member Cassidy and Bishop, and 
Members of the Subcommittee.
    My name is Thomas Kunz. I am Professor of Biology and 
Director of the Center for Ecology and Conservation Biology at 
Boston University.
    In over 45 years of conducting research on bats in the 
Northeastern United States and the Midwest and the West, this 
is one of the most devastating conditions I have ever observed. 
It is unprecedented in my lifetime and in documented record. We 
are witnessing one of the most precipitous declines of wildlife 
in North America.
    Today my testimony will address three items. I am going to 
briefly summarize what we know and what we don't know. We have 
obviously heard from various speakers today some of this. I 
will repeat this as sort of the clean-up hitter here. I want to 
highlight the ecological and economic importance of 
insectivorous bats, and provide a rough estimate of the amount 
of Federal funding we believe is needed to address this issue, 
not only in research but monitoring, and to provide the needed 
information that managers can make sound decisions.
    I want to, first of all, compliment my previous panel 
members from Federal agencies and non-government organizations. 
With the limited amount of funding that all of us have had to 
do the research, it is quite amazing that we have learned quite 
a bit, and I want to cut to the chase here to tell you a little 
bit about what we do know. Very brief, this is spelled out more 
directly in my written testimony.
    Obviously, there are unprecedented numbers of bats that 
have died, ranging from New Hampshire to West Virginia. It is a 
newly described fungus. We know this. It grows on ears and wing 
membranes. The fungus grows optimally at five to 14 degrees 
Celsius. The histopathological studies that have been done 
demonstrate that the fungus does penetrate the skin of affected 
bats. They are genetically identical isolates of this fungus 
collected over a wide range of caves. Hibernating bats have 
severely depleted fat reserves by mid-winter, and they show low 
concentrations of what is known as polyunsaturated fatty acids 
in their diets, and I will come back to that.
    They have atypical high frequencies of arousals during 
winter. Many of them have atypical flight behavior during the 
winter as we have heard, flying outside in snowy weather. They 
have a reduced capacity to arouse when their fat reserves are 
depleted. They have a compromised immune system. They have 
ulcerated and necrotic and scarred wing membranes, at least 
those that survived the winter. Preliminary lab studies have 
indicated or suggested that there is no evidence of 
contaminants that have at least been examined, and there is no 
evidence of bacterial or viral pathogens.
    Critical research is needed in order to establish the 
etiology of White-Nose Syndrome, research and monitoring are 
needed.
    What we don't know are the following:
    First of all, there are uncertainties in all of these 
questions. The Geomyces fungus, we don't really know whether it 
is the primary cause of mortality, and if it is, we don't know 
the mode of action and how it is killing bats. We don't know 
the geographic distribution of the fungus. The fungus, if it is 
not the primary cause of White-Nose, what is it? The secondary 
manifestation is--there is evidence for that.
    Are there pathogens that we haven't identified either 
affecting directly or indirectly mortality? Are contaminants 
that we haven't really identified either causing indirect or 
direct mortality? Causing premature depletion of fat reserves 
is unclear, and why can't bats mount an effective immune 
system? And are some individuals genetically or immunologically 
resistant to White-Nose? There are others that I won't have 
time to go into detail here.
    We should care about bats as we have heard before. Little 
brown bat, for example, can eat up to, in one night, 60 medium-
sized moths, over a thousand mosquito-sized insects. In one 
season we are talking about one bat eating up to 10,000 
mosquito-sized insects, or I am sorry--10,000 moths or 180,000 
mosquito-sized insects, just one bat in one year.
    In summary, I just want to say regarding funding needs we 
have identified 10 major research topics. Research needs are 
greatest in the first few years. We request appropriation for 
supplementary funding in the stimulus bill but also request new 
funding, new appropriations for subsequent years, in Fiscal 
Year 2010 to 2014.
    Our best estimate at this point ranges from about 10 
million to 17 million dollars over a five-year period.
    Madam Chairwoman and Mr. Chairman, I want to again express 
my thanks for being invited here. We have a major crisis at our 
hand. We need to identify the causes and consequences of this 
critical disease, and I totally support a national plan to 
address these issues.
    Thank you very much.
    [The prepared statement of Mr. Kunz follows:]

         Statement of Thomas H. Kunz, Professor of Biology and 
 Director of the Center for Ecology and Conservation, Boston University

Introduction
    Chairwoman Bordallo, Chairman Grijalva, and Members of the 
Subcommittees, I am Thomas H. Kunz, Professor of Biology and Director 
of the Center for Ecology and Conservation Biology, Boston University. 
Thank you very much for the opportunity to testify concerning White-
Nose Syndrome, a devastating disease of hibernating bats that has 
caused the most precipitous decline of North American wildlife in 
recorded history.
    My testimony will (1) briefly summarize what we know and don't know 
about White-Nose Syndrome based on research and monitoring over the 
past three years, (2) highlight the ecological and economic importance 
of insectivorous bats to healthy ecosystems, and (3) provide an 
estimate of the amount of federal funding that will be needed over the 
next 5 years to address unanswered questions in efforts to identify 
causes and consequences of this emerging wildlife disease so that we 
can provide critical scientific information needed for making sound 
management decisions.
Background and Context
    In recent years, bats have become increasingly subjected to a 
variety of anthropogenic perturbations, as they are being exposed to 
industrial chemicals, water pollution, air pollution, light pollution, 
habitat alteration, deforestation, and direct impacts of wind energy 
facilities. Several species of bats threatened by these and other human 
activities face a growing risk of extinction. In particular, alteration 
of natural habitats and subsequently replacement by agricultural 
monocultures and suburban sprawl, introductions of exotic plant 
species, human disturbances to caves and mines, and recorded decreases 
in some aerial and aquatic insect species compromise the ability of 
bats to successfully feed, reproduce, and hibernate.
    Throughout the world, bat species provide important ecosystem 
services by pollinating flowers, dispersing seeds, and consuming 
insects, thus playing central roles in the maintenance and regeneration 
of forests and other ecosystems following natural and anthropogenic 
disturbances. Insectivorous bats, in particular, play critical roles in 
many ecosystems by suppressing insect populations in both natural and 
human-altered landscapes.
    As we have already learned from others who have testified, White-
Nose Syndrome has infected six species of insect-eating bats in the 
northeastern and southern U.S. (Appendix 1), causing declines 
approaching 100% in some populations, and estimated losses have 
exceeded one million bats over the past three years. If the spread of 
WNS is not slowed or halted, further losses could lead to the 
extinction of entire species and could more than quadruple the bat 
species that are federally listed as endangered in the U.S. Such losses 
alone are expected to have unprecedented consequences for ecosystem 
health throughout North America, with potentially extraordinary 
economic consequences.
Current, Federal, State, Local and Private Responses to the Spread of 
        White-Nose Syndrome
Federal Responses
    Federal responses to WNS have been slow, to say the least, not for 
lack of existing USFWS and USGS staff investing their energies to 
encourage research and monitoring, and to facilitate and conduct 
research and monitoring, but largely because of bureaucratic issues 
relating to the timely release of funds to an emergency situation. One 
impediment, in particular, to the timely release of funds is the 
federal requirement for matching non-federal funds, under the State 
Wildlife Grants Program, before awards can be made. WNS also is issue 
of national importance and should be on the agenda of other federal 
funding agencies, such as the National Science Foundation, National 
Institutes of Health, Department of Defense, and Department of Energy, 
each of which have a long history of supporting research and monitoring 
studies of national importance. A reallocation of funds from the 
existing 2009 FY budget (including funds from the Stimulus Package) 
would seem prudent, but a new source of funding for research and 
monitoring on WNS should be allocated starting in FY 2010.
State Responses
    State responses to WNS have played an important role in supporting 
a small amount of research and early monitoring. Most notably, New York 
State, Vermont, and Pennsylvania, within the region of WNS affected 
locations in the northeastern U.S., have been the major contributors to 
research and monitoring, although they have not had sufficient funds to 
support the type of research and monitoring that is needed in response 
to early signs of WNS. Due to lack of state funds for travel, many 
qualified state wildlife biologists were limited in the monitoring work 
they have been able to accomplish, or to participate in Science 
Strategy Meetings or other conferences where WNS was on the agenda over 
the past three years.
Local and Private Responses
    By most measures, the rapid responses of non-government agencies 
and private organizations have made it possible to conduct most of the 
research that has been conducted to date. Moreover, these resources 
were used to organize two important Science Strategy Meetings that 
identified questions, hypotheses, and research needs. At least three 
international societies--the American Society of Mammalogists and the 
North American Society for Bat Research--and two international 
conferences--the International Congress of Speleology (Kerrville, TX) 
and the International Bat Migration Symposium (Berlin, Germany), over 
the past two years have organized and sponsored special sessions on 
WNS.
    In response to this developing crisis, two Science Strategy 
Meetings on White-Nose Syndrome (WNS) have been convened in the past 
year--the first on June 9-11, 2008, in Albany, New York to identify 
questions, hypotheses, and research needs related to the increased 
prevalence and spread of WNS, and another on May 26-27, 2009 in Austin, 
Texas to review what we know and don't know about WNS, and to identify 
questions, hypotheses and research needs to address unanswered 
questions. Both of these meetings were funded largely from non-
government sources. Participation in these meetings by state and 
federal staff were funded by their respective agencies.
    Over the past three years, some progress has been made to answer 
several key questions based on available funding. However, given 
limited funds available for research and monitoring, and the current 
rate of spread of WNS since it was first discovered, we can expect this 
disease in the very near future to advance into regions of the U.S. 
where some of the largest hibernating bat colonies are known. Many of 
these hibernating colonies at potential risk are located in southern 
and mid-western states, and include major populations of three 
federally listed endangered species, with adverse ecological and 
economic consequences extending well beyond the northeastern U.S. WNS 
should be of national concern, and emergency funds should be allocated 
from federal agencies.
Federal Actions to Further Comprehend and Contain this Unparalleled 
        Crisis
    To address the crisis of WNS spreading close to regions of major 
hibernating colonies in the U.S., at our most recent Science Strategy 
Meeting this past week in Austin, Texas, the participating scientists 
made a call to the Federal Government to establishment a national 
comprehensive research program to identify underlying mechanisms 
causing WNS that are needed to develop sound management solutions. With 
the availability of funding to support needed research, we are staged 
to move forward with the advantage of hindsight of what we know and the 
foresight of what we need to know to address this emerging disease.
Current Scientific Understanding of White-Nose Syndrome
What We Know
    <bullet>  Unprecedented numbers of dead bats attributed to WNS have 
been reported from hibernacula in nine states--ranging from New 
Hampshire to West Virginia.
    <bullet>  A newly described white fungus (Geomyces sp.) grows on 
the nose, ears, and wing membranes of bats affected by WNS.
    <bullet>  The fungus associated with WNS grows optimally at 
temperatures characteristic of most hibernacula--between 5 and 14 C.
    <bullet>  Histopathological studies have demonstrated that this 
fungus penetrates the skin and wing membranes of bats affected with 
WNS.
    <bullet>  Genetically identical isolates of this fungus have been 
collected from affected bats located in widely dispersed hibernacula in 
the northeastern United States, suggesting that it is a plausible 
causative agent of WNS.
    <bullet>  Hibernating bats affected by WNS have severely depleted 
fat reserves by mid-winter.
    <bullet>  Hibernating bats affected by WNS show low concentrations 
of polyunsaturated fatty acids.
    <bullet>  Hibernating bats affected by WNS show atypical high 
frequencies of arousal from torpor, especially in early winter.
    <bullet>  Hibernating bats affected by WNS exhibit atypical flight 
behavior during winter and often fly outside hibernacula.
    <bullet>  Hibernating bats affected by WNS have a reduced capacity 
to arouse from deep torpor after fat reserves have been depleted.
    <bullet>  Hibernating bats affected by WNS show compromised immune 
responses.
    <bullet>  Bats that survive hibernation often have ulcerated, 
necrotic and scarred wing membranes.
    <bullet>  Preliminary results suggest that concentrations of 
chlorinated hydrocarbons, pyrethroids, and heavy metals are not 
markedly elevated in bats thus far examined, nor have known bacterial 
or viral pathogens been discovered.
    To establish the etiology of WNS and to make sound management 
decisions, research and monitoring are needed to determine whether this 
cold-loving fungus is a direct cause or a secondary effect of this 
devastating disease. The recent spread of WNS to the south and west of 
the epicenter near Albany, in New York State, poses a severe threat to 
other hibernating species that form some of the largest colonies of 
hibernating bats in North America.
What We Don't Know
    <bullet>  Is the newly described cold-loving fungus associated with 
WNS the primary cause of mortality in hibernating bats? If so, what is 
the mode of action of the fungus in killing bats?
    <bullet>  What is the geographic distribution of the fungus 
associated with WNS?
    <bullet>  If the fungus is not the cause of WNS, is this condition 
a secondary manifestation of other underlying factor or factors? If so, 
what are these factors?
    <bullet>  Are pathogens (bacteria or viruses) a direct or indirect 
cause of mortality in bats affected by WNS?
    <bullet>  Are contaminants a direct or indirect cause of WNS 
related bat mortality?
    <bullet>  What causes the premature depletion of fat reserves in 
bats affected by WNS?
    <bullet>  Can bats mount affective immune responses to the fungus 
associated with WNS or to other potential pathogens or contaminants?
    <bullet>  Are some bats genetically or immunologically resistant to 
WNS and thus can survive infection?
    <bullet>  How does WNS affect bats at maternity colonies?
    <bullet>  What is the mode of transmission of WNS?
    <bullet>  Can we predict geographic limits to the spread of WNS?
    <bullet>  Can we slow or stop the spread of WNS?
    <bullet>  Can we reduce the mortality of bats affected by WNS?
    <bullet>  Can some individuals survive WNS, followed by a 
subsequent population recovery? If so, can population recovery be 
facilitated?
Why Should We Care?
    Each of the six species of bats that are affected by WNS are 
obligate insectivores--many of which feed on insect pests of 
agriculture and garden crops, and at times these may include insect 
species that pose risks to human health. The enormous number and 
biomass of insects that would have been eaten annually by the estimated 
1 million bats that have since died in the northeastern U.S. emphasizes 
the extraordinary value of insectivorous bats to the normal function 
and health of both the terrestrial and aquatic ecosystems in which they 
feed.
    During the warm months of the year, one little brown bat (Myotis 
lucifugus), a species that has been most affected by WNS, is known to 
consume insects ranging from one-half to its entire body weight in a 
single night. Extrapolated to entire colonies and populations, this 
level of insect consumption provides an important ecosystem service to 
human kind, which in turn can reduce the use of pesticides often used 
to kill insects.
    For example, assuming that, on average, one little brown bat that 
weighs 7 grams eats only half its body weight each night (3.5 grams) 
from April 15 through October 15 (180 nights), this would amount to the 
consumption of 3.5 grams x 180 nights, or 630 grams of insects annually 
during these warm months. If we multiply 630 grams of insects that can 
be consumed by one little brown bat times 1 million bats that have 
already died from WNS, this would amount to 630,000,000 grams of 
insects that would not have been eaten by bats. When the latter value 
is converted from metric to English units, this amounts to about 
1,388,912 pounds or 694 tons of insects. This biomass is equivalent to 
the weight of approximately fifty-six M113 fully-equipped armored 
personnel carriers, twenty-three M3A3 Bradley fighting vehicles, 
seventeen fully-loaded 18-wheelers, 6 female blue whales, or 5,555,648 
quarter pounders--take your pick for comparison.
    The level of nightly consumption by one little brown bat would be 
equivalent to a 150-pound teenage boy eating approximately 300 quarter-
pounders. Translated to the number of insects that would not be eaten 
by one little brown bat in your backyard on a given night, it amounts 
to the equivalent of 60 medium-sized moths or over 1,000 mosquito-sized 
insects. On average, this means that approximately 10,800 medium-sized 
moths or approximately 180,000 mosquito-sized insects each year would 
not be eaten by just one bat.
    Although no studies have been conducted to assess the ecological or 
economic impact of insectivorous bats on ecosystem in the northeastern 
U.S., Cleveland et al. (2006) conducted a study in south-central Texas, 
and have shown that within an 8 county region, the quantity of insects 
eaten on an annual basis by an estimated 1.5 million Brazilian free-
tailed bats saves farmers an average of $741,000 per year in reduced 
applications of pesticides needed to control cotton bollworm on cotton 
crops.
Summary and Conclusions
    To date, a handful of university, state, federal laboratories have 
become engaged in research on WNS--largely funded by non-government 
organizations. Apart from characterizing the fungus associated with 
WNS, many questions remain unanswered. For example, although the 
psychrophilic fungus may turn out to be the ``smoking gun,'' it is 
unclear whether this syndrome results from various anthropogenic 
conditions that have reached an environmental threshold. Regardless of 
whether the cause of WNS is the result of anthropogenic or natural 
conditions, it has become increasingly clear that emergency funds from 
the federal government are needed to identify the exact causes and 
consequences in time to implement mitigation and to prevent its spread 
to other species and geographic regions.
    Many questions remain to be answered. For example, have individuals 
of some bat species evolved resistance to the causative agent of WNS? 
Given the extraordinarily slow reproductive rates of most bat species 
(e.g., typically one or two offspring born each year), can 
significantly decimated populations recover? Some highly gregarious 
hibernating species with limited geographic ranges (e.g., Indiana bat, 
gray bat, Virginia and Ozark big-eared bats) face the threat of 
extinction in the coming years if WNS continues to spread 
geographically. Given the important role that insectivorous species 
play as predators and as prey in balancing the structure and function 
of temperate ecosystems, what ecological and economic impacts will 
their loss have on both natural and human altered ecosystems? Urgent 
attention and concerted efforts by the Federal Government are needed to 
develop a national plan to support research that will help identify the 
cause and consequences of WNS, and to mitigate the rapid decline in 
numbers and anticipated spread throughout the geographic ranges of 
species at risk.
References
Anthony, E.L.P. and T.H. Kunz. 1977. Feeding ecology of the little 
        brown bat, Myotis lucifugus, in southern New Hampshire, 58: 
        775-786,
Blehert, D.S., A.C. Hicks, M. Behr, C.U. Meteyer, B.M. Berlowski-Zier, 
        E.L. Buckles, J.T.H. Coleman, S.R. Darling, A. Gargas, R. 
        Niver, J.C. Okoniewski, R.J. Rudd, and W.B. Stone. 2009. Bat 
        White-Nose Syndrome: An emerging fungal pathogen? Science 
        323:227.
Calisher, C.H., J.E., Childs, H.E. Field, K.V. Holmes and T. Schountz. 
        2006. Bats: Important reservoir hosts of emerging viruses. 
        Clinical Microbiological Reviews, 19: 531-545.
Cleveland, C.J., J.D. Frank, P. Federico, I. Gomez, T.G. Hallam, J. 
        Horn, J. Lopez, G.F. McCracken, R.A. Medellin, A. Moreno-V, C. 
        Sansone, J.K. Westbrook, and T.H. Kunz. 2006. Economic value of 
        the pest control service provided by Brazilian free-tailed bat 
        in south-central Texas. Frontiers of Ecology and the 
        Environment, 4: 238-243.
Desprez-Loustau, M.L., C. Robin, M. Buee, R. Courtecuisse, J. Garbaye, 
        F. Suffert, I. Sache, and D.M. Rizzo. 2007. The fungal 
        dimension of biological invasions. Trends in Ecology and 
        Evolution 22:472-480.
Jones, G., D.S. Jacobs T.H. Kunz, M.R. Willig and P.A. Racey. 2009. 
        Carpe noctem: The importance of bats as bioindicators. 
        Endangered Species Research (In press).
Kunz, T.H. and M.B. Fenton, eds. 2003. Bat Ecology. University of 
        Chicago Press, Chicago.
Kurta, A., G.P. Bell, K.A. Nagy, and T.H. Kunz. 1989. Energetics of 
        pregnancy and lactation in free-ranging little brown bats 
        (Myotis lucifugus). Physiological Zoology, 62: 804-818.
Messenger, S.L., C.E. Rupprecht, and J.S. Smith. 2003. Bats, emerging 
        virus infections, and the rabies paradigm. Pp. 622-679, In: Bat 
        ecology (T.H. Kunz and M.B. Fenton, eds.). University Press of 
        Chicago, Chicago, Illinois.
O'Shea, T.J., and J.J. Johnson. 2009. Environmental contaminants and 
        bats: Investigating exposure and effects. Pp. 500-528, In: 
        Ecological and Behavioral Methods for the Study of Bats (T.H. 
        Kunz and S. Parsons, eds.). Johns Hopkins University Press, 
        Baltimore.
Science Strategy Meeting. 2008. White-Nose Syndrome. June 9-11, 2008, 
        Albany, New York.
                                 ______
                                 
Appendix 1. Names of six species of hibernating, cave-dwelling bat 
        species (out of nine) in the northeastern U.S. affected by WNS.
    Little brown bat (Myotis lucifugus)
    Northern long-eared bat (Myotis septentrionalis)
    Small footed bat (Myotis leibii)
    Indiana bat (Myotis sodalis)--U.S. Endangered Species
    Tricolored bat (Perimyotis subflavus)
    Big brown bat (Eptesicus fuscus)
    Other hibernating cave-dwelling bat species likely to be affected 
by WNS if this disease spreads further south and westward from the 
northeastern U.S.
    Gray bat (Myotis grisescens)--U.S. Endangered Species
    Virginia big-eared bat (Corynorhinus townsendii virginianus)--U.S. 
Endangered Species
    Ozark big-eared bat (Cornorhinus townsendii ingens)--U.S. 
Endangered Species
                                 ______
                                 
                      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 ______
                                 

  Response to questions submitted for the record by Dr. Thomas Kunz, 
  Director, Center for Ecology and Conservation Biology, Professor of 
           Biology, Boston University, Boston, Massachusetts

Questions from Ranking Republican Member Henry E. Brown, Jr. (R-SC)
(1)  How much federal money is now required to effectively address the 
        White-nose syndrome?
    Following lengthy discussions with colleagues from academia and 
state and federal wildlife biologists, we propose a budget of 
$55,875,000 over a 5-year period (FY10 through FY14). This amount is a 
minimum estimate of the direct cost needed to address White-Nose 
Syndrome. This budget only includes budgets for DOI (USFWS and USGS) 
and NPS. Other agencies that could potentially contribute to this 
budget include USDA (USFS), DOD, DOE, EPA, NSF, and NIH.
(2)  Are we finding the disease in caves or mines that are not exposed 
        to human activity?
    This is an excellent question that we are currently addressing with 
funds provided by the National Speleological Society, in collaboration 
with USGS (National Wildlife Health Center in Madison, WI). To date, 
sediment and soil samples have been collected from over 200 caves and 
mines in the eastern US. Samples are currently being analyzed from 
these sites, and we hope to have an answer to this question by the end 
of the summer.
(3)  Has the federal government taken sufficient steps to address the 
        serious and growing problem of the White-nose syndrome? What 
        additional steps need to be taken immediately?
    USFWS is the primary federal agency that has taken steps to address 
this growing problem. Over the past 2 years, they have allocated 
approximately $5 million, mostly for management, with limited funding 
available for critical research. $950,000 of this amount was allocated 
for the State Wildlife Grant Program, and was to be distributed to 11 
participating states in the northeastern US. However, it is my 
understanding that these funds are not yet available. Because release 
of these funds requires matching funds from non-government sources, 
this severely restricts who will be able to use these funds, and thus 
extends the time before research and monitoring studies can be 
conducted. Following the recent joint congressional subcommittee 
hearing, USFWS announced a funding competition from the FY09 budget, 
with proposals due July 15, and announcements of awards by September 
30, 2009. $800,000 dollars are available through this program, but will 
not require matching funds.
(4)  Should all commercial caves and mines be closed to help stop the 
        spread of this disease and who has the authority to mandate 
        their closure?
    I don't believe that all commercial caves and mines should be 
closed to the public, partly because there are many such structures 
that do not house either hibernating, transient, or summer colonies of 
bats. However, I do believe that all caves and mines that house bats at 
any time of year should be closed to the public until such time as we 
have a better understanding of how the fungus is transmitted. If the 
fungus is spread by human activities, cave closure could reduce the 
likelihood of introducing the fungus to previously unaffected caves and 
mines. Given that bats most likely spread the fungus, closing caves and 
mines to human traffic would not stop the spread of the fungus to areas 
outside its existing range. Authority for closing caves would involve 
private owners, non-government agencies, and private and federal 
agencies responsible for their protection and management.
(5)  Is the White-nose syndrome the direct result of climate change? If 
        yes, please justify this finding?
    In my professional judgment, climate change is not the direct cause 
of White-nose syndrome. However, climate change, along with other 
conditions in our environment, such as increased use of potent 
pesticides throughout the eastern U.S. to control gypsy moths (which 
bats do not eat), and West Nile virus may compromise the immune system 
of bats, making them more vulnerable to such exposure. Notwithstanding, 
climate change may be a factor to which bats may not be able to adapt.
(6)  It appears that the White-nose syndrome is similar to a cold-
        loving fungus found in European countries. In those cases, bats 
        got the disease but are not dying of it. What have we learned 
        from the European experience?
    Preliminary studies by European and American scientists suggest 
that the fungus observed in Europe is very closely related to the 
recently described Geomyces destructans in the US, suggesting that this 
fungus may have been introduced near the epicenter of WNS in the 
vicinity of Albany, NY.
(7)  Several witnesses mentioned that the White-nose syndrome has 
        affected six species of insect-eating bats in the Northeastern 
        and Southern U.S. Are there bat species in this region, that 
        have not been affected by the disease and do we know why they 
        have been spared?
    To date, six species of insect-eating bats known from six 
northeastern states (New York, Vermont, New Hampshire, Massachusetts, 
Connecticut, New Jersey), and three mid-Atlantic states (Pennsylvania, 
Virginia, and West Virginia) have been affected by White-Nose Syndrome, 
but to different degrees. The highly gregarious little brown bat has 
been most severely affected--with losses up to 100% in some 
hibernacula, and losses ranging from 70 to 100% in some maternity 
roosts in the northeastern states. At least two other hibernating bat 
species--Virginia long-eared bat and gray bat (both listed as 
endangered and known to be at risk in the mid-Atlantic region)--can be 
expected to show evidence of WNS in the winter of 2009-2010. One cave 
in Virginia was identified in the winter of 2008-2009 as having bats 
with WNS, and it is located within 6 miles of a major gray bat 
hibernaculum. Given the rate of spread of WNS (ca 200 km per year) from 
its epicenter in New York State in 2006, we would expect that gray bats 
and Virginia long-eared will show symptoms of WNS in the winter of 
2009-2010. Given the high mobility of flying bats and their tendency to 
form swarming colonies in early autumn before they enter hibernation, 
it is likely that WNS will spread rapidly into the South and Mid-West--
regions of the U.S. that support major hibernating colonies of Indiana 
and gray bats, both of which are federally listed endangered species. 
Three other bats species that have a continental scale distribution--
eastern red bat, hoary bat, silver-haired bat--are migratory tree-
roosting species that seldom interact with the hibernating species that 
have been adversely affected by WNS.
                                 ______
                                 

     Proposed Budget Justification for Research, Surveillance, and 
            Management of White-Nose Syndrome (WNS), FY10-14

                         Thomas H. Kunz, Ph.D.

              Center for Ecology and Conservation Biology

                           Boston University

                            Boston, MA 02215

                          Phone; 617-353-2474

                           Fax: 617-353-5383

                          E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="553e203b2f1537207b303120">[email&#160;protected]</a>

                        Submitted: June 30, 2009

Determine mode of transmission of Geomyces destructans
    Funds are needed to establish whether and how and in what form the 
fungus Geomyces destructans is transmitted from bat to bat and from 
cave to cave. This information is critical for developing sound 
intervention and/or management strategies.
Document the origin, ecology, and distribution of Geomyces destructans
    Funds are needed to understand the ecology, origin and distribution 
of Geomyces destructans in North America. This information is essential 
for understanding where, when, and how this fungus may have been 
introduced into the US, and how it its spread can be slowed or stopped.
Develop diagnostic tools for field identification of WNS
    Funds are needed to develop field-based diagnostic tools for 
researchers to design reliable experiments with the knowledge that bats 
either are not or are infected--especially at early stages of 
infection--and for use by state and federal agency personnel for 
monitoring the spread of Geomyces destructans.
Assessment of immune responses of bats with and without WNS
    Funds are needed to compare the immune system of bats that are 
infected and unaffected by WNS. Thorough knowledge of the immune system 
of bats is critical for understanding the epidemiology of WNS and also 
for developing mitigation strategies.
Assess behavioral responses of bats with symptoms WNS
    Funds are needed to assess the physiological responses of bats to 
infections from Geomyces destructans. Knowledge of how bats respond 
behaviorally to infection from white-nose syndrome (e.g. arouse more 
frequently than normal, emigrate from infected hibernacula, transmit 
fungal infections socially or by grooming) will be valuable for testing 
alternative hypotheses for the cause of frequent winter arousals and 
depletion of fat reserves.
Assess physiological responses of bats with symptoms of WNS
    Funds are needed to quantify physiological responses of bats to 
infections from Geomyces destructans, especially during hibernation. It 
is expected that this knowledge will lead to be better understanding of 
the underlying causes and consequences of infection from this fungus.
Assess epidemiology of WNS in the US
    Funds are needed to develop epidemiological models of bats that 
have been exposed to Geomyces destructans. Information needed for 
making this assessment includes timing and rates of infection, and 
rates of spread from single or multiple sites of origin. This 
information will be needed to effectively manage bat populations 
affected by WNS.
Assess demographic variables of bat species that are currently affected 
        and unaffected by WNS
    Funds are requested to collect demographic variables such as 
reproductive rates, growth rates, and survival rates of bats that are 
affected by and not affected by WNS. This information is essential for 
the development of population models (see below).
Develop demographic population models of bats at risk from WNS
    Funds are requested for developing predictive models of species 
that are affected by WNS and rates of spread among affected species, 
based on demographic traits. This information is critical for 
developing sound management strategies.
Identify and develop mitigation and possible biocontrol strategies for 
        managing WNS
    Funds are requested to develop and test ecologically sound 
mitigation and biocontrol methods--including testing use of different 
decontaminants and for developing a possible vaccine that can be 
deployed by wildlife managers.
Unknown/unexpected research needs
    Contingency funds are requested to cover unexpected research needs 
that may be identified in the course of ongoing research.
Federal surveillance and monitoring
    Funds are needed for federal agencies to protect wildlife by 
conducting surveillance and monitoring studies of critical hibernacula 
and summer roosts under their jurisdiction, both within and beyond the 
current distribution of WNS. This information will be critical for 
developing and implementing sound management strategies and for 
advising and assisting researchers on appropriate sites for field-based 
sampling and research.
State assistance for surveillance and monitoring
    Funds are needed for state fish and wildlife agencies to conduct 
surveillance and monitoring of critical hibernacula and summer roosts, 
both within and beyond the current distribution of WNS. This 
information will be critical for developing and implementing sound 
management strategies and for advising and assisting researchers on 
appropriate sites for field-based sampling and research.
Coordination and disease management
    Funds are requested for state and federal agencies responsible for 
wildlife diseases to manage these resources to help reduce adverse 
impacts of WNS on hibernating bats using adaptive management strategies 
throughout the known and expected range of WNS.
Conferences and communication
    These funds will be used to convene one WNS Conference each year 
and one Webinar meeting each year, and for outreach and communications 
related to WNS.
                                 ______
                                 
                    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
    Ms. Bordallo. Thank you, Dr. Kunz, for your testimony and 
your continued work in bat research, and I will now recognize 
myself and members of the Committee for questions that we have 
for the second panel.
    My first question would be to you, Mr. Tuttle. What is your 
top priority in addressing White-Nose Syndrome?
    Mr. Tuttle. We have to conduct credible research to 
document clearly that the Geomyces is the primary cause or if 
something else is, what it is. We have to find out what the 
mode of transmission is, and then we can look for solutions. So 
far, we have spent a large amount of money almost exclusively 
on monitoring and surveillance.
    Bat Conservation International takes this extremely 
seriously in just the first year or so under bad economic 
conditions we spent more than $125,000 in emergency research. 
It is critical that we understand what this is, how it is 
transmitted, and how to solve the problem, and as I said in my 
testimony, if we don't do that our other efforts at management 
may be ineffective, could be even counterproductive.
    Ms. Bordallo. Thank you. Thank you very much.
    Dr. Darling, your testimony suggests developing creative 
means of getting people on the ground quickly. Can you please 
elaborate what exactly you mean by that?
    Mr. Darling. Well, unfortunately, state fish and wildlife 
agencies in these economic times have hiring constraints that 
literally preclude any additional staffing, and what we are 
finding or what I am witnessing with my peers is, again, a 
single person with out duties trying to assist in research or 
be the boots on the ground, and I think there are creative ways 
where we could look at Federal and state partnerships through 
avenues where there may be ways that we can have interagency 
agreements that both agencies can be working together through 
common personnel distributed throughout the states.
    Ms. Bordallo. All of the witnesses this morning have 
mentioned the need for funding, and this is definitely 
something we are going to have to look at, but does anybody 
here have an estimate of what the funding would be, just a 
ballpark figure? Dr. Kunz.
    Mr. Kunz. Yes, Madam Chairman. There have been two science 
strategy meetings held over the last two years and the most 
recent one was last week in Austin, Texas, where a number of 
scientists and resource managers met to discuss research 
topics, and the needs that we felt were appropriate to address 
these issues, and our best estimate at this point is for over a 
five-year period ranges from 10 million to 17 million dollars, 
and this is basically research and monitoring within the area 
that is currently affected by White-Nose. It does not address 
the needs for monitoring outside this zone; that is, in the 
areas where Dr. Tuttle's map shows this could be extended into 
in the next few years.
    Ms. Bordallo. Very good. And what is the cost? Seventeen?
    Mr. Kunz. Ten to 17 million.
    Ms. Bordallo. Ten to 17 million.
    Mr. Kunz. And I would just add that difference is--range 
here really is made up by one potential mitigation control 
measure. There are a number of possible solutions that have 
been discussed: bio control, vaccines, we talked about using--
people have discussed the possibility of spraying fungicides 
which are probably not realistic based on some of the ideas 
that Mr. Youngbaer had discussed, but to develop any kind of a 
vaccine, as many of you know, is not an inexpensive effort, and 
there are risks involved here because there are not very many 
vaccines that have been effectively developed against a fungus. 
Nonetheless, it is probably the most viable mitigation effort 
that we have.
    Ms. Bordallo. One further question, and I may have some for 
the second round. Do any of you know, do any bats that have 
developed this White-Nose Syndrome, do any of them recover?
    Mr. Kunz. Well, White-Nose Syndrome is manifested by a 
fungus on their face, and fungus on the wing membranes and 
ears. What we do see evidence of bats that presumably survived 
White-Nose Syndrome because in the spring of the year and at 
maternity colonies as they arrive in May and June, many of them 
have necrotic wings, scarred wings that suggest that they are 
the survivors.
    Now, there are a lot of interesting questions there. They 
may survive but not be able to reproduce. They may not be able 
to feed effectively with damaged wings. We have seen wings that 
are just sloughed off--the major part of the wing membranes in 
June at maternity colonies with a sloughed off wing, and that 
is their life blood to the food that then also supports babies.
    Ms. Bordallo. Thank you. Thank you very much.
    I would like now to recognize the Ranking Member, Mr. 
Cassidy.
    Mr. Cassidy. I guess my questions will probably be to Dr. 
Tuttle and Dr. Kunz. For all of you, I admire your passions and 
you have done a good job of convincing me of the importance of 
this issue.
    It is unclear when these birds are falling into the ground, 
is that because of disruption of their wings or is that because 
of a neurologic issue?
    Mr. Kunz. Well, there is no evidence right now that 
neurologically they are affected.
    Mr. Cassidy. Except they are slow to awaken from their 
torpor and so----
    Mr. Kunz. Yes. This has to do with the amount and kind of 
fat they have. There are two kinds of fat. I mean, well, bats 
have basically three kinds of fat. White fat, which is depot 
fat, brown fat, and of the white fat they also have--they are 
made up of saturated and unsaturated fatty acids. And it turns 
out that a normal arousal from a bat, a bat that is healthy 
will arouse naturally or by stimulation within 45 minutes to an 
hour. When they don't have enough fat to arouse, they just 
simply don't arouse. They are unable--we have observed bats 
after physical stimulation in a cave. They are not arousing 
after five hours. So, there is something about the type of fat 
and the amount of fat that they have that makes them 
successfully arouse.
    Mr. Cassidy. And I had asked the gentleman earlier and he 
deferred to you guys, I just have to think there is some 
alternation of the immune system beyond what you have 
described, a T-cell abnormality or something, because I am sure 
that it is a T-cell response to the fungus it would normally 
protect, correct?
    Mr. Kunz. Yes. The immune system in bats is very poorly 
known. In my lab and in another lab, Dr. Dianne Reader at 
Bucknell University, we are the two labs that are primarily 
focusing on the immune system of these bats. It is compromised 
as Dr. Blehert mentioned that these are not normal mammals. 
These are mammals that go into torpor and so when an animal is 
in torpor their immune system is compromised. They don't 
respond. They only have immune system----
    Mr. Cassidy. But wouldn't that be relative to baseline. So, 
assume that you have some bats. You mentioned 95 percent die, 
but 5 percent live.
    Mr. Kunz. Right.
    Mr. Cassidy. And I think what they do in Africa for the 5 
percent that survive from HIV even though they have HIV 
antibody, those are a different person. So, it seems like you 
could sacrifice a few of the 5 percent that live and look at 
their baseline. Are you with me?
    Mr. Kunz. Yes. We are doing this, and the data are not 
available at this point. We are looking at T-cell complements. 
We are looking at complement proteins. But this, again, I can 
only emphasize that the limited funding, the funding for this 
research----
    Mr. Cassidy. OK, I only have--I am with you on that.
    Do mosquitos carry the fungus?
    Mr. Kunz. We are not aware that they do.
    Mr. Cassidy. Because someone said that they are below a 
normal temperature so it seems like that would be an obvious 
source.
    And the surviving bats that you are sacrificing I am sure 
you have already cultured them to see if they have the fungus 
on them. Some that do not have scarred wings or mucus 
membranes, et cetera. So, do the surviving bats that you 
sacrifice have the fungus on them?
    Mr. Kunz. I would actually call on David Blehert, who has 
actually done some of this work and is more familiar with the 
histopathology and the presence of the fungus during--is David 
here? OK.
    Dr. Blehert. Should I come up to a microphone?
    Ms. Bordallo. Yes. You can come forward. No objection.
    Dr. Blehert. Thank you. The question of surviving bats is 
somewhat complicated. We can culture the fungus from live but 
sick bats. We have not cultured the fungus from bats that 
appear otherwise healthy, but then the question remains if we 
have a healthy bat, what would happen to it next year. We 
haven't seen any evidence that bats develop resistance to it.
    Mr. Cassidy. Except that they are still alive?
    Dr. Blehert. Right. Although if we were to mark that bat, 
for example, and then allow it to naturally go back into a cave 
next year, we are doing some of those experiments right now, 
does it remain resistant or was it just a matter of luck?
    Mr. Cassidy. Are you tagging those bats?
    Dr. Blehert. Yes. That work is being done.
    Mr. Cassidy. And last, it seems like it would be very easy 
to have some post-doc go out there and go to all the caves 
across Canada and the Southwest, et cetera, and just culture 
caves for this fungus. I guess I was just curious why we still 
apparently don't know the prevalence of the fungus.
    Dr. Blehert. No, that work is underway right now. All of 
those samples were collected during the last hibernation 
season. They are in my laboratory right now, and we are 
developing the technology to test those samples, and so there 
is another set of results that we should have by the end of 
this summer.
    Mr. Cassidy. Good. Thank you.
    Mr. Tuttle. If I could interrupt just a second. Dave isn't 
speaking up for himself. I heard him speak at the meeting last 
week. A lot of the things that we would love to see done would 
have been done already except that he is incredibly 
understaffed relative to what is expected of him in his lab. 
Thank you.
    Mr. Youngbaer. Could I just respond to that question too? 
The sediment sampling that Dr. Blehert was talking about is a 
project that he, Dr. Kunz, Dr. Al Hicks, the wildlife 
biologist, mammalogist for the State of New York, Department of 
Environmental Conservation, and the NSS organized and funded, 
and we used a score, a volunteer trained caver labor, plus some 
of the state biologists and their teams who were already going 
into caves, taking advantage of the fact that this was the 
scheduled time for the bi-annual Indiana bat surveys, and that 
got us the geographic distribution in a 30-state area.
    You should understand, in my testimony I said some of the 
funding was cumbersome, we arranged to do this by using an 
external fiscal agent rather than the funding through the U.S. 
Geological Survey because it would not have occurred this past 
winter otherwise, and so that is one of the things that we have 
all scrambled to try and get this information so that we could 
do that analysis this year.
    Mr. Cassidy. Thank you.
    Ms. Bordallo. I thank the Ranking Member, and now I would 
like to recognize the Co-Chair of this hearing, The Honorable 
Grijalva from Arizona.
    Mr. Grijalva. Thank you, Madam Chair.
    Mr. Tuttle, based on the large number of unanswered 
questions that we have heard about today, how has Bat 
Conservation International prioritized giving out the funding 
for research? I am just curious as to how you prioritize that.
    Mr. Tuttle. Thank you, sir.
    We early recognized that we cannot make really credible 
progress on this without serious prioritization and research 
that is peer reviewed. We funded both the first and the second 
science strategy meetings with help from a variety of others, 
but we organized the funding and hosted those science strategy 
meetings, and when we give out money all of our funds are peer 
reviewed through an outside panel of expert scientists. We do 
not just give out money because somebody wants to do a project. 
We make sure that it goes to the most credible people that 
already have the best reputations in relevant fields, and then 
we make sure that a peer review process occurs. That is really 
important for these funds. Everybody knows that anywhere there 
is money available it can go down a lot of strange places 
without peer review, and that is something I think we need.
    Mr. Grijalva. Thank you. Mr. Darling, of the comments, 600 
or so that you have received from the public on this particular 
issue, have you noticed a particular concern that comes up 
repeatedly?
    Mr. Darling. There are basically two concerns that I hear 
from the public. The first is, and not necessarily in any order 
of priority, the first concern or worry is about rabies 
exposure. These are behaviors that bats are exhibiting that 
people tend to relate to as a bat sick with rabies: flopping on 
the ground, dropping from the ceiling.
    And the second concern that I hear is just a public concern 
for what is going on. This should not be happening. Bats are 
important to us in Vermont where we do have buggy summers, and 
this is just not right.
    So, those are the two primary comments and concerns I get 
from the public.
    Mr. Grijalva. Thank you. Mr. Youngbaer, do we have the peer 
science to indicate which caves should be closed and which ones 
should stay open? Is it your opinion that all caves should be 
open?
    Mr. Youngbaer. No, it is not our opinion that all caves 
should be open, and as I mentioned in my comments, NSS board of 
Governors adopted a policy on White-Nose Syndrome which 
enunciates a number of strategies, including honoring any of 
the state or Federal or private closure orders that are out 
there; strict decontamination; and also educating the public 
about the possible human vector here, although that is unknown. 
But as I said, those are prophylactic actions.
    I think where the nuances come from very experienced cavers 
is to the broadness of some of the orders and some of the 
moratorium suggestion that cover non-bat caves, for example, 
that bats just don't go in, why they are closed, and you will 
see, if you look at our online chat rooms, for example, quite a 
bit of discussion about why those things might be----
    Mr. Grijalva. If you could very quickly, just because I 
really believe there is an economic component to this----
    Mr. Youngbaer. Yes.
    Mr. Grijalva [continuing]. The multiplier effect, less 
visits, less access to these caves.
    Mr. Youngbaer. I will give one example that I can think of 
off the top of my head.
    Mr. Grijalva. OK.
    Mr. Youngbaer. Southeastern Kentucky holds the Carter Cave 
Crawlathon, I think they call it. This is attended by six to 
seven hundred people in the dead of winter. It is a time when 
local hotels, motels and restaurants aren't seeing business, 
and this has been an annual event that goes on for--it was 
canceled this year. There is a tremendous economic fallout from 
that.
    The fact that events are canceled is going to be 
demonstrated. There is confusion about what is going on with 
the commercial caves. The public are asking questions when they 
come there and you will see visitation fall off. So, I think 
there is economic impact there, not to mention the agricultural 
issue.
    Mr. Grijalva. Madam Chair, I have one more.
    Ms. Bordallo. Go ahead.
    Mr. Grijalva. Thank you. Mr. Kunz, we have heard previous 
testimony that there is no real proof that humans carry the 
syndrome from cave to cave. How do you respond to that 
conclusion?
    Mr. Kunz. Mr. Chairman, it is my contention that there are 
two modes of transmission, and that is humans as well as bats. 
I think there is fairly clear evidence that bats are moving 
this around, and we can't simply rule out the fact that cavers 
or researchers who have not effectively decontaminated 
themselves could move fungus around. The fungus can also be 
distributed by air. The spores are transmitted. So, there are 
multiple routes or modes of transmission. This is one of the 
primary research needs that needs to be addressed.
    Mr. Grijalva. In the research puzzle, in your opinion what 
is the biggest missing piece where agencies should be focusing 
the research right now?
    Mr. Kunz. Well, I have a list of 10 here, and they are not 
necessarily in any particular order. But I think we need--what 
we just mentioned here, is the mechanism of transmission needs 
to be known.
    Mr. Grijalva. Thank you.
    Mr. Kunz. We also need to know the ecology, the origin, and 
distribution of Geomyces, the fungus, which is a newly 
described species. There are many species of Geomyces, but the 
ecology of this one is not known. Where it came from, if it 
indeed in fact may have come from Europe. There is ongoing work 
in Europe, there is ongoing work in Dave Blehert's lab in 
collaboration with those folks.
    Mr. Grijalva. OK, thank you.
    Madam Chair, thank you for the indulgence. I appreciate it 
very much, and thank you for the hearing.
    Ms. Bordallo. I thank the gentleman, and now I would like 
to recognize the gentlelady from Massachusetts, Mrs. Tsongas.
    Ms. Tsongas. This has really been fascinating and I too 
have been persuaded of the urgency of this. Are you all 
confident that with the additional funding, 10 to 17 million, 
that you can get ahead of it, and that you have a cohort of 
professionals in place who can take advantage of that funding 
and really begin to sort this out in a timely fashion? And I 
direct this to whoever wants to go first.
    Mr. Darling. Well, let me start by suggesting that the 
existing cohort of professionals is not sufficient in size to 
get this work done. We need to expand the pie both within the 
Federal and stage agencies working on it, but clearly within 
the other institutions, academic and nonprofits that are 
participating in it as well, and often funding can help make 
that happen.
    Ms. Tsongas. But there are people trained who could quickly 
sort of take this on and begin to do the work in a way that is 
very meaningful.
    Mr. Darling. Yes and no. Again, in particular where we are 
looking at alternative hypotheses, if in fact it is not the 
fungus, we do need to make our pie larger on the number of 
people and the expertise that is needed in order to find a 
solution to this problem.
    Ms. Tsongas. Are there any others like--Dr. Kunz?
    Mr. Kunz. Yes. My contention would be that we do have a 
cohort of trained scientists that are out in the field or out 
in--they are available, and would be capable of addressing many 
of these issues. The funding simply hasn't been sufficient to 
encourage them to even consider working. Some of the research, 
the research in the immune system, determining mechanisms of 
transmission, even identify the genome of Geomyces, these are 
not inexpensive operations.
    What I would say is that we shouldn't just have single labs 
operating on this, working on this. They need to be multiple 
labs; not just Department of the Interior or USGS laboratories. 
We need academic researchers involved in this, which there are, 
and I would also extend the need to approach other agencies: 
National Science Foundation, National Institutes of Health, 
which are the primary biological institutions that could in 
fact assist in this kind of funding.
    I know there is often competition between institutions for 
funding, but I think this is a clear need for cooperation among 
Federal agencies to address this important issue.
    Mr. Tuttle. In answer to your original question, no, we 
cannot guarantee that we are going to find a solution if we get 
the money, but I can virtually guarantee that we won't find the 
solution if we don't, and there is reasonable prospect. There 
is very significant research that we already know needs to be 
done. It could have already been done if the funds were 
available. We just aren't going to have a chance if we don't 
get those funds to the right people very quickly.
    Bat Conservation International has had to help fund 
multiple projects where Federal funds were supposed to do it 
but were so tied up in red tape that they couldn't be allocated 
in time to do the research.
    Ms. Tsongas. Well, thank you. Another question, you 
suggested a vaccine might be the--not perfect, but a potential 
solution. How does one administer a vaccine to a bat?
    Mr. Kunz. With a needle.
    Ms. Tsongas. So, it is individual by individual bat?
    Mr. Kunz. We wouldn't be able to vaccinate every bat, but I 
can tell you over the time that I have studied bats and even 
within a given year, we could mount a number of different 
researchers out there, it wouldn't be unrealistic to be able to 
immunize tens of thousands of bats.
    Ms. Tsongas. When they are in hibernation?
    Mr. Kunz. No, when they are active. Again, I think the 
problem--you know, we don't want to disturb them any more 
during hibernation. Sticking a needle in a bat during 
hibernation will cause it to----
    Ms. Tsongas. OK. Thank you.
    Ms. Bordallo. I thank the gentlelady from Massachusetts. 
That was a very interesting question. I kind of wondered about 
it myself.
    I want to thank all of the witnesses for their 
participation in the hearing today, and members of the 
Subcommittee may have some additional questions for the 
witnesses, and we will ask you to respond to those in writing. 
The record will be open for responses for 10 days.
    If there is no further business before the Subcommittee, as 
Chairwoman I again thank the members of the Subcommittee and 
our witnesses for their participation here this morning, and 
the Subcommittee now stands adjourned.
    [Whereupon, at 11:38 a.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]
    [A letter submitted for the record by Mollie Matteson, 
Conservation Advocate, Center for Biological Diversity, 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [A statement submitted for the record by Nina Fascione, 
Vice President for Field Conservation Programs, Defenders of 
Wildlife, follows:]

Statement submitted for the record by Nina Fascione, Vice President for 
           Field Conservation Programs, Defenders of Wildlife

    Chairwoman Bordallo, Chairman Grijalva and members of the 
Subcommittees, thank you for the opportunity to submit written 
testimony for the record on white nose syndrome and the need for 
further research on the devastating impact of this disease on North 
America's bats.
    Defenders of Wildlife was founded in 1947 and is a national non-
profit organization with more than one million members and supporters 
dedicated to the protection and restoration of all wild animals and 
plants in their natural communities.
    As you are aware, North American bats are facing a crisis of 
tremendous proportions. An emerging disease called white-nose syndrome 
is killing hibernating bats in large numbers and has spread through a 
number of eastern states in the past two years. To-date, this disease 
has killed an estimated one million bats.
    Discovered in cave system near Albany, New York over two years ago, 
the disease has now rapidly moved on to cave systems in Vermont, 
Massachusetts, Connecticut, New Jersey, Pennsylvania, New Hampshire, 
West Virginia and Virginia.
    White nose syndrome predominantly affects the six species of 
hibernating bats, which includes the federally-listed Indiana bat. 
These already sensitive species are feeling the effects of the disease 
and researchers are seeing significant declines in their numbers.
    Researchers believe the disease is a Geomyces fungus that gets into 
the bats' skin and creates a white fuzzy growth around their muzzles 
and wings. How the fungus spreads is still a mystery, as is the means 
to prevent bats from contracting it. Scientist and wildlife managers 
currently working to fill this informational void are hampered by 
financial constraints, and any delay in determining ways to halt the 
spread of the disease will severely affect bat populations across the 
country and the ecosystem services they provide.
    Bats play a vital role in the environment and serve as natural 
insecticides. They eat large numbers of insets, including pest species 
like mosquitoes and crop-eating insects, thereby significantly reducing 
damage to crops. Losing these insect-eating bats could trigger massive 
insect explosions that impact agriculture and human health.
    Urgent funding is needed to avert the catastrophic out come of 
white nose syndrome should it progress unchecked. A current 
Congressional letter from Representative Shea-Porter requests $5 
million for research, management, coordination and outreach to be 
included in the Interior, Environment and Related Agencies 
Appropriations bill to assist the U.S. Fish and Wildlife Service, the 
U.S. Geological Survey, the National Parks Service and the U.S. Forest 
Service as they work to combat white nose syndrome. While we support 
this request, we believe that $5 million will not be sufficient to 
combat this disease. We are aware that scientists may suggest funding 
in the range of $30 million to address the issue--we believe this to be 
a more accurate figure and would support funding in this amount.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
